 Interagency coordInatIon
group of Inspectors general
   for guam realIgnment
       annual report




          sectIon 2835 of the natIonal defense
         authorIzatIon act for fIscal year 2010




                  [february 1, 2012]
                     (Public Law 111-84)
On October 28, 2009, President Obama signed Public Law 111-84, “The National Defense Authorization
Act for FY 2010.” Section 2835 of the Act established the Interagency Coordination Group of Inspectors
General for the Guam Realignment with the following duties.



                                     PUBLIC LAW 111-84
         It shall be the duty of the Interagency Coordination Group to conduct, supervise,
         and coordinate audits and investigations of the treatment, handling, and expenditure
         of amounts appropriated or otherwise made available for military construction on
         Guam and of the programs, operations, and contracts carried out utilizing such funds,
                                             including—

                   (A) the oversight and accounting of the obligation and expenditure of
                       such funds;
                   (B) the monitoring and review of construction activities funded by such
                       funds;
                   (C) the monitoring and review of contracts funded by such funds;
                   (D) the monitoring and review of the transfer of such funds and
                       associated information between and among departments, agencies,
                       and entities of the U.S. and private and nongovernmental entities;
                   (E) the maintenance of records on the use of such funds to facilitate
                       future audits and investigations of the use of such funds; and
                   (F) the monitoring and review of the implementation of the Defense
                       Posture Review Initiative relating to the realignment of military
                       installations and the relocation of military personnel on Guam.

         Not later than February 1 of each year, the chairperson of the Interagency Coordination
         Group shall submit to the congressional defense committees, the Secretary of Defense,
         and the Secretary of the Interior a report summarizing, for the preceding calendar year,
         the activities of the Interagency Coordination Group during such year and the activities
         under programs and operations funded with amounts appropriated or otherwise made
         available for military construction on Guam. Each report shall include, for the year
         covered by the report, a detailed statement of all obligations, expenditures, and revenues
                                      associated with such construction.


See Appendices A and B for the full text of the legislative mandates for the Guam realignment in the
National Defense Authorization Act for FY 2010 and FY 2012, respectively.
                     Message from the Chairperson,
                    Interagency Coordination Group

I am pleased to provide the third annual report of the Interagency Coordination
Group of Inspectors General for Guam Realignment. This annual report, required
by Public Law 111-84, “The National Defense Authorization Act for Fiscal Year
2010,” October 28, 2009, covers the reporting period from January 1, 2011, through
December 31, 2011.

The Interagency Coordination Group met on December 14, 2011, to discuss legislative
requirements, facilitate interagency coordination, and request information on oversight
initiatives that were planned or completed. The Interagency Coordination Group
members are the Inspectors General of the Departments of Defense and Interior, joined
by representatives of the Inspectors General of the Departments of Education, Homeland
Security, Transportation, and the Environmental Protection Agency.

The Interagency Coordination Group focuses on challenge areas for the realignment,
including operational readiness, quality of life, contract management, contractor
oversight, asset accountability, and financial management. The group considers risks
associated with these challenges when developing oversight initiatives.

Two planning groups support the Interagency Coordination Group: the Interagency
Planning Group, consisting of representatives of our interagency partners, and the Joint
Planning Group, consisting of representatives of the Department of Defense oversight
partners. Both groups are led by Department of Defense Inspector General staff, who
provide briefings, track trends, coordinate audit de-confliction, and present issues to the
Interagency Coordination Group for consideration.

I want to thank the Interagency Coordination Group participants and those Federal and
Defense agencies supporting this effort. As the group moves forward, Congress, the
Department of Defense, and senior leadership throughout the U.S. Government will
use their oversight efforts to minimize the impact on the citizens of Guam, improve the
economy and efficiency of vital programs and operations, and sustain the readiness of
U.S. forces.




                                   Lynne M. Halbrooks




                                                                         Guam RealiGnment RepoRt
                                                                                 FebRuaRy 1, 2012
Guam RealiGnment RepoRt
FebRuaRy 1, 2012
                           EXECUTIVE SUMMARY
Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,”
(NDAA 2010), October 28, 2009, section 2835, designates the Inspector General of the
Department of Defense as the Chairperson of the Interagency Coordination Group of
Inspectors General for Guam Realignment. The Chairperson is required to provide an
annual report to the congressional defense committees, the Secretary of Defense, and
the Secretary of the Interior on the activities of the Interagency Coordination Group
and the programs and operations funded with amounts appropriated or otherwise made
available for military construction on Guam. This report contains data collected from
multiple organizations. The Department of Defense Office of Inspector General did not
independently verify, analyze, or validate the data provided for this report.

The Defense Posture Review Initiative serves as the framework for the future of U.S. force
structure in Japan and the U.S. Marine Corps realignment to Guam. The purpose of the
Defense Posture Review Initiative is to develop a common security view; to review roles,
missions, and capabilities; and to review force posture changes. Included in these initiatives
are the relocation of U.S. Marine Corps personnel to Guam, the return of selected bases
and facilities to the government of Japan, and the consolidation of some of the remaining
U.S. bases and facilities in Guam. The Joint Guam Program Office continues to facilitate,
manage, and execute requirements associated with the Guam Realignment. Expected
construction costs for facility and infrastructure development requirements relating to the
Guam realignment were initially estimated at $10.27 billion but are expected to increase.
The government of Japan agreed to provide up to $6.09 billion.

This report identifies the programs and operations funded with appropriated amounts or
funds otherwise made available for military construction on Guam in calendar year 2011.

   •	 DoD obligated approximately $148.0 million and expended approximately
      $59.0 million. Other Federal agencies obligated approximately $34.4 million and
      expended approximately $2.2 million. (Section 1)
   •	 DoD identified 157 projects and programs, totaling approximately $46.1 million,
      with an estimated completion cost of approximately $466.5 million. Other Federal
      agencies identified 18 projects and programs, totaling approximately $2.2 million,
      with an estimated completion cost of approximately $81.5 million. (Section 2)
   •	 The government of Japan provided no revenues in calendar year 2011 and earned
      approximately $2.4 million in interest associated with revenues contributed to date.
      (Section 3)
   •	 DoD identified operating expenses of approximately $21.1 million. Other Federal
      agencies identified operating expenses of approximately $1.7 million. (Section 4)
   •	 DoD identified 79 contracts and 13 grants, valued at approximately $202.6 million.
      Other Federal agencies identified 3 contracts and 11 grants, valued at approximately
      $36.3 million. (Section 5)



                                                                          Guam RealiGnment RepoRt
                                                                                  FebRuaRy 1, 2012
                          Proposed Actions on Guam




Guam RealiGnment RepoRt
FebRuaRy 1, 2012
                                       Table of Contents
Background	       	    	    	    	    	    	    	   		      	      															1
	
Efforts of the Interagency Coordination Group                                    7
            (Section 2835(e)(1))


Section 1. U.S. Government Obligations and Expenditure Data                    13
           (Section 2835(e)(1)(A))


Section 2. Project and Program Costs                                           17
            (Section 2835(e)(1)(B))


Section 3. Government of Japan Revenue                                         33
           (Section 2835(e)(1)(C))


Section 4. Operating Expenses                                                  37
           (Section 2835(e)(1)(D))


Section 5. Contracts, Grants, Agreements, or Other Funding                     41
           Mechanisms Data (Section 2835(e)(1)(E))


Appendices

     A. Legislative Mandates for Guam Realignment in the National              65
        Defense Authorization Act for FY 2010
     B. Legislative Mandates for Guam Realignment in the National              74
        Defense Authorization Act for FY 2012
     C. Guam Realignment Related Reports and Testimonies                       76
     D. Acronyms                                                               79




                                                         Guam RealiGnment RepoRt
                                                                 FebRuaRy 1, 2012
                    Andersen	Air	Force	Base,	Guam,	is	photographed
                         from	an	F-16D	Fighting	Falcon	during
                                  Exercise	Cope	North




Guam RealiGnment RepoRt
FebRuaRy 1, 2012
Background
DeFense postuRe Review initiative
                             In 2001, President George W. Bush ordered a review of the Defense
                             strategy and capabilities with the intent to change how the Department of
                             Defense (DoD) conceptualized and projected the U.S. presence overseas.
                             In response, the Secretary of Defense initiated the Global Defense Posture
                             Review, a strategy-based reassessment of the size, location, types, and
                             capabilities of our forward military forces.

                               The United States engaged the government of Japan (GOJ) to coordinate
                               changes to the U.S. force posture in Japan and to discuss the options on
                               how to best coordinate those changes with other force realignments in
                               the Pacific. From 2005 through 2011, the United States engaged with
                               the GOJ in a series of sustained security consultations under the auspices
                               of the U.S.-Japan Security Consultative Committee. These talks, which
                               became known as the Defense Posture Review Initiative (DPRI), were
                               meant to improve the U.S.-Japan Security Alliance and reflect the rapidly
changing global security environment. The DPRI focused on alliance transformation at the strategic and
operational levels, with particular attention to the posture of U.S. and Japanese forces in Japan, as well
as transforming capabilities in the Western Pacific based on the U.S. and Japanese alliance.

u.s. militaRy RealiGnment on Guam
The GOJ and the United States examined and identified appropriate financial and other measures to
maintain the deterrent effect of forward-deployed U.S. forces and recognized the strong desire of
Okinawa residents to have the U.S. presence reduced rapidly. Some measures included:
  • relocating Marine aviation capabilities from Marine Corps Air Station Futenma to a new facility,
  • relocating Marines and dependents from Okinawa, Japan, to Guam, and
  • consolidating the remaining Marine forces in Okinawa into less land area to enable the return of
    valuable real estate.

The “U.S.-Japan Alliance Transformation and Realignment Agreement for the Future” resulted from
these discussions between the GOJ and the United States.

On May 1, 2006, representatives from both Governments signed the “U.S.-Japan Roadmap for
Realignment Implementation.” The Roadmap consists of 19 separate initiatives that deal with the
realignment of U.S. forces in Japan. The Roadmap states that the United States and Japan will locate
the Futenma Replacement Facility (FRF) in the Camp Schwab area of Okinawa and that approximately
8,000 III Marine Expeditionary Force personnel, and their estimated 9,000 dependents, will relocate
from Okinawa to Guam.

In 2009, representatives from the Democratic Party of Japan were elected to office. These
representatives asked to reopen negotiations on the May 1, 2006, agreement. The President, the
Secretary of Defense, and representatives from the GOJ held meetings in September 2009 and
October 2009, but they did not develop a new agreement until 2010.



                                                                               Guam RealiGnment RepoRt
                                                 1
                                                                                       FebRuaRy 1, 2012
 S
                                                Since the last report, several events occurred that could
                                                affect the realignment to Guam. In March 2011, the
                                                Department of Defense and various agencies in Guam
                                                signed a Programmatic Agreement that fulfilled the legal
                                                requirements of Section 106 of the National Historic
                                                Preservation Act of 1969. In April 2011, the Government
                                                of Guam (GoG) released its “One Guam Buildup” report,
                                                outlining approximately $1.8 billion in projects to offset
                                                the impact of the military realignment.

                                                During 2011, two congressional actions occurred. In
                                                May 2011, Senators Carl Levin and Jim Webb (following
                                                a trip to Guam, Tinian, and Japan) sent a letter to the
                                                Secretary of Defense that outlined their concerns with the
   Secretary	of	Defense	Leon	Panetta	
                                                realignment, and in December 2011, Congress passed the
     meets	with	Japanese	Foreign	
                                                National Defense Authorization Act (NDAA) for 2012,
   Minister	Koichiro	Gemba	in	Tokyo,	
                                                which restricted appropriations for the realignment.
             October	2011
                                              In June 2011, Secretary of State Hillary Rodham Clinton,
 Secretary of Defense Robert Gates, Minister for Foreign Affairs Takeaki Matsumoto, and Minister of
 Defense Toshimi Kitazawa met for the U.S.-Japan Security Consultative Committee talks to continue
 discussions on important decisions concerning the realignment. Additionally, in October 2011,
 Secretary of Defense Leon Panetta met with Japanese senior official to discuss relocation of U.S. forces
 in Okinawa.

 Programmatic Agreement Signed. In March 2011, representatives from DoD, the Federal Advisory
 Council on Historic Preservation, the Guam State Preservation Officer, and the Commonwealth of the
 Northern Mariana Islands State Historic Officer signed a Programmatic Agreement. The Programmatic
 Agreement satisfies Section 106 requirements of the National Historic Preservation Act of 1969 for
 Federal agencies to consider how their efforts will affect historic properties and allow the Advisory
 Council on Historic Preservation an opportunity to provide input on those planned efforts.

 The Programmatic Agreement encompassed three primary projects:
   • relocation of approximately 8,600 Marines and their estimated 9,000 dependents,
   • construction and operation of a transient nuclear aircraft carrier wharf, and
   • establishment and deployment of an Army Air and Missile Defense Task Force.

 In the Programmatic Agreement, DoD agreed to consult with the signatories and concurring parties
 to review the live-fire range location, orientation, and design; and to ensure that the public can access
 historical sites 24 hours a day, 7 days a week. The agreement also mandated that DoD develop a
 Range Mitigation Plan for all parties to review. The Range Mitigation Plan will be effective when
 representatives from DoD, the U.S. Marine Corps, the Advisory Council on Historic Preservation, and
 the State Historic Preservation Officer sign it.

 Mitigation efforts to offset the impact of building a new base are an integral part of the Programmatic
 Agreement. As signed, the Programmatic Agreement calls for DoD to request funds to support the

Guam RealiGnment RepoRt
                                                         2
FebRuaRy 1, 2012
construction of a 20,000-square-foot curation facility on Guam. If the Guam museum cannot provide
a permanent curation facility after 5 years, DoD must also construct a Federal curation facility on DoD
property. Additionally, DoD will also seek authorizations and appropriations to support construction of a
curation facility on Saipan and a cultural and interpretive center on Tinian. Finally, DoD will conduct an
inventory of all records to identify cultural materials removed from Guam to other locations throughout
the United States and commits to return all Guam collections within DoD control to Guam for curation.

One Guam Buildup. On April 26, 2011, the GoG published “One Guam Buildup.” This document
provided details on 43 projects, totaling approximately $1.1 billion, that the GoG stated are necessary to
support the buildup. These 43 projects are in addition to 11 projects previously submitted to the Office
of Management and Budget. The 11 projects, valued at approximately $700 million, bring the total
requirements for the GoG to approximately $1.8 billion. The GoG provided all cost data using FY 2012
dollars, but also included escalation percentages from FY 2013 through FY 2015.1 The document also
includes requirements for full-time government employees (such as educators, administrative personnel,
and government representatives) that will have a continuing cost of more than $26 million annually.2

Congressional Actions. In May 2011,
following their travels to Guam, Tinian,
Okinawa, and Tokyo, Senators Carl
Levin and James Webb sent a letter to
then Secretary of Defense, Robert Gates,
outlining their concerns. The senators
agreed with the general framework to
rebase 8,000 Marines on Guam, but
stated that it was militarily complex and
potentially costly. The senators were
also sensitive that the realignment would
be an enormous burden on the Japanese
economy because of the March 2011
earthquake and tsunami, and they noted
that environmental issues on Guam were
unresolved. They stated that the key
issue was whether to relocate families
with the 8,000 Marines or to configure               U.S.	Sailors	raise	the	U.S.	flag	for	students	of	Price	
the Marines as mostly deployed units                  Elementary	School	during	a	community	relations	
rotating to Guam. The senators stated this                       project	at	Mangilao,	Guam,		
approach would make a strong difference                               February	24,	2010
in the infrastructure costs for schools,
recreational facilities, and housing.

In the letter, the senators also made several recommendations, including consideration of a smaller
Marine headquarters on Guam with rotational forces; consideration of moving Marine aviation assets
from Marine Corps Air Station Futenma to Kadena Air Force Base, Japan; and submission of the Master
Plan, which was first requested in 2006.


1 Escalation rates were listed as 1.085 percent for 2013, 1.102 percent for 2014, and 1.124 percent for 2015.
2 Funding was requested for approximately 400 additional positions, including police and parks and recreation personnel;
  however, cost data was not provided.

                                                                                            Guam RealiGnment RepoRt
                                                         3
                                                                                                    FebRuaRy 1, 2012
 On December 31, 2011, President Obama signed the NDAA 2012. Section 2207, (Guam Realignment)
 of the NDAA 2012 restricted the use of funds, stating that except as provided and notwithstanding any
 other provision of law, “none of the funds authorized to be appropriated under this Act, and none of the
 amounts provided by the Government of Japan for military construction activities on land under the
 jurisdiction of the Department of Defense, may be obligated to implement the realignment of United
 States Marine Corps forces from Okinawa to Guam as envisioned in the United States-Japan Roadmap
 for Realignment Implementation issued May 1, 2006, until:

   (1) the Commandant of the Marine Corps, in consultation with the Commander of the United States
       Pacific Command, provides the congressional defense committees the Commandant’s preferred
       force lay-down for the United States Pacific Command Area of Responsibility;
   (2) the Secretary of Defense submits to the congressional defense committees a master plan for the
       construction of facilities and infrastructure to execute the Commandant’s preferred force lay-
       down on Guam, including a detailed description of costs and a schedule for such construction;
   (3) the Secretary of Defense certifies to the congressional defense committees that tangible progress
       has been made regarding the relocation of Marine Corps Air Station Futenma;
   (4) a plan coordinated by all pertinent Federal agencies is provided to the congressional defense
       committees detailing descriptions of work, costs, and a schedule for completion of construction,
       improvements, and repairs to the non-military utilities, facilities, and infrastructure on Guam
       affected by the realignment of forces; and
   (5) the Secretary of Defense-
        (A) submits to the congressional defense committees the report on the assessment of the
            United States force posture in East Asia and the Pacific region required under Section 346 of
            this Act or;
        (B) certifies to the congressional defense committees that the deadline established under such
            section for the submission of such report has not been met.”

 The study directed in Section 346, requires the Secretary of Defense to commission an independent
 assessment conducted by a non-governmental institute. The institute must have recognized credentials
 and expertise in national security and military affairs and access to policy experts throughout the country
 and region. The assessment must include the following elements:

   (1) a review of current and emerging U.S. national security interests in the U.S. Pacific Command
       area of responsibility,
   (2) a review of current U.S. military force posture and deployment plans of the U.S. Pacific
       Command,
   (3) options for the realignment of U.S. forces in the region to respond to new opportunities presented
       by allies and partners, and
   (4) the views of noted policy leaders and regional experts, including military commanders in the
       region.

 The assessment is due to the congressional defense committees by June 28, 2012. Congress authorized
 up to $1 million to complete the study.


Guam RealiGnment RepoRt
                                                        4
FebRuaRy 1, 2012
One exception in the NDAA 2012 would allow the Secretary of Defense to expend funds on the
realignment. The Secretary of Defense may expend funds if the funds are used to carry out additional
analysis under the National Environmental Policy Act of 1969, to re-evaluate live-fire training range
complex alternatives, or to evaluate the impact on coral reefs in Apra Harbor.

Security Consultative Committee. In June 2011, the United States and the GOJ held another round
of Security Consultative Committee (SCC) talks. Secretary of State Hillary Rodham Clinton, Secretary
of Defense Robert Gates, Minister for Foreign Affairs Takeaki Matsumoto, and Minister of Defense
Toshimi Kitazawa attended the meeting. Also referred to as the “2+2” talks, the principals reconfirmed
many of the key elements of the Agreed Implementation Plan with only minor changes. According to a
State Department press release, several key issues including those listed below, were discussed.

  • The SCC members reconfirmed the importance of the FRF as a key element of the roadmap
    and confirmed its future location and design at Camp Schwab. They agreed to consider minor
    adjustments to the FRF plan, provided the environmental impact assessment procedures and
    construction could move forward without significant delays.
  • Noting that completion of the FRF and the Marine relocation would not meet the previous target
    of 2014, the parties confirmed their commitment to completing the projects at the earliest possible
    date after 2014 to avoid the indefinite use of the Marine Corps Air Station Futenma.
  • The SCC members also reaffirmed that the relocation of III Marine Expeditionary Force personnel
    and dependents from Okinawa to Guam is dependent on tangible progress being made on the FRF.
    The relocation to Guam will realize the consolidation and return of most of the facilities south of
    Kadena Air Base.
  • The parties confirmed their commitment to ensuring the funding necessary for the steady
    implementation of the relocation in accordance with the terms and conditions of the Roadmap and
    the Agreed Implementation Plan is available. The United States continues to examine the unit
    composition of III Marine Expeditionary Force personnel remaining on Okinawa with respect to
    overall theater security, including deterrence, while at the same time accounting for the concerns of
    local communities.
  • Additionally, the principals embraced the January 2011 Joint Committee Agreement on Aviation
    Training Relocation program, including Guam as a host location, and decided to study further
    options for training relocation both inside and outside of Japan.
  • They also welcomed the establishment of a working group for the “Agreement on the
    Environment,” and accelerated consideration of an agreement on reasonable access to U.S. facilities
    and areas for environmental surveys before land returns.

Secretary of Defense Visit to Japan. In October 2011, Secretary of Defense Leon Panetta travelled to
Japan to meet with Japanese Prime Minister Yoshihiko Noda, Foreign Affairs Minister Koichiro Gemba,
and Defense Minister Yasuo Ichikawa to discuss, among other matters, the relocation of U.S. forces on
Okinawa and the efforts to complete the environmental impact assessment required to move ahead with
the plan that will significantly adjust U.S. forces on Okinawa.




                                                                               Guam RealiGnment RepoRt
                                                5
                                                                                       FebRuaRy 1, 2012
 FunDinG aRRanGements
 The U.S. Government and the GOJ estimated costs for facility and infrastructure development
 requirements relating to the realignment to be approximately $10.27 billion (FY 2008 U.S. dollars). The
 GOJ agreed to provide up to $6.09 billion of the $10.27 billion and the U.S. Government was to fund
 approximately $4.18 billion. According to the “U.S.-Japan Roadmap for Realignment Implementation,”
 the United States would fund the remainder of the facilities and infrastructure development costs for the
 relocation to Guam. Figure 1 identifies the 2006 funding arrangement between the U.S. Government
 and the GOJ.

          Figure 1. Original (2006) Funding Sources for Realignment (total $10.27 billion)
                                             (billions)




               Sources: “Agreement Between the GOJ and the U.S. Government Concerning the Implementation of the
               Relocation of III Marine Expeditionary Force Personnel and Their Dependents from Okinawa to Guam,”
               February 17, 2009 and Joint Guam Program Office, “Guam Military Realignment Overview,”
               February 5, 2008.




Guam RealiGnment RepoRt
                                                                      6
FebRuaRy 1, 2012
Efforts of thE IntEragEncy
coordInatIon group




                                              	S




                             Guam RealiGnment RepoRt
                 7
                                     FebRuaRy 1, 2012
      Efforts of the Interagency Coordination Group of
      Inspectors General for Guam Realignment

      Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,” (NDAA 2010),
      October 28, 2009, section 2835, designates the Inspector General, DoD, as the Chairperson of the
      Interagency Coordination Group of Inspectors General for Guam Realignment (ICG). Additionally, the
      Inspector General of the Department of the Interior (DOI) is a required member.

         •     Department of Defense. DoD’s mission is to provide the military forces needed to deter war
               and protect the security of our country. The DoD Office of Inspector General (DoD OIG), as
               well as the audit and investigative agencies within the Army, Navy, Air Force and Defense
               agencies, provide oversight of the Guam realignment to improve the efficiency and effectiveness
               of the military.

         •     Department of the Interior. DOI’s mission is to protect America’s natural resources and
               heritages, honor our cultures and tribal communities, and supply the energy to power our future.
               The DOI has administrative responsibility for coordinating Federal policy in Guam and executes
               that responsibility through its Office of Insular Affairs. Under the Insular Areas Act of 1982
               (section 1422, title 48, United States Code), the Inspector General, DOI, serves as “government
               comptroller” in the U.S. insular area of Guam by conducting audits of all properties, receipts,
               revenues, and expenditures.

      On December 14, 2011, the ICG Chairperson met with representatives from the Inspectors General
      from the Departments of Education (ED), Homeland Security (DHS), Transportation (DOT) and the
      Environmental Protection Agency (EPA) to discuss concerns and encourage each of the Federal agencies
      to participate in the oversight efforts.

      The ICG Chairperson continues to oversee the development of a strategy to conduct, supervise, and
      coordinate oversight activities to monitor the use of funding for the Guam realignment. To assist with
      the development of this strategy, the ICG Chairperson established the Guam Interagency Planning
      Group (IPG). The IPG met on June 15, 2011; September 14, 2011; and December 7, 2011, to discuss
      developments, share information, coordinate and de-conflict agency oversight plans, and provide input
      for the ICG meetings.

                                                              IC
	S




             ICG representatives meet to discuss
              Guam realignment oversight efforts
                      (December 2011)

     Guam RealiGnment RepoRt
                                                             8
     FebRuaRy 1, 2012
    Efforts of the Interagency Coordination Group of
           Inspectors General for Guam Realignment

S




                                                       	S




                          Guam RealiGnment RepoRt
9
                                  FebRuaRy 1, 2012
      Efforts of the Interagency Coordination Group of
      Inspectors General for Guam Realignment

      to obtain required training at additional cost. Marine Forces Pacific representatives suggested that travel
      for this training could cost between $20 and $69 million annually depending on the training location.
      The NAVAUDSVC reported that additional planning would be required for those training ranges that
      were not addressed and could adversely affect the realignment’s cost and schedule.

      On June 24, 2011, Deloitte LLC issued an Independent Auditors Report (DOT SA-2011-154) for
      the DOT in accordance with Office of Management and Budget Circular A-133 and on the schedule
      of expenditures of Federal awards. This report offered a qualified opinion on compliance and two
      findings relating DOT Federal grants in Guam. This audit is relevant to the future of the realignment
      because DoD will provide funding for road infrastructure in Guam. The single audit report said that
      the GoG did not maintain various financial reports nor did it comply with equipment and real property
      management requirements. Therefore, the GoG did not comply with the reporting requirements
      applicable to these programs. The report also stated that “the Government of Guam has not performed
      the required comprehensive physical inventories of its property in FY 2010 or in the two prior years.”
      Noncompliance with applicable equipment management requirements is a repeat finding from prior
      DOT single audit reports in Guam. The report recommended that the Federal Highway Administration
      ensure the GoG complies with equipment and real property management requirements, and conducts a
      physical inventory of all equipment. According to a DOT representative, the GoG is still in the process
      of developing and implementing corrective action and developing an equipment management system
      that complies with applicable equipment management standards that is scheduled to be complete by
      September 2012.

      onGoinG oR planneD auDits
      ICG members and the GAO are conducting six audits. The DoD OIG will publish a report on the
      U.S. Marine Corps transition to Joint Region Marianas and other joint basing concerns. The report will
      discuss implementation of the joint basing program at Pearl Harbor-Hickam, Hawaii, and Joint Region
      Marianas. DoD OIG is currently conducting an audit to evaluate the methodology used to determine
      the number and type of medical staff needed, and the plan for providing specialty care to eligible
      beneficiaries in Guam, based on the expected population increases resulting from the realignment in
      Guam. The DOI is conducting two reviews, one on the Evaluation of Guam Power Authority and
      the other on the Evaluation of Guam Public Safety, that will examine the extent that the Guam Police
      Department, Guam Fire Department, and Guam Homeland Security are able to meet the needs of the
      citizens of Guam and prepare for the increase in population. The NAVAUDSVC will release its fourth
      audit on Navy military construction associated with the realignment of forces in Guam. Also, the GAO
      is conducting a review of the U.S. Marine Corps realignment efforts in Japan, Okinawa, and Guam.
      The report will focus on the planning, cost, long-term financial commitments, status of the FRF and the
      transfer of Marine forces to Guam. This report will also address the impact of the natural disasters that
      struck Japan in 2011.
	S




      2012 auDit plans
      In 2011, Congress substantially reduced appropriations for the realignment of forces to Guam over
      previous years. Additionally, as indicated in the Security Consultative Committee talks, the realignment,
      while moving forward, has slowed from the original expectations of a 2014 completion date.

      The Joint Explanatory Statement of the Committees on Armed Services of the U.S. Senate and House
      of Representatives on the National Defense Authorization Act for FY 2011 recommended that further
      authorizations for the construction of future projects requested to support the movement of Marines


     Guam RealiGnment RepoRt
                                                             10
     FebRuaRy 1, 2012
                                                          Efforts of the Interagency Coordination Group of
                                                                 Inspectors General for Guam Realignment

to Guam be deferred until DoD provided Congress with key data. The key data includes an updated
master plan for construction, a plan to address civilian requirements for the upgrade of infrastructure,
tangible progress towards acquisition of lands on Guam required to support U.S. Marine Corps training
ranges, and tangible progress made to implement a final decision concerning the FRF. As of the date
of this report, DoD has not fulfilled these requirements. The NDAA 2012 reflected the sentiments of
the defense committees and withheld appropriations until five criteria are met (see pages 3 and 4 under
congressional actions).

While it is the intent of the ICG to provide the oversight required, due diligence requires that the
oversight effort be commensurate with the funds being expended and is reflected in the realignment
audit plans by members of the ICG as follows.

The DoD OIG will conduct an audit of the total cost estimate for the Guam realignment. The objective
of this audit will be to examine DoD, Joint Guam Project Office, and the U.S. Marine Corps processes
for developing total cost estimates for the military buildup in Guam. Specifically, the DoD OIG will
review the plan, data, assumptions, risks, and methodology used to develop the total cost estimate for the
Guam realignment.

2011 investiGations
In April 2011, the Defense Criminal Investigative Service hosted a Guam Military Realignment
Investigative Working Group. The purpose of the working group was to provide a forum for
respective agencies to coordinate and de-conflict major fraud and corruption cases related to the Guam
Realignment. Approximately 10 agencies were represented from the military criminal investigative
organizations, the Inspectors General, and the Federal law enforcement community.

From January 1, 2011, through December 31, 2011, the Naval Criminal Investigative Service,
and the Office of Inspectors General for the Housing and Urban Development, the Social Security
Administration, and the DOI engaged in seven investigations related to programs and operations funded
with amounts appropriated or otherwise made available for military realignment construction on Guam,
as shown in Table 1.

        Table 1. Guam Military Realignment Investigative Working Group Investigations
                       (January 1, 2011 through December 31, 2011)
                                                              Type of                  Status of
                     Investigative Agency                  Investigation             Investigation
         Housing	and	Urban	Development               Not	defined                  Closed

         Housing	and	Urban	Development               Not	defined                  Open

         Social	Security	Administration              Theft/Embezzlement           Closed                       	S
         Social	Security	Administration              Misuse	of	Social	Security	   Closed
                                                     Number
         Naval	Criminal	Investigative	Service        Procurement	Fraud            Open

         Department	of	Interior                      Public	Corruption            Open

         Department	of	Interior                      Not	defined                  Open




                                                                                    Guam RealiGnment RepoRt
                                                11
                                                                                            FebRuaRy 1, 2012
             DoD	OIG	representative	briefs	               Joint	Guam	Program	Office	
             key	factors	in	Guam	oversight	            representative	briefs	the	Guam	
                        strategy                         Interagency	Planning	Group




              DoD	OIG	personnel	in	Guam	                  Other	Federal	agencies’	
            receive	briefing	on	Layon	Landfill	        representatives	participating	in	
                          Design                        Interagency	Planning	Group




Guam RealiGnment RepoRt
                                                  12
FebRuaRy 1, 2012
                                               1
u.s. govErnmEnt oblIgatIons and
ExpEndIturE data




                                              	S




                             Guam RealiGnment RepoRt
                  13
                                     FebRuaRy 1, 2012
      Section 1: U.S. Government Obligation and
      Expenditure Data (Section 2835(e)(1)(A))

      Public Law 111-84 states that not later than February 1 of each year, the ICG Chairperson must report on
      the programs and operations funded with amounts appropriated or otherwise made available for military
      construction on Guam. Each report shall include a detailed statement of all obligations and expenditures
      associated with such construction.

      DoD appRopRiation types
      DoD plans to fund the majority of its costs for the Guam realignment with military constrution
      (MILCON) and Operation and Maintenance appropriations. The MILCON appropriation will be used
      to fund any construction, alteration, development, conversion, or extension carried out with respect to
      a military installation. Operation and Maintenance appropriations will be used to fund expenses whose
      benefits are derived for a limited period of time and are not related to military personnel or research and
      development.

      u.s. FunDinG FoR RealiGnment
      Construction of new facilities, improvements to existing facilities, and improvements to infrastructure
      will be necessary for the movement of the U.S. Marine Corps forces to Guam. From FY 2008
      through FY 2011, DoD appropriated $11.0 million, $28.0 million, $324.7 million, and $129.6 million,
      respectively. Figure 2 identifies the appropriated amounts for MILCON for these years.

                       Figure 2. Military Construction Appropriations FY 2008 - FY 2011
                                                   (millions)
	S




                   Sources: Office of the Under Secretary of Defense (Comptroller/Chief Financial Officer) response provided on 1/14/2010 and
                   1/11/2012, and Joint Guam Program Office response provided on 1/14/2010.




     Guam RealiGnment RepoRt
                                                                             14
     FebRuaRy 1, 2012
                                                                                    Section 1: U.S. Government Obligation and
                                                                                      Expenditure Data (Section 2835(e)(1)(A))

DoD obliGations anD expenDituRes
The majority of MILCON and Operation and Maintenance appropriated funds are planned for obligation
and expenditure in future fiscal years. The DoD OIG requested the Under Secretary of Defense
(Comptroller/Chief Financial Officer); Assistant Secretary of the Army (Financial Management and
Comptroller); Assistant Secretary of the Navy (Financial Management and Comptroller); Assistant
Secretary of the Air Force (Financial Management and Comptroller); Director, Defense Finance
and Accounting Service; and the Program Resource Director/Chief Financial Officer, Joint Guam
Program Office (JGPO) to provide obligation and expenditure data supporting the U.S. Marine Corps
realignment to Guam. In calendar year 2010, DoD obligated approximately $164 million and expended
approximately $55 million in MILCON and Operation and Maintenance appropriations.

For calendar year 2011, DoD obligated approximately $148.0 million and expended approximately
$59.0 million. Table 2 identifies the amounts obligated and expended for each appropriation from
January 1, 2011, through December 31, 2011.3

            Table 2. DoD Obligations and Expenditures Related to the Guam Realignment
                           (From January 1, 2011 – December 31, 2011)

                              Appropriation*                                   Obligations                    Expenditures
           MILCON,	Navy	and	Marine	Corps                                      $108,929,519                     $	37,867,519

           Operation	and	Maintenance,	Navy                                    $				3,681,742                   $			3,278,166

           Operation	and	Maintenance,	Marine	Corps                            $		34,751,377                    $	17,390,642

           Operation	and	Maintenance,	Army                                    $																			-            $								79,691
           Family	Housing	Operation	and	Maintenance,	
                                                                              $							655,095                  $						344,628
           Navy	and	Marine	Corps
              Total                                                           $148,017,733                     $ 58,960,646

          Sources: Naval Facilities Engineering Command Headquarters response to DoD OIG data call 1/6/2012; Joint Guam
          Program Office response to DoD OIG data call, 1/6/2012; U.S. Marine Corps response to DoD OIG data call, 1/6/2012 and
          1/18/2012; and the Department of the Army response to DoD OIG data call, 1/6/2012.




                                                                                                                                        Section	2835(e)(1)(A)
                                                                                                                                        	




3 The Department of the Air Force did not report obligations or expenditures supporting the Guam realignment during 2011.

                                                                                                             Guam RealiGnment RepoRt
                                                                 15
                                                                                                                     FebRuaRy 1, 2012
      Section 1: U.S. Government Obligation and
      Expenditure Data (Section 2835(e)(1)(A))

      O




                                Agency                     Obligations                   Expenditures
                            DOC                            $						255,707                 $						264,050

                            DOL                            $								33,608                $								33,608

                            DOT                            $	34,095,351                   $			1,905,378

                             Total                         $ 34,384,666                   $ 2,203,036

                         Sources: DOC response to DoD OIG data call, 1/4/2012; DOL response to DoD OIG data call,
                         1/5/2012; and DOT response to DoD OIG data call, 1/6/2012.
	S




     Guam RealiGnment RepoRt
                                                                       16
     FebRuaRy 1, 2012
                                       2
projEct and program costs




                                       	S




                      Guam RealiGnment RepoRt
             17
                              FebRuaRy 1, 2012
      Section 2: Project and Program Costs
      (Section 2835(e)(1)(B))

      Public Law 111-84 requires the ICG annual report to contain a detailed statement on the costs incurred
      to date and costs estimated to complete each DoD or DOI military construction project or program. The
      report must identify all projects and programs associated with the realignment of military installations
      and the relocation of military personnel to Guam.

      RecoRDinG anD appRoval oF DoD pRojects
                                                                      DoD Regulation 7000.14-R, “Financial
                                                                      Management Regulation,” requires a
                                                                      narrative justification and validation
                                                                      for each military construction project.
                                                                      DoD uses the DD Form 1391 to
                                                                      provide justification for U.S.-funded
                                                                      military construction projects. When
                                                                      the DD Form 1391 is approved, DoD
                                                                      includes the military construction
                                                                      project within its budget justification,
                                                                      which becomes part of the President’s
                                                                      annual budget. The DD Form 1391
                                                                      is also used to request funds from the
                                                                      GOJ. Naval Facilities Engineering
                                                                      Command (NAVFAC) Pacific assists in
                                                                      the preparation of the DD Forms 1391
                                                                      and Headquarters, U.S. Marine Corps,
                                                                      verifies the scope requirements of each
                                                                      project before submission to the GOJ for
                                                                      approval.
           U.S.	Sailors	and	contractors	participate	in	the	
                                                                     In calendar year 2010, NAVFAC,
          groundbreaking	ceremony	for	a	training	center,	
                                                                     U.S. Marine Corps, and the Assistant
          a	headquarters	facility,	and	an	exercise	support	
                                                                     Secretary of the Army (Financial
             facility	at	Polaris	Point,	Guam,	July	2010
                                                                     Management and Comptroller) identified
                                                                     146 projects that received funds and were
                                                                     directly associated with the realignment
      of military installations and military personnel to Guam. These projects incurred costs of approximately
      $44.5 million with an estimated completion cost of approximately $149.7 million.
	S




      DoD anD Goj pRoject anD pRoGRam list
      For calendar year 2011, NAVFAC Headquarters reported 45 projects, and the U.S. Marines Corps
      reported 112 projects that were directly associated with the realignment of military installations and
      military personnel to Guam. These projects incurred costs of approximately $46.1 million with an
      estimated completion cost of approximately $466.5 million. Table 4 identifies the DoD and GOJ
      projects and programs and their associated costs.




     Guam RealiGnment RepoRt
                                                             18
     FebRuaRy 1, 2012
                                                                                                                                              Cost Incurred
                                                                                                           Total           Cost Incurred       January 1 -            Estimated
                                                                                                         Estimated         to Date (US or     December 31,             Costs to
                                         Project                   Description/Scope      Start Date       Cost             GOJ Funds)            2011                Complete
                           J001,	GOJ	CONSTRUCTION;	UTILITIES	
                                                              UTIL	&	SITE	IMPRV,	PH	1	
                           &	SITE	IMPROVE,	PH	1	(APRA	                                    11-Aug-11    	$169,000,000	      	$						538,601	    $						538,601	      $168,461,399	
                                                              (APRA	HARBOR)
                           HARBOR)
                           J001A,	GOJ	CONSTRUCTION;	
                                                               UTIL	&	SITE	IMPRV,	PH	1	
                           UTILITIES	&	SITE	IMPROVE,	PH	1	                                11-Aug-11    	$		27,000,000	     	$						173,100	   	$						173,100	      	$		26,826,900	
                                                               (AAFB)
                           (AAFB)
                           J006,	GOJ	DESIGN,	APRA	MEDICAL	     APRA	MEDICAL	CLINIC	
                                                                                          18-Feb-10    	$				2,977,923	    	$			2,794,413     	$						289,136	      	$							183,510	
                           CLINIC                              (APR	HARBOR)
                                                               WATERFRONT	
                           J007,	GOJ	DESIGN,	WATERFRONT	
                                                               HEADQUARTERS	              11-Jan-10    	$				2,047,463	    	$			1,944,938	    	$						124,352	      	$							102,525	
                           HEADQUARTERS	BUILDING
                                                               BUILDING
                                                               FIRE	STATION	
                           J008,	GOJ	DESIGN,	FIRE	STATION                                 11-Jan-10    	$				1,808,420	    	$						915,727    	$								14,243	     	$							892,693	
                                                               (FINEGAYAN)
                           J010,	GOJ	DESIGN,	BACHELOR	
                                                               BEQ	COMPLEX                27-Feb-10    	$				3,423,815	    	$			2,910,230     	$						660,974	      	$							513,585	
                           ENLISTED	QUARTERS	COMPLEX




     19
                           100;	CONSTRUCTION;	NORTH	RAMP	      DPRI-NORTH	RAMP	
                                                                                          6-Apr-11     	$		21,000,000	     	$						737,067	   	$						737,067	      	$		20,262,933	
                           UTILITIES                           UTILITIES,	INC	1	(AAFB)
                           1003;	CONSTRUCTION;	MILITARY	       MILITARY	WORKING	DOG	
                                                                                          29-Sep-10    	$		13,000,000	     	$			1,677,573	    	$			1,677,573	       	$		11,322,427	
                           WORKING	DOG	                        RELOC,	APRA	HRBR
                           1006:	CONSTRUCTION:	DEFENSE	        DAR/DPRI-DEFENSE	
                           ACCESS	ROAD	IMPROVEMENTS	           ACCESS	ROAD	               13-Jul-11    	$				7,825,000	    	$								24,405   	$								24,405	     	$				7,800,595	
                           (AGANA)                             IMPROVEMENTS	(AGANA)
                           101;	CONSTRUCTION;	NORTH	RAMP	      DPRI-NORTH	RAMP	
                                                                                          6-Apr-11     	$		88,000,000	     	$			6,072,725	    	$			6,072,725	       	$		81,927,275	
                           PARKING                             PARKING,	INC	1	(AAFB)
                           204;	CONSTRUCTION,	APRA	HARBOR	     APRA	HARBOR	WHARF	
                                                                                          30-Sep-10    	$125,000,000	      	$	23,185,054	     	$		23,151,385	       	$101,814,946	
                           WHARF	IMPROVEMENT                   IMPRV,	INC	1	OF	2
                                                                                                                                                                                               Table 4. Costs for DoD and GOJ Projects and Programs




                           010;	DESIGN,	PDM	IV	MARINE	CORPS	   PDM	IV	MARINE	CORPS	
                                                                                          15-Apr-08    	$				2,236,395	    	$			2,236,395	    	$						599,073	      $																			-			
                           MILCON                              MILCON
                           100;	DESIGN,	DPRI-NORTH	RAMP	       DPRI-NORTH	RAMP	
                                                                                          3-Dec-09     	$				1,221,042	    $			1,221,042	     	$													564	   $																			-			
                           UTILITIES,	INC	1	(AAFB)             UTILITIES,	INC	1	(AAFB)
                           1003;	DESIGN,	DPRI-MILITARY	        DPRI-MILITARY	WORKING	
                           WORKING	DOG	RELOC,	APRA	            DOG	RELOC,	APRA	HRBR       25-Oct-08    	$				1,539,216	    $			1,539,216	     	$										2,690	    $																			-			
                           HARBOR
                           100A;	DESIGN,	NORTH	RAMP	           DPRI-NORTH	RAMP	
                                                                                          15-Jan-11    	$							742,865	    $						726,112	   	$						726,112	            	$		16,753	
                           UTILITIES                           UTILITIES	INC	2	OF	2
                                                                                                                                                                                                                                                      Section 2: Project and Program Costs
                                                                                                                                                                                                                                                                    (Section 2835(e)(1)(B))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	S
                          	S

                                                                                                                                                 Cost Incurred
                                                                                                           Total            Cost Incurred         January 1 -                Estimated
                                                                                                         Estimated          to Date (US or       December 31,                 Costs to
                                        Project                  Description/Scope        Start Date       Cost              GOJ Funds)              2011                    Complete
                          101;	DESIGN,	DPRI-NORTH	RAMP	       DPRI-NORTH	RAMP	
                                                                                          3-Dec-09     	$				2,196,718	     $			2,186,628	       	$						201,849	           	$								10,090	
                          PARKING,	INC	1	(AAFB)               PARKING,	INC	1	(AAFB)




FebRuaRy 1, 2012
                          109;	DESIGN,	DPRI-AIRCRAFT	         DPRI-AIRCRAFT	
                          MAINTENANCE	HANGAR	(NORTH	          MAINTENANCE	HANGAR	         14-Mar-09    	$							240,040	    $						240,040	      	$						106,135	           $																		-			
                          RAMP)                               (NORTH	RAMP)
                                                                                                                                                                                                      (Section 2835(e)(1)(B))




                          110;	DESIGN,	DPRI-SITE	PREP	AND	    DPRI-SITE	PREP	AND	




Guam RealiGnment RepoRt
                          UTILITIES,	PHASE	1	(FINEGAYAN)      UTILITIES,	PHASE	1	         30-Sep-09    	$				6,689,014	     $			6,266,919	       	$						622,768	           	$						422,095	
                                                              (FINEGAYAN)
                          111;	DESIGN,	DPRI-APRA	HARBOR	      DPRI-APRA	HARBOR	
                                                                                          25-Nov-09    	$				1,251,286	     $			1,251,286	       	$																		-			   $																		-			
                          VICTOR	WHARF	IMPR                   VICTOR	WHARF	IMPR
                                                                                                                                                                                                      Section 2: Project and Program Costs




                          113;	DESIGN,	DPRI-FINEGAYAN	SITE	   DPRI-FINEGAYAN	SITE	
                          PREP	AND	UTILITIES	-	PHASE	2        PREP	AND	UTILITIES	-	       13-Feb-10    	$						989,645	     	$						491,128	     	$						369,868	           	$						498,517	
                                                              PHASE	2
                          2006;	DESIGN,	DPRI-	APRA	HARBOR	    DPRI-APRA	HARBOR	
                          EMBARK	FACILITIES	(AGANA)           EMBARK	FACILTIES	           30-Jan-10    	$						509,003	     $						509,003	      	$										4,752	         $																		-			
                                                              (AGANA)
                          2014;BASE	COMMUNICATIONS	           DPRI-BASE	
                          CENTER                              COMMUNICATIONS	             9-Nov-10     	$						288,633	     $						288,633	      	$						288,633	           $																		-			




    20
                                                              CENTER
                          204;	DESIGN,	DPRI-APRA	HARBOR	      DPRI-APRA	HARBOR	
                                                                                          14-Feb-09    	$			6,395,069	      	$			6,395,069	      	$						381,598	           $																		-			
                          WHARF	IMPRV,	INC	1	OF	2             WHARF	IMPRV,	INC	1	OF	2
                          2048;	DESIGN,	DPRI-FINEGAYAN	       DPRI-FINEGAYAN	WATER	
                                                                                          28-Jan-11    	$						709,085	     	$						671,062	     	$						671,062	           	$								38,023	
                          WATER	UTILITIES                     UTILITIES
                          205;	DESIGN,	DPRI-DEFENSE	ACCESS	 DPRI-DEFENSE	ACCESS	
                          ROAD	IMPROVEMENTS	(AGANA)         ROAD	IMPROVEMENTS	            27-Jun-11    	$								10,092	    $								10,092	     	$								10,092	          $																		-			
                                                            (AGANA)
                          598;	DESIGN,	DPRI-TRAINING	LAND	    DPRI-TRAINING	LAND	
                          ACQUISITION	(RT	15	ANDY	SOUTH)      ACQUISITION	(RT	15)         28-Mar-11     $								79,698	    $								79,698	     	$								79,698	          $																		-			
                                                              (ANDY	SOUTH)
                          599;	DESIGN,	DPRI-COMBAT	LOGISTIC	 DPRI-COMBAT	LOGISTIC	
                          COMPANY	FACILITIES	(FINEGAYAN)     COMPANY	FACILITIES	          19-Dec-09     $						408,324	     $						408,324	      	$																		-			   $																		-			
                                                             (FINEGAYAN)
                          600;	DESIGN,	DPRI	DAR	ROAD	         DPRI-DAR	ROAD	
                                                                                          27-Jun-11    	$										8,347	   	$										6,347	   	$										6,347	         	$										2,000	
                          REALIGNMENT	RT	15                   REALIGNMENT,	ROUTE	15
                          601;	DESIGN,	DPRI-AVIATION	         DPRI-AVIATION	FACILITIES	
                                                                                          19-Dec-09    	$						271,521	     $						271,521	      	$								12,471	          $																		-			
                          FACILITIES	AT	NORTH	RAMP            AT	NORTH	RAMP
                                                                                                                                                 Cost Incurred
                                                                                                           Total            Cost Incurred         January 1 -                Estimated
                                                                                                         Estimated          to Date (US or       December 31,                 Costs to
                                          Project                  Description/Scope       Start Date      Cost              GOJ Funds)              2011                    Complete
                           602;	DESIGN,	DPRI-III	MARINE	        DPRI-III	MARINE	
                           EXPEDITIONARY	FORCE	HQ	              EXPEDITIONARY	FORCE	       13-Feb-10    	$						465,938	     $						465,938	            	$	40,616	          $																		-			
                           (FINEGAYAN)                          HQ	(FINEGAYAN)
                           603;	DESIGN,	DPRI-FINEGAYAN	SITE	    DPRI-FINEGAYAN	SITE	
                           PREP	AND	UTILITIES	-	PH	3            PREP	AND	UTILITIES	-	PH	   30-Jan-10    	$						104,840	     $						104,840	     	$																		-			   $																		-			
                                                                3
                                                                DPRI-OPERATIONS	AND	
                           604;	DESIGN,	DPRI-OPERATIONS	AND	
                                                                ARMORY	FACILITIES	         13-Feb-10    	$						551,162	    	$						551,162	     	$						489,787	           $																		-			
                           ARMORY	FACILITIES	(FINEGAYAN)
                                                                (FINEGAYAN)
                                                                DPRI-CORROSION	
                           606;	DESIGN,	DPRI-CORROSION	
                                                                CONTROL	FACILITY	          19-Dec-09    	$						404,195	    	$						404,195	     	$								36,378	          $																		-			
                           CONTROL	FACILITY	(FINEGAYAN)
                                                                (FINEGAYAN)
                           700;	DESIGN,	DPRI-INDOOR	            DPRI-INDOOR	
                                                                                           27-Oct-10    	$								78,868	   		$								78,868	   	$								76,063	          $																		-			
                           MULTIPURPOSE	RANGE                   MULTIPURPOSE	RANGE
                           705;DESIGN,	DPRI-GAS	CHAMBER         DPRI-GAS	CHAMBER           27-Oct-10    	$								34,251	   	$								34,251	    	$								34,251	          $																		-			




     21
                           710;DESIGN,	DPRI-ENGINEERING	PIT     DPRI-ENGINEERING	PIT       27-Oct-10    	$								55,183	   	$								55,183	    	$								55,183	          $																		-			
                           J001X;	DESIGN,	UTILITIES	AND	SITE	   UTILITIES	AND	SITE	
                                                                                           14-Feb-09    $			8,543,940	       $			8,543,940	      	$						210,459	           $																		-			
                           IMPROVEMENTS	-	PH	1                  IMPROVEMENTS	-	PH	1
                                                                APRA	MEDICAL	CLINIC	
                           J006X	DESIGN,	APRA	MEDICAL	CLINIC                               11-Apr-09    	$						940,473	    	$						940,473	     	$																		-			   $																		-			
                                                                (APR	HARBOR)
                                                                WATERFRONT	
                           J007X	DESIGN,	WATERFRONT	
                                                                HEADQUARTERS	              11-Apr-09    	$						899,842	    	$						899,842	     	$																		-			   $																		-			
                           HEADQUARTERS	BLDG
                                                                BUILDING
                                                                FIRE	STATION	
                           J008X	DESIGN,	FIRE	STATION                                      25-Apr-09    	$						865,658	    	$						865,658	     	$																		-			   $																		-			
                                                                (FINEGAYAN)
                           J011;	DESIGN,	BASE	ADMINISTRATIVE	 BASE	ADMINISTRATIVE	
                                                                                           10-Apr-10    	$						903,876	    	$						903,876	     	$								58,513	          $																		-			
                           BUILDING	(FINEGAYAN)               BUILDING	(FINEGAYAN)
                                                                MARINE	LOGISTICS	
                           J012;	DESIGN,	MARINE	LOGISTICS	
                                                                GROUP	(MLG)	HQ	            10-Apr-10    	$						918,439	    	$						918,439	      	$							37,708	          $																		-			
                           GROUP	(MLG)	HQ	BUILDING
                                                                BUILDING
                           J015;	DESIGN,	ENLISTED	DINING	       ENLISTED	DINING	
                                                                                           10-Apr-10    	$						863,297	    	$						863,297	      	$							35,421	          $																		-			
                           FACILITY                             FACILITY
                           J016;	DESIGN,	BACHELORS	ENLISTED	 BACHELORS	ENLISTED	
                                                                                           10-Apr-10    	$						748,298	    	$						748,298	      	$									7,110	         $																		-			
                           QUARTERS	COMPLEX                  QUARTERS	COMPLEX
                           J017;	DESIGN,	UTILITIES	AND	SITE	    UTILITIES	AND	SITE	
                                                                                            4-Jul-09    $			6,496,001	      	$			6,417,273	       	$		1,039,163	            	$								78,728	
                           IMPROVEMENTS	-	PH	2                  IMPROVEMENTS	-	PH	2
                                                                                                                                                                                                      Section 2: Project and Program Costs
                                                                                                                                                                                                                    (Section 2835(e)(1)(B))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	S
                          	S

                                                                                                                                       Cost Incurred
                                                                                           Total            Cost Incurred               January 1 -                Estimated
                                                                                         Estimated          to Date (US or             December 31,                 Costs to
                                     Project       Description/Scope      Start Date       Cost              GOJ Funds)                    2011                    Complete
                                               NAVAL	MUNITIONS	SITE	
                          E-0109LA                                        23-Dec-11    	$				1,428,124	     	$																		-			   	$																		-			   	$			1,428,124	
                                               ALTS	SEIS




FebRuaRy 1, 2012
                          E-0109LB             NEPA	SCOPING	SEIS          23-Dec-11    	$							397,052	    	$																		-			   	$																		-			   	$						397,052	
                                               WATERSHED	RECON	
                          E-0109LC                                        23-Dec-11    	$							162,344	    	$																		-			   	$																		-			   	$						162,344	
                                               STUDIES	SEIS
                                                                                                                                                                                            (Section 2835(e)(1)(B))




                          E-0109LD             LFTRC	SEIS                 23-Dec-11    	$							516,641	    	$																		-			   	$																		-			   	$						516,641	




Guam RealiGnment RepoRt
                                               TRAINING	RANGE	ALTS	
                          E-0109VE                                        23-Dec-11    	$				1,589,514	     	$																		-			   	$																		-			   	$			1,589,514	
                                               SEIS
                          E-0109LQ             SEIS                       23-Dec-11    	$									20,533	   	$																		-			   	$																		-			   	$								20,533	
                                               D-0013		UPDATE	TO	FHWA	
                                                                                                                                                                                            Section 2: Project and Program Costs




                          D-0013               GUAM	BUILD-UP	TRAFFIC	     18-Jun-10    	$									56,587	   	$								51,161	          	$																		-			   	$										5,426	
                                               STUDY
                                               D-0014	BLDG	207/228/155	
                          D-0014                                          16-Sep-10    	$				4,399,302	     	$								45,312	          	$								17,359	          	$			4,353,990	
                                               RENOVATION	PROJECT
                                               D-0016		COMPREHENSIVE	
                          D-0016               BASE	DEV	STUDY,	           18-Jun-10    	$				1,136,758	     	$								89,445	          	$																		-			   	$			1,047,313	
                                               ANDERSEN	AFB




    22
                          E-0004               E-0004		DRAFT	EIS          12-Jun-09    	$				4,521,000	     	$																		-			   	$																		-			   	$			4,521,000	
                                               E-0005		FINAL	EIS	
                          E-0005                                          17-Mar-10    	$				1,932,139	     	$			1,923,876	            	$																		-			   	$										8,263	
                                               SUPPORT	
                                               E-0008	ON-BASE	TRAFFIC	
                          E-0008                                          20-Aug-09    	$							275,262	    	$						223,570	           	$																		-			   	$								51,692	
                                               ANALYSIS
                          E-0009               E-0009		WATER	STUDY        28-May-09    	$									13,081	   	$								13,081	          	$																		-			   $																		-			
                                               E-0011		ELECTRICAL	
                          E-0011                                          23-Jul-09    	$									40,713	   	$								40,713	          	$																		-			   $																		-			
                                               STUDY
                                               E-0012		SOLID	WASTE	
                          E-0012                                          17-Mar-10    	$									20,000	   	$								20,000	          	$																		-			   $																		-			
                                               MANAGEMENT	PLAN	(IHS)
                                               E-0016		NATURAL	
                          E-0016                                          23-Jul-09     $						367,066	     	$						268,640	           	$																		-			   	$								98,426	
                                               RESOURCE	STUDY
                                               CULTURAL/HISTORIC	
                          E-0017                                          27-Jul-11     $						137,624	     	$						137,624	           	$																		-			   $																		-			
                                               RESOURCES	GUAM
                                               E-0017		CULTURAL	
                          E-0017               HISTORICAL	RESOURCE	       11-Jun-09    	$						292,712	      $						263,058	           	$																		-			   	$								29,654	
                                               STUDY
                                                                                                                               Cost Incurred
                                                                                         Total            Cost Incurred         January 1 -                 Estimated
                                                                                       Estimated          to Date (US or       December 31,                  Costs to
                                    Project       Description/Scope     Start Date       Cost              GOJ Funds)              2011                     Complete
                                              E-0025		CNMI	NATURAL	
                           E-0025                                       10-Apr-09    	$				7,011,986	     	$			4,541,892	      	$																		-			   	$			2,470,094	
                                              RESOURCE	SURVEY
                                              E-0031		ADMINISTRATIVE	
                           E-0031                                       6-Aug-09     	$				1,170,455	     	$						810,619	     	$								69,586	          	$						359,836	
                                              RECORD	REVIEW
                                              E-0037		CULTURAL	
                           E-0037                                       13-May-10    	$										4,959	   	$										4,959	   	$																		-			    $																		-			
                                              RESOURCES	STUDY
                                              E-0039		CULTURAL	
                           E-0039             LANDSCAPE	REPORT,	        13-May-10    	$								19,965	    	$								19,965	    	$																		-			    $																		-			
                                              TINIAN	N.	FIELD
                                              SOCIO	ECONOMIC	STUDY	
                           E-0040                                       6-May-11     	$						340,024	     	$								24,713	    	$								24,713	          	$						315,311	
                                              GUAM	BUILDUP
                           E-0041             E-0041		FINEGAYAN         13-May-10    	$								10,375	    	$								10,375	    	$																		-			    $																		-			
                                              E-0044		UTILITY	STUDY,	
                           E-0044                                       13-May-10    	$								13,288	    	$								13,288	    	$																		-			   	$															
                                              WATER	(LOST	RIVER)
                           E-0045             BIO	SECURITY	PLAN         17-Oct-11    	$			2,604,041	      	$			2,261,833	      	$																		-			   	$						342,208	




     23
                                              E-0046		UTILITY	STUDY	
                           E-0046                                       28-Feb-09    	$			1,987,887	      	$			1,527,310	      	$																		-			   	$						460,577	
                                              NEW	WELLS
                                              E-0047		AIR	IMPACT	
                           E-0047                                       28-May-09    	$						175,708	     	$						164,199	     	$																		-			   	$								11,509	
                                              STUDY
                                              E-0048		APRA	HARBOR	
                           E-0048             LANDFILL	GROUNDWATER	     28-Feb-09    	$								88,785	    	$								69,479	    	$																		-			   	$								19,306	
                                              STUDY
                                              E-0049		AQUIFER	
                           E-0049                                       28-Feb-09    	$								22,948	    	$								22,948	    	$																		-			    $																		-			
                                              SUSTAINABLE	YIELD
                                              E-0050		CYCLING	
                           E-0050             DEMOLITION	(C&D)          29-Dec-09    	$						491,998	     	$						488,606	     	$																		-			   	$										3,392	
                                              RECYCLING	STUDY
                                              E-0051		
                           E-0051             ARCHAEOLOGICAL	           24-Jul-09    	$						313,466	     	$						278,695	     	$																		-			   	$								34,771	
                                              CURATION
                           E-0052             E-0052	HAUL	ROADS         28-Feb-09    	$			5,931,987	      	$			5,248,093	      	$																		-			   	$						683,894	
                                              E-0053		SPECIAL	
                           E-0053             AIRSPACE	FEASIBILITY	     24-Jul-09    	$						729,048	     	$						481,327	     	$																		-			    $						247,721	
                                              STUDY	
                           E-0054             E-0054		BATS	AND	SNAILS   23-Jul-09    	$								70,227	     $								70,227	    	$																		-			    $																		-			
                           E-0056             E-0056		MOD	ALT	2         23-Jul-09    	$						219,970	     	$						219,970	     	$																		-			    $																		-			
                                                                                                                                                                                     Section 2: Project and Program Costs
                                                                                                                                                                                                   (Section 2835(e)(1)(B))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	S
                          	S

                                                                                                                                    Cost Incurred
                                                                                       Total             Cost Incurred               January 1 -                 Estimated
                                                                                     Estimated           to Date (US or             December 31,                  Costs to
                                   Project      Description/Scope      Start Date      Cost               GOJ Funds)                    2011                     Complete
                                             E-0057		ADAPTIVE	
                          E-0057                                       23-Jul-09    	$						223,338	     	$						223,338	           	$																		-			   $																		-			
                                             MANAGEMENT




FebRuaRy 1, 2012
                                             E-0060	TINIAN	TRAINING	
                          E-0060                                       17-Aug-09    	$						100,237	     	$						100,237	           	$																		-			   $																		-			
                                             RANGES	EIS
                                                                                                                                                                                         (Section 2835(e)(1)(B))




                                             E-0061	LEED	
                          E-0061                                       17-Aug-09    	$						724,258	     	$						724,258	           	$																		-			   $																		-			
                                             SUSTAINABILITY	STUDY




Guam RealiGnment RepoRt
                                             E-0063	DRAINAGE	LOW	
                          E-0063                                       20-Aug-09    	$						518,592	     	$						518,592	           	$																		-			   $																		-			
                                             IMPACT	DEVELOPMENT
                                             E-0064		PAPER	WASP	
                          E-0064                                       1-Sep-10     	$								90,886	    	$																		-			   	$																		-			   	$								90,886	
                                                                                                                                                                                         Section 2: Project and Program Costs




                                             ATTRACTANT	STUDY
                                             E-0066	ON-BASE	UTILITY	
                          E-0066                                       24-Sep-09    	$								69,797	    	$								69,797	          	$																		-			   $																		-			
                                             STUDY
                                             E-0067		WETLANDS	
                          E-0067                                       29-Dec-09    	$						195,212	     	$						180,855	           	$																		-			   	$								14,357	
                                             DELINEATION	STUDY
                          E-0069             GROUND	WATER	STUDY        22-Dec-11    	$			1,332,492	      	$			1,052,492	            	$						273,658	           	$						280,000	
                                             E-0070		EMISSIONS	
                          E-0070                                       13-May-10    	$								25,745	    	$								25,745	          	$																		-			   $																		-			




    24
                                             CALCULATIONS	MSAT
                                             E-0071		NORTHERN	
                                             DISTRICT	WASTE	WATER	
                          E-0071             TREATMENT	PLANT	          13-May-10    	$										1,241	   	$										1,241	         	$																		-			   $																		-			
                                             (NDWTTP)	DIFFUSER	
                                             STUDY
                                             E-0077		PUBLIC	COMMENT	
                          E-0077                                       18-Feb-10    	$						365,921	     	$						365,921	           	$																		-			   $																		-			
                                             ASSISTANCE	-	PART	I
                                             E-0079		SEWER	
                          E-0079                                       10-Apr-09    $						632,899	      	$						632,899	           	$																		-			   $																		-			
                                             INTERCEPTOR
                                             E-0083		EIS	TIGER	TEAM	
                          E-0083                                       19-Feb-10    	$						479,135	     	$						479,135	           	$																		-			   	$																	0	
                                             ADDITIONAL	SPT
                          E-0087             ARCH	MITIGATION           20-Oct-11    	$						885,959	     	$								81,198	          	$										1,156	         	$						804,761	
                          E-0089             E-0089		WWTP	UPGRADE      13-May-10    	$										2,441	   	$										2,441	         	$																		-			   $																		-			
                                             E-0090		BARRIGADA	
                          E-0090                                       31-Mar-10    	$								29,211	    	$								29,211	          	$																		-			   	$																	0	
                                             WATER	UTILITY	STUDY
                                             E-0091		POWER	UTILITY	
                          E-0091                                       21-May-09    	$							39,484	     	$								24,137	          	$																		-			   	$								15,347	
                                             STUDY	UPDATE
                                                                                                                              Cost Incurred
                                                                                        Total            Cost Incurred         January 1 -                Estimated
                                                                                      Estimated          to Date (US or       December 31,                 Costs to
                                    Project      Description/Scope      Start Date      Cost              GOJ Funds)              2011                    Complete
                                              UTILITY	TECH	UPDATE	
                           E-0092                                       17-Jun-11    	$								89,799	   	$								45,832	    	$								37,693	          	$								43,967	
                                              ADMIN	RECORD
                                              E-0093	WASTE	WATER	
                           E-0093                                       31-Mar-10    	$								45,796	   	$								45,796	    	$																		-			    $													 	-
                                              UTILITY	UPDATE
                                              E-0095		INTEGRATED	
                                              SOLID	WASTE	
                           E-0095                                       4-Feb-10     	$						160,339	    	$								20,504	    	$										9,416	         	$						139,835	
                                              MANAGEMENT	PLAN	
                                              (ISWMP)
                                              E-0096		COASTAL	
                           E-0096             CONSISTENCY	              15-Jul-10    	$								19,956	   	$								19,879	    	$																		-			   	$															77	
                                              DETERMINATION
                                              E-0098		REVISED	
                           E-0098                                       20-Aug-10    	$								22,188	   	$								22,188	    	$																		-			   $																		-			
                                              HARDCOPIES	OF	FEIS
                                              E-0099		GUAM	
                           E-0099             WELLHEAD	PROTECTION	      15-Sep-10    	$								37,591	   	$								33,560	    	$																		-			   	$										4,031	
                                              REGULATIONS




     25
                                              E-0100		FINEGAYAN	
                           E-0100             LANDFILL	NO	2	SITE	       16-Sep-10    	$						461,505	    	$										5,262	   	$													166	        	$						456,243	
                                              INVESTIGATION
                                              E-0101		FOLLOW-ON	
                           E-0101             NEPA	TERRESTRIAL	         23-Dec-10    	$						227,250	    	$								45,943	    	$																		-			   	$						181,307	
                                              MITIGATION
                                              E-0102		CULTURAL	
                                              RESOURCES	
                           E-0102                                       28-Oct-10    	$						274,460	    	$								98,821	    	$																		-			   	$						175,639	
                                              CONSULTATION	AND	
                                              MITIGATION
                           E-0103             ROD	LITIGATION            17-Oct-11    	$						110,000	    	$								98,220	    	$								83,220	          	$								11,780	
                                              E-0104		FOLLOW-ON	
                           E-0104             NEPA	TERRESTRIAL	         25-Oct-10    	$						246,888	    	$						114,205	     	$								49,777	          	$						132,683	
                                              MITIGATION
                                              E-0105		PESTICIDE	SOIL	
                           E-0105             IMPACTED	MANAGEMENT	      25-Oct-10    	$								64,752	   	$										1,820	   	$										1,820	         	$								62,932	
                                              PLAN
                                              SUPPORT	SIR	
                           E-0106                                       20-May-11    	$								71,480	    $								66,965	    	$								66,965	          	$										4,515	
                                              PREPARATION
                           J-0023             J-0023		BOQ	1391S         6-Apr-10     	$						295,614	    	$						295,614	     	$																		-			   $																		-				
                                                                                                                                                                                    Section 2: Project and Program Costs
                                                                                                                                                                                                  (Section 2835(e)(1)(B))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	S
                          	S

                                                                                                                                 Cost Incurred
                                                                                          Total            Cost Incurred          January 1 -                Estimated
                                                                                        Estimated          to Date (US or        December 31,                 Costs to
                                    Project      Description/Scope        Start Date      Cost              GOJ Funds)               2011                    Complete
                                              J-0025		FINEGAYAN	MED/
                          J-0025                                          6-Apr-10     	$						259,539	    	$						259,539	      	$																		-			   $																		-			
                                              DENTAL	CLINIC	1391S




FebRuaRy 1, 2012
                                              J-002X		ADMIN	FACILITIES	
                          J-002X                                          6-Apr-10     	$						683,408	    	$						683,408	      	$																		-			   $																		-			
                                              1391S
                          N/A                 DUGONG	LITIGATION           31-Mar-11    	$								10,609	   	$								10,609	     	$								10,609	          $																		-			
                                                                                                                                                                                      (Section 2835(e)(1)(B))




                                              N-0038		ACOUSTIC	




Guam RealiGnment RepoRt
                          N-0038                                          25-Oct-10    	$								11,206	   	$													425	   	$																		-			   	$								10,781	
                                              MONITORING
                                              P-0001		MASTER	PLAN,	
                          P-0001                                          17-Mar-10    	$			2,058,820	     	$						719,165	      	$																		-			   	$			1,339,655	
                                              PHASE	II	(IHS)
                                              P-0004		PROJECT	
                          P-0004                                          30-Sep-09    	$			1,422,000	     	$						432,251	      	$																		-			   	$						989,749	
                                                                                                                                                                                      Section 2: Project and Program Costs




                                              DOCUMENTATION
                                              P-0015		MASTER	PLAN	
                          P-0015                                          3-Sep-09     	$			1,001,000	     	$						904,702	      	$																		-			   	$								96,298	
                                              PHASE	II
                          P-0001B             MASTER	PLAN	PHASE	III       5-Aug-11     	$			2,765,240	     	$						398,250	      	$						265,500	           	$			2,366,990	
                                              P-0030		TINIAN	MP	PHASE	
                          P-0030                                          23-Jul-09    	$			1,093,791	     	$						777,495	      	$																		-			   	$						316,296	
                                              II
                          P-0044              P-0044	SPE	CONSULTANT       6-Feb-09     	$						198,020	    	$						198,020	      	$																		-			   $																		-			




    26
                          P-0046              P-0046		SPE	CONSTRUCT	      7-Jan-09     	$			4,669,637	     	$			3,662,278	       	$						597,878	           	$			1,007,359	
                                              P-0050		HISTORICAL	
                          P-0050                                           1-Jul-09    	$						108,447	    	$								91,638	     	$																		-			   	$								16,809	
                                              ORDNANCE
                                              P-0054		BARRIGADA	
                          P-0054                                          4-May-09     	$						388,367	    	$						388,367	      	$																		-			   $																		-			
                                              STUDY
                          P-0055              MASTER	PLAN	ALTS	1,3,8      23-Aug-11    	$						237,817	    	$								99,817	     	$																		-			   	$						138,000	
                          P-0057              P-0057		TRAFFIC	STUDY       24-Jul-09    	$						215,392	    	$						141,193	      	$																		-			   	$								74,199	
                                              P-0059		COMBUSTION	
                          P-0059                                          19-Feb-10    	$						410,643	    	$						281,251	      	$																		-			   	$						129,392	
                                              TURBINE	STUDY	
                          P-0060              EXPLOSIVE	SAFETY            8-Apr-11     	$						399,958	    	$						213,533	      	$									7,469	         	$						186,425	
                                              P-0062	ATFP	BLAST	
                          P-0062                                          6-Apr-10     	$						106,937	    	$						106,937	      	$																		-			   $																		-			
                                              ANALYSIS
                                              P-0063	TINIAN	PAGAN	
                          P-0063              TOPOGRAPHIC	CONTOUR	        25-Mar-10    	$						288,549	    	$								44,281	     	$																		-			   	$						244,268	
                                              DATA
                                              P-0064		GUAM	
                          P-0064              COMMUNITY	INTEGRATED	       20-Aug-10    	$						861,722	    	$								97,209	     	$																		-			   	$						764,513	
                                              MASTER	PLAN
                                                                                                                                    Cost Incurred
                                                                                        Total            Cost Incurred               January 1 -                 Estimated
                                                                                      Estimated          to Date (US or             December 31,                  Costs to
                                    Project       Description/Scope     Start Date      Cost              GOJ Funds)                    2011                     Complete
                                              P-0065		FACILITY	
                                              MANAGEMENT	
                           P-0065                                       11-Mar-11    	$							92,640	     $								83,771	          	$								83,771	          	$										8,869	
                                              SUSTAINMENT	(FMS)	
                                              WORK	PLAN
                                              P-0066		UTILITY	ENERGY	
                           P-0066             MANAGEMENT	(UEM)	         11-Mar-11    	$					145,307	     	$								41,647	          	$								41,647	          	$						103,660	
                                              WORK	PLAN
                                              P-0075		ALTERNATIVE	
                           P-0075                                       5-Aug-11     	$		2,765,240	      	$																		-			   	$																		-			   	$			2,765,240	
                                              LAYDOWN	PLANS
                                              R-0001		APPRAISAL	GUAM	
                           R-0001                                       3-Sep-09     	$					560,455	     	$						163,453	           	$																		-			   	$						397,002	
                                              (LESS	HARMON)
                                              R-0003		BOUNDARY	
                           R-0003                                       24-Jul-09    	$					862,713	     	$						444,850	           	$																		-			   	$						417,863	
                                              SURVEY		(FAA	PARCEL)
                                              R-0005		TITLE	EVIDENCE	
                           R-0005                                       18-Mar-10    	$							14,607	    	$								14,300	          	$																		-			   	$													307	
                                              (HIS)
                                              R-0007		ENVIRONMENTAL	
                           R-0007                                       7-May-09     	$					295,233	     	$						165,350	           	$																		-			   	$						129,883	
                                              BASELINE	STUDY
                                              R-0008		ENVIRONMENTAL	




     27
                           R-0008             SITE	ASSESSMENT	-	        25-Oct-10    	$							47,082	    	$								10,956	          	$																		-			   	$								36,126	
                                              ROUTE	15
                                              RELOCATION	
                           R0009                                        22-Sep-11    	$			1,449,892	     	$			1,449,892	            	$																		-			   	$																		-			
                                              ASSISTANCE	PLAN
                                              RELOCATION	
                           R-0009                                       13-Nov-09    	$			1,576,340	     	$								50,757	          	$																		-			   	$			1,525,583	
                                              ASSISTANCE
                                              R-0011		FINDING	OF	
                           R-0011                                       17-Mar-10    	$								41,750	   	$										8,141	         	$																		-			   	$								33,609	
                                              SUITABILITY,	GUAM	
                                              R-0013		ENVIRONMENTAL	
                           R-0013                                       22-Mar-10    	$					457,794	     	$						175,663	           	$										4,953	         	$						282,131	
                                              BASELINE	SPE	
                                              S-0004		NAVFAC	HQ	
                           S-0004                                       24-Mar-09    	$					779,008	     	$						339,932	           	$																		-			   	$						439,076	
                                              LABOR	SUPPORT
                                              S-0005		NAVFACPAC	
                           S-0005                                       24-Feb-09    	$		8,503,564	      	$			7,413,865	            	$			4,529,500	            	$			1,089,699	
                                              LABOR	SUPPORT
                                              S-0006		NAVFACMAR	
                           S-0006                                       26-Jan-10    	$		3,749,630	      	$			2,105,629	            	$																		-			   	$			1,644,001	
                                              LABOR	SUPPORT
                                              S-0010		PROGRAM	
                           S-0010                                       10-Sep-09    	$		3,039,142	      	$			1,701,375	            	$																		-			   	$			1,337,767	
                                              SUPPORT	CONTRACT
                                              S-0012		PIB	IPR	
                           S-0012                                       26-Feb-10    	$					156,600	     	$						156,600	           	$																		-			   	$																		-			
                                              FACILITATION
                                                                                                                                                                                          Section 2: Project and Program Costs
                                                                                                                                                                                                        (Section 2835(e)(1)(B))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	S
                              sEctIon 2835(e)(1)(b)

                                                                                                                                                                                 Cost Incurred
                                                                                                                                            Total           Cost Incurred         January 1 -                  Estimated
                                                                                                                                          Estimated         to Date (US or       December 31,                   Costs to
                                               Project                             Description/Scope                 Start Date             Cost             GOJ Funds)              2011                      Complete
                                                                              S-0014		GPMO	
                           S-0014                                             NAVFACPAC	SPAWAR	                       7-Mar-11           $						280,025	    	$						177,447	     	$							177,447	           	$							102,578	




FebRuaRy 1, 2012
                                                                              C4ISR/IT	LIAISON
                                                                              GUAM	PROGRAM	
                           S-0015                                                                                    29-Sep-11          	$			3,414,142	     	$										5,324	   	$																			-			   	$				3,408,818	
                                                                              SUPPORT
                                                                                                                                                                                                                                        (Section 2835(e)(1)(B))




                                                                              S-0016		NAVFACPAC	JV	
                           S-0016                                                                                    28-Sep-10          	$			1,283,479	     	$						261,494	     	$																			-			   	$				1,021,985	




Guam RealiGnment RepoRt
                                                                              MANAGEMENT	SUPPORT
                                                                              U-0001	NORTHERN	
                                                                              DISTRICT	WASTE	WATER	
                           U-0001                                                                                     23-Jul-09         	$						299,195	    	$						249,386	     	$											3,631	         	$									49,809	
                                                                              TREATMENT	PLANT	
                                                                              (NDWWTP)
                                                                                                                                                                                                                                        Section 2: Project and Program Costs




                                                                              U-0002		INCREASE	PUMP	
                           U-0002                                                                                    25-Sep-10          	$			1,228,387	     	$						244,407	     	$																			-			   	$							983,980	
                                                                              RATE,	MARBO	WELLS	5-9
                                                                              U-0003		TUMON	MAUI	
                           U-0003                                                                                    16-Sep-10          	$						353,190	    	$								98,127	    	$																			-			   	$							255,063	
                                                                              WELL	REHABILITATION
                                                                              U-0004		COMBUSTION	
                           U-0004                                             TURBINES	(CTS)	PERMIT	                 11-Mar-11          	$								24,887	   	$								24,887	    	$									24,887	          $																			-			
                                                                              AIR	MONITORING




    28
                                                                              TUMON	MAUI	WELL	
                           U-0005                                                                                    26-Sep-11          	$			4,521,000	     	$			4,521,000	       $																			-			   $																			-			
                                                                              REHAB
                            Total                                                                                                       $609,233,312        $142,747,583          $ 46,080,745                $466,485,729


                          Sources: NAVFAC Headquarters response to DoD OIG data call, 1/6/2012 and U.S. Marine Corps response to DoD OIG data call, 1/18/2012.
                                                                                    Section 2: Project and Program Costs
                                                                                                  (Section 2835(e)(1)(B))

      O




                                                                                        Cost     Cost Incurred
                                                                   Total             Incurred to  January 1 -         Estimated
                                                                 Budgeted            Date (US or December 31,          Costs to
Agency         Project    Description/Scope    Start Date          Cost              GOJ Funds)      2011             Complete
                          GUAM	ADAPTIVE	
DOC               *       MANAGEMENT	           4/4/2011        $								3,063        $       -     	$						3,063	   	$							3,063	
                          TRAINING
                          CIVILIAN-MILITARY	
DOC               *       COORDINATION	         5/15/2011       	$							2,767	       $       -     	$						2,767	   	$							2,767		
                          COUNCIL
                          APM	TRAINING	
                          &	INTERCT	WITH	
DOC               *       GOV	OF	GUAM	          4/2/2011        $								4,106	       $       -     	$						4,106	    	$						4,106		
                          &	FEDERAL	
                          PARTNERS
                          GUAM	ADAPTIVE	
DOC               *       MANAGEMENT	           3/6/2011        $								4,946	       $       -     	$					4,946	    	$							4,946	
                          TRAINING
                          HEA	WORKSHOP,	
                          FEDERAL	
                          COORDINATION	
                          MEETING,	ERDC	       1 0 / 3 1 / 11 -
DOC      TA#2FT5S2001                                           	$									4,568	     $       -     	$					4,568	     $            -
                          WORKSHOP,	             11/10/11
                          SCIENCE	
                          STRATEGY	


                                                                                                                                         	S
                          SESSION
                          HEA	WORKSHOP,	
                          FEDERAL	
                          COORDINATION	
                          MEETING,	ERDC	       1 0 / 3 1 / 11 -
DOC      TA#2FT5S2002                                           	$									4,957	     $       -     	$						4,957	    $            -
                          WORKSHOP,	             11/14/11
                          SCIENCE	
                          STRATEGY	
                          SESSION
                          ENVIRONMENTAL	
         MARAD	-	PAG	
                          DOCUMENTATION	
DOT      MODERNIZATION	                         8/1/2010        $	1,100,000	         $1,092,062	    $				76,005	     	$									7,938	
                          AND	PRELIMINARY	
         PROJECT
                          DESIGN



                                                                                                  Guam RealiGnment RepoRt
                                                    29
                                                                                                          FebRuaRy 1, 2012
      Section 2: Project and Program Costs
      (Section 2835(e)(1)(B))

                                                                                        Cost     Cost Incurred
                                                                        Total        Incurred to  January 1 -          Estimated
                                                                      Budgeted       Date (US or December 31,           Costs to
      Agency         Project        Description/Scope   Start Date      Cost         GOJ Funds)      2011              Complete
                                    SUPPORTS	
               MARAD	-	PAG	         ENVIRONMENTAL,	
      DOT      MODERNIZATION	       ARCHITECTURAL	   9/21/2009       $	2,000,000	    	$1,940,000	   $             -   	$							60,000	
               PROJECT              AND	ENGINEERING	
                                    DESIGN
                                    PROVIDE	
                                    ORGANIC	
                                    GROWTH	TO	
               MARAD	-	PAG	         THE	PORT	TO	
      DOT                                            10/22/2010      $50,000,000	     	$894,939	    $		894,939	       $49,105,061	
               MODERNIZATION        SUPPORT	CAPITAL	
                                    IMPROVEMENT	
                                    AND	MILITARY	
                                    REALIGNMENT
               FHWA	-	
               GOVERNMENT	OF	       PREPARE	NEPA	
               GUAM	CONTRACT	       DOCUMENT	AND	
               ISLAND-WIDE	         COORDINATION	
      DOT      PROGRAM	             BETWEEN	         10/1/2008       $	5,372,550	    $	4,437,660	   $		387,210         $		934,890	
               MANAGEMENT	          GOVERNMENT	OF	
               SERVICES	GU-         GUAM	DPW,	FHWA,	
               NH-IPMS(002)	        AND	DOD
               DTFH6109X50001
                                    PREPARE	
                                    DESIGN/BUILD	
                                    REQUEST	FOR	
               FHWA	-	
                                    QUALIFICATIONS	
               GOVERNMENT	OF	
                                    FOR	PROPOSALS	
               GUAM	CONTRACT	
                                    FOR	FY2010	
               ISLAND-WIDE	
                                    DAR	PROJECTS,	
      DOT      PROGRAM	                                 2/1/2010     	$	2,949,137	   $	1,492,603	   $		776,597	       	$	1,456,534	
                                    ROUTE	1	EAST	OF	
               MANAGEMENT	
                                    ROUTE	4,	ROUTE	
               SERVICES	GU-
                                    11/1,	ROUTE	11,	
               NH-IPMS	(002)	
                                    ROUTE	1/8,	AND	
               27XX66IPMS00273P0	
                                    AGANA	BRIDGE	
                                    AND	UTILITY	
                                    COORDINATOR
               FHWA	-	
               GOVERNMENT	OF	
               GUAM	CONTRACT	
                                    CONSULTANT	
               ROUTE	1	AND	3	
      DOT                           FOR	ROUTE	1/3	      6/8/2011     	$		570,740	    $				59,262    $					59,262       $		511,478
               INTERSECTION	
                                    INTERSECTION	
               IMPROVEMENTS	
	S




               GU-NH-0001	(125)	
               27XX66000112573P0
               FHWA	-	
               GOVERNMENT	OF	
               GUAM	CONTRACT	       CONSULTANT	FOR	
               ROUTE	3	FROM	        ROUTE	3	FROM	
      DOT                                               5/26/2011    	$2,182,765	     $       -     $         -       $	2,182,765
               ROUTE	28	TO	         ROUTE	28	TO	
               CHALAN	KARETA	       CHALAN	KARETA
               GU-NH-0003	(105)	
               27XX66000310573V0	




     Guam RealiGnment RepoRt
                                                             30
     FebRuaRy 1, 2012
                                                                                                        Section 2: Project and Program Costs
                                                                                                                      (Section 2835(e)(1)(B))


                                                                                                            Cost     Cost Incurred
                                                                                        Total            Incurred to  January 1 -                 Estimated
                                                                                      Budgeted           Date (US or December 31,                  Costs to
 Agency               Project              Description/Scope          Start Date        Cost             GOJ Funds)      2011                     Complete
             FHWA	-	
             GOVERNMENT	OF	
                                          CONSTRUCTION	
             GUAM	CONTRACT	
                                          OF	ROUTE	1	
             ROUTE	1	AGANA	
 DOT                                      AGANA	BRIDGE	               9/28/2011      $11,239,814	         $             -       $            -    $11,239,814	
             BRIDGE	AND	ROUTE	
                                          AND	ROUTE	1/8	
             1/8	INTERSECTION	
                                          INTERSECTION
             GU-DAR-TI01(001)	
             27XX66TI0173V0
             FHWA	-	
             GOVERNMENT	OF	
             GUAM	CONTRACT	
                                          CONSTRUCTION	
             ROUTE	11	(ROUTE	
                                          OF	ROUTE	11	
 DOT         1	TO	ROUTE	11)	                                          10/4/2011      $13,769,791	         $             -       $            -    $13,769,791	
                                          AND	ROUTE	1/11	
             AND	ROUTE	1/11	
                                          INTERSECTION
             INTERSECTION	
             GU-DAR-0011(008)	
             27XX66001100873V0
             FHWA	-	
             GOVERNMENT	OF	
             GUAM	CONTRACT	               CONSTRUCTION	
             ISLAND-WIDE	                 MANAGEMENT	
             PROFESSIONAL	                FOR	ROUTE	1	
 DOT                                                                  9/28/2011      	$		2,117,165	       $													-       $													-   $		2,117,165	
             CONSTRUCTION	                AGANA	BRIDGE,	
             MANAGEMENT	                  ROUTE	1/8,	ROUTE	
             SERVICES	GU-                 11,	ROUTE	1/11
             NH-PCMS	(001)		
             27XX66PCMS00173V0
             FHWA	-	
             GOVERNMENT	OF	               ARCHAEOLOGICAL	
             GUAM	CONTRACT	               SUPPORT	FOR	
             PROFESSIONAL	                ROUTE	1	AGANA	
 DOT                                                      PENDING                     	$		61,418	         	$													-     	$													-   $				61,418	
             SERVICES	FOR	                BRIDGE,	ROUTE	
             ARCHAEOLOGICAL	              1/8,	AND	ROUTE	
             SUPPORT	GU-NH-               1/11
             PSAS	(001)
             FHWA	-	
             GOVERNMENT	OF	
                                          QUALITY	
             GUAM	CONTRACT	
                                          ASSURANCE	
             TECHNICAL	
                                          TESTING	FOR	
             SUPPORT	
 DOT                                      ROUTE	1	AGANA	              PENDING         	$		19,000	         	$													-     	$													-   $					19,000	
             SERVICES	ISLAND	
                                          BRIDGE,	ROUTE	
             WIDE	QUALITY	
                                          1/8,	ROUTE	11,	


                                                                                                                                                                  	S
             ASSURANCE	
                                          AND	ROUTE	1/11
             TESTING	GU-NH-TSIS	
             (002)
  Total                                                                              $91,406,786         $ 9,916,526           $ 2,218,421        $81,480,735

* Information Not Provided.

Sources: DOC response to DoD OIG data call, 1/4/2012 and DOT response to DoD OIG data call, 1/6/2012.




                                                                                                                             Guam RealiGnment RepoRt
                                                                          31
                                                                                                                                     FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                          32
FebRuaRy 1, 2012
                                       3
govErnmEnt of japan rEvEnuE




                                 	




                      Guam RealiGnment RepoRt
              33
                              FebRuaRy 1, 2012
                         Section 3: Government of Japan Revenue
                         (Section 2835(e)(1)(C))

                         Section 2350k, title 10 of the United States Code, grants the Secretary of Defense authority to accept
                         cash contributions from any nation in support of a relocation of the armed forces. According to
                         agreements between the United States and the Japanese government, the GOJ is expected to provide up
                         to $6.09 billion (FY 2008 U.S. dollars) for the U.S. Marine Corps relocation from Okinawa to Guam.
                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the revenues
                         contributed by the Japanese government and any obligations or expenditures of these revenues.

                         Goj FunDinG FoR RealiGnment
                         Originally, in May 2006, the GOJ agreed to provide approximately $2.80 billion in direct cash
                         contributions for facilities and infrastructure development and approximately $3.29 billion in equity and
                         loans to Special Purpose Entities (public/private investments) to finance construction and maintenance
                         of housing and utilities. GOJ will deposit the direct cash contributions into a trust fund account. Each
                         month, DoD must provide a report to the GOJ showing the activity in this account and any related sub-
                         accounts for the direct cash contributions provided by GOJ. The amount of equity and loans provided
                         will be recorded separately. Table 6 shows the specific funding by category for GOJ funds.

                                                           Table 6. Revised GOJ Funding Breakout
                                                                             (billions)
                                                                                                               Special Purpose
                                                                                      Direct Funds             Entity Financing
                                              Operating	Facilities                          $1.29                       $						-
                                              Utility	Infrastructure                        $						-                    $0.74
                                              Family	Housing                                $						-                    $2.55
                                              Barracks	/	Quality	of	Life                    $1.51                       $						-
                                               Total                                        $2.80                       $3.29

                                            Source: Secretary of the Navy, “Report on DoD Planning Efforts for Guam,” 9/15/2008; and JGPO,
                                            “SAME International Business Opportunity Workshop,” 2/22/2007.


                         Several organizational elements within the Department of the Navy (DON) have key roles and
                         responsibilities associated with the GOJ funding as follows:
                             • JGPO is responsible for providing the Office of the Assistant Secretary of the Navy (Financial
                                Management and Comptroller) (OASN [FM&C]) the necessary documentation when GOJ funds
                                are received.
                             • OASN(FM&C) reviews and provides necessary documentation to the Office of the Under
                                Secretary of Defense (Comptroller) (OUSD[C]) regarding the receipt and execution of GOJ
                                funds.
Section	2835(e)(1)(c)




                             • NAVFAC is responsible for providing necessary documentation to OASN(FM&C) requesting
                                authority to execute the GOJ funding on construction projects and managing the technical and
                                financial execution of the GOJ funded construction projects.
                             • The OUSD(C) is responsible for submitting required notifications of the receipt of GOJ funds
                                and planned construction obligations to Congress, issuing fund allocations for GOJ funding, and
                                providing guidance as necessary to the Defense Finance and Accounting Service (DFAS).
                             • DFAS is responsible for receiving the GOJ funding from the Federal Reserve Bank, providing
                                necessary documentation to the U.S. Treasury, providing reports on collections, disbursements,
                                and earnings, and processing any necessary documentation to return any residual funding to the
                                GOJ. In addition, DFAS monitors disbursements and collections and allocates interest earned by
                                the “Support for U.S. Relocation to Guam Account” trust fund.
	




                        Guam RealiGnment RepoRt
                                                                                            34
                        FebRuaRy 1, 2012
                                                                                        Section 3: Government of Japan Revenue
                                                                                                         (Section 2835(e)(1)(C))

Revenues (contRibutions) / inteRest / obliGations / expenDituRes
In calendar year 2010, DFAS reported that the GOJ contributed $497.8 million for construction, design,
and on-base infrastructure projects. For calendar year 2011, DFAS reported no contributions from the
GOJ. However, DFAS identified interest earned on investments, obligations and expenditures from
January 1, 2011, to December 31, 2011 related to GOJ funds. (Table 7)

                             Table 7. GOJ Revenues/Interest/Obligations/Expenditures
                                            for Calendar Year 2011

                                                     Revenue                Earnings on
                      Project                      (Contribution)           Investment           Obligations           Expenditures
      Interest	Earned	Japanese	FY	09	
                                                    $																			-   $				784,457         $																	-   $																-
      Funds
      Interest	Earned	Japanese	FY	10	
                                                    $																			-   $	1,584,832          $																	-   $																	-
      Funds
      Japanese	FY	09	Design	Fire	Station            $																			-   $																-   $			 			14,243        $							14,243
      Japanese	FY	09	Design	Waterfront	
                                                    $																			-   $																-   $						110,464        $					124,352
      Headquarters
      Japanese	FY	09	Design	Apra	
                                                    $																			-   $																-   $					288,761         $					289,136
      Medical
      Japanese	FY	09	Design	Bachelor	
                                                    $																			-   $																-   $					342,550         $					660,974
      Enlisted	Quarters	Complex
      Japanese	FY	09	Construction	
                                                    $																			-   $																-   $22,601,952           $					173,100
      Andersen	Air	Force	Base
      Japanese	FY	09	Construction	Apra              $																			-   $																-   $73,307,211           $					538,601
        Total                                       $                  -    $ 2,369,289          $,6,           $ 1,800,405

     Source: DFAS response to DoD OIG data call, 1/6/2012.




                                                                                                                                             Section	2835(e)(1)(c)
                                                                                                                                             	




                                                                                                          Guam RealiGnment RepoRt
                                                                  35
                                                                                                                  FebRuaRy 1, 2012
                         Section 3: Government of Japan Revenue
                         (Section 2835(e)(1)(C))




                                                    A	U.S.	Air	Force	F-16D	Fighting	Falcon	aircraft
                                           conducts	a	mission	during	Exercise	Cope	North	at	Andersen	AFB,
                                                                Guam,	February	2010
Section	2835(e)(1)(c)
	




                        Guam RealiGnment RepoRt
                                                                        36
                        FebRuaRy 1, 2012
                                      4
opEratIng ExpEnsEs




                                      	S




                     Guam RealiGnment RepoRt
              37
                             FebRuaRy 1, 2012
                         Section 4: Operating Expenses
                         (Section 2835(e)(1)(D))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the operating
                         expenses of agencies or entities receiving amounts appropriated or otherwise made available for military
                         construction on Guam. The DoD Financial Management Regulation states that operating expenses
                         include costs for personnel, travel, communications, contractual services, and other program expenses.

                         DepaRtment oF the navy opeRatinG expenses
                         In calendar year 2010, the DON (which includes the U.S. Marine Corps [USMC]) reported
                         approximately $26.7 million in operating expenses related to the Guam realignment. For calendar
                         year 2011, NAVFAC operational expenses were reported by the U.S. Marine Corps because NAVFAC
                         receives these funds on a reimbursable basis. The DON identified operating expenses of $21.1 million
                         during calendar year 2011, including salaries, travel, and other program expenses. Table 8 lists the
                         operating expenses for DON support organizations associated with the military realignment on Guam.

                              Table 8. Department of the Navy Operating Expenses Related to the Guam Realignment
                                                      (January 1, 2011 – December 31, 2011)

                                                                                  Description of Expenses                  Operating
                                                  Organization                           Incurred                          Expenses
                                          JGPO                                Salaries                                  $		2,628,109
                                          JGPO                                Travel	                                   $					244,294
                                          JGPO                                Supplies/Materials                        $							45,622
                                          JGPO                                Other/In-House/Contracts                  $					763,717
                                          USMC	Pacific	Division               Salaries                                  $		1,078,830
                                          USMC	Pacific	Division               Travel	                                   $					161,289
                                          USMC	Pacific	Division               Supplies                                  $									5,000
                                          USMC	Pacific	Division               Contract                                  $					265,000
                                          USMC	Installation	and	              Travel	
                                                                                                                        $							94,665
                                          Logistics
                                          USMC	Installation	and	              Contracts	&	Other	Services
                                                                                                                        $					643,000
                                          Logistics
                                          USMC	Installation	and	              Expensed	via	NAVFAC
                                                                                                                        $		6,446,073
                                          Logistics
                                          USMC	Marine	Forces	Pacific          Salaries                                   $					833,078
                                          USMC	Marine	Forces	Pacific          Travel	                                    $					296,554
                                          USMC	Marine	Forces	Pacific          Supplies	&	Equipment                       $							21,084
Section	2835(e)(1)(D)




                                          USMC	Marine	Forces	Pacific          Communications                             $																0
                                          USMC	Marine	Forces	Pacific          Contract	&	Other	Services                  $		7,546,069	
                                             Total                            	                                          $21,072,384

                                        Sources: JGPO response to DoD OIG data call, 1/6/2012 and U.S. Marine Corps response to DoD
                                        OIG data call, 1/18/2012.
	




                        Guam RealiGnment RepoRt
                                                                                            38
                        FebRuaRy 1, 2012
                                                                    Section 4: Operating Expenses
                                                                           (Section 2835(e)(1)(D))

O




                     Description of Expenses                Operating
    Agency                  Incurred                        Expenses
 DOC              Salaries	and	Travel                        $				121,564
 DOC              Salaries                                   $						14,100
 DOC              Travel                                     $						13,385
 DOT              Contracts                                  $				894,939
 DOT              Travel                                     $				132,260
 DOT              Salaries                                   $				280,009
 EPA              Salaries                                   $				208,347							
 EPA              Travel                                     $						 10,394
    Total                                                    $ 1,674,998

Sources: DOC response to DoD OIG data call, 1/4/2012; DOT response to DoD OIG
data call, 1/6/2012; EPA response to DoD OIG data call, 1/4/2012.




                                                                                                       Section	2835(e)(1)(D)
                                                                                                       	




                                                                            Guam RealiGnment RepoRt
                                39
                                                                                    FebRuaRy 1, 2012
                                U.S. Air Force personnel perform
                               construction at the Northwest Field
                                site on Andersen Air Force Base,
                                       Guam, January 2009




Guam RealiGnment RepoRt
                          40
FebRuaRy 1, 2012
                                              5
contracts, grants, agrEEmEnts, or othEr
fundIng mEchanIsms data




                                              	S




                             Guam RealiGnment RepoRt
                  41
                                     FebRuaRy 1, 2012
                         Section 5: Contracts, Grants, Agreements, or Other Funding
                         Mechanisms Data (Section 2835(e)(1)(E))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the awarded
                         contracts, grants, agreements, or other funding mechanisms that use amounts appropriated or otherwise
                         made available for military construction on Guam.

                         contRactinG pRocess
                         NAVFAC is the contracting office responsible for executing all construction contracts related to the
                         Guam realignment. In FY 2009, NAVFAC began awarding architect and engineering contracts for the
                         preparation of the construction on Guam.

                         DoD contRacts/GRants/aGReements/otheR FunDinG mechanisms
                         In calendar year 2010, the Office of the Assistant Secretary of the Navy (Financial Management and
                         Comptroller) and the DoD Office of Economic Adjustment (OEA) reported 133 contracts and 10 grants.
                         For these contracts and grants, these agencies obligated approximately $157.5 million.

                         For calendar year 2011, NAVFAC Headquarters and DoD OEA reported a total of 79 contracts and
                         13 grants, respectively, totaling approximately $202.6 million that were used to support the military
                         realignment to Guam. Table 10 identifies NAVFAC Headquarters and DoD OEA contracts, grants,
                         agreements, or other funding mechanisms. A contract may be listed multiple times due to a task order,
                         delivery order, or modification increasing the value of the contract.




                             U.S.	Air	Force	personnel	place	a	
                                  clamp	on	the	steel	arc
                             of	a	K-Span	facility	at	Northwest	
                                      Field,	Andersen
                               Air	Force	Base,	Guam,	May	
                                           2009.
Section	2835(e)(1)(e)
	




                        Guam RealiGnment RepoRt
                                                                              42
                        FebRuaRy 1, 2012
                                                                               Amount
                                        Contract, Grant,                      Obligated
                                         Agreement, or                       January 1 -
                                         Other Funding        Ceiling       December 31,                                       Method Used to                        Offers
                               Agency   Mechanism Title      Amount             2011                  Scope / Description       Solicit Offers   Offers Solicited   Received
                                                                                                                                                 FULL	AND	OPEN	
                                                                                                  AWARD	PCAS	OPTION	ITEM	       ARCHITECT-        COMPETITION	
                               DON      FA524005D0003      $50,000,000      $						272,164        FOR	NORTH	RAMP	PARKING	      ENGINEER	FAR	         AFTER	           27
                                                                                                  AAFB	GUAM                        6.102         EXCLUSION	OF	
                                                                                                                                                   SOURCES
                                                                                                                                                 FULL	AND	OPEN	
                                                                                                  INCORPORATE	FEEDER	
                                                                                                                                ARCHITECT-        COMPETITION	
                                                                                                  UPGRADE	WORK	AND	
                               DON      FA524009D0005      $10,000,000      $						652,895                                     ENGINEER	FAR	         AFTER	           13
                                                                                                  FUNDING	FOR	NORTH	RAMP	
                                                                                                                                   6.102         EXCLUSION	OF	
                                                                                                  UTILITIES	AAFB	GUAM
                                                                                                                                                   SOURCES
                                                                                                  TERMINATE	REMAINING	                           FULL	AND	OPEN	
                                                                                                  A-E	SERVICES	WORK	FOR	        ARCHITECT-        COMPETITION	
                               DON      FA524009D0005      $10,000,000      -$						711,843       FY11	MCON	P-109	AVIATION	    ENGINEER	FAR	         AFTER	           13
                                                                                                  FACILITIES	AT	NORTH	RAMP	        6.102         EXCLUSION	OF	
                                                                                                  AAFB	GUAM                                        SOURCES
                                                                                                  EQUITABLE	ADJUSTMENT	                          FULL	AND	OPEN	




     43
                                                                                                  FOR	DESIGN	PACKAGE	           ARCHITECT-        COMPETITION	
                               DON      FA524009D0008      $10,000,000      $								37,693       CHANGES	FOR	TUMON	MAUI	      ENGINEER	FAR	         AFTER	           13
                                                                                                  WELL	REHABILITATION,	            6.102         EXCLUSION	OF	
                                                                                                  AAFB,	GUAM                                       SOURCES
                                                                                                  DEOBLIGATE	UNEARNED	
                                                                                                                                NEGOTIATED	      FULL	AND	OPEN	
                               DON      N4019210C3000      Not	applicable   -$													394	   AWARD	FEE	ON	1ST	AWARD	                                              7
                                                                                                                                                                                                             Guam Military Realignment




                                                                                                                              PROPOSAL/QUOTE      COMPETITION
                                                                                                  OPTION	PERIOD
                                                                                                  ADD	BUS/VAN	TRANSPORT	
                                                                                                  FROM	TOP	O'	MAR	TO	
                                                                                                                                NEGOTIATED	      FULL	AND	OPEN	
                               DON      N4019210C3000      Not	applicable   $													376     UNIFORM	&	TANGO	                                                     7
                                                                                                                              PROPOSAL/QUOTE      COMPETITION
                                                                                                  WHARVES	FOR	APRA	
                                                                                                  HARBOR	WHARF	IMPRV
                                                                                                  FACILITIES	MANAGEMENT	
                                                                                                                                NEGOTIATED	      FULL	AND	OPEN	
                               DON      N4019210C3000      Not	applicable   $										1,603      SERVICES	FOR	FINEGAYAN	                                              7
                                                                                                                              PROPOSAL/QUOTE      COMPETITION
                                                                                                  LANDFILL	NO	2	GUAM
                                                                                                  ADD	PORT	OPS	SERVICES	
                                                                                                                                NEGOTIATED	      FULL	AND	OPEN	
                               DON      N4019210C3000      Not	applicable   $								79,588       FOR	APRA	HARBOR	WHARF	                                               7
                                                                                                                              PROPOSAL/QUOTE      COMPETITION
                                                                                                  IMPRV
                                                                                                  ADD	FACILITY	MANAGEMENT	
                                                                                                  SERVICES	FOR	MILITARY	
                                                                                                                                                                               Table 10. DoD Contracts, Grants, Agreements, or Other Funding Mechanisms Supporting the




                                                                                                                             NEGOTIATED	         FULL	AND	OPEN	
                               DON      N4019210C3000      Not	applicable   $										2,031      WORKING	DOG	RELOCATION	                                              7
                                                                                                                           PROPOSAL/QUOTE         COMPETITION
                                                                                                  FACILITIES,	NAVAL	BASE	
                                                                                                  GUAM	
                                                                                                                                                                                                                                                                         Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)



                                                                              Amount
                                       Contract, Grant,                      Obligated
                                        Agreement, or                       January 1 -




FebRuaRy 1, 2012
                                        Other Funding        Ceiling       December 31,                                       Method Used to                        Offers
                              Agency   Mechanism Title      Amount             2011                   Scope / Description      Solicit Offers   Offers Solicited   Received
                                                                                                  AWARD	FEE	DE-OBLIGATION	     NEGOTIATED	      FULL	AND	OPEN	
                              DON      N4019210C3000      Not	applicable   -$													394                                                                         7
                                                                                                  3RD	TRIMESTER	AOY1         PROPOSAL/QUOTE      COMPETITION




Guam RealiGnment RepoRt
                                                                                                  AWARD	FEE	DE-OBLIGATION	     NEGOTIATED	      FULL	AND	OPEN	
                              DON      N4019210C3000      Not	applicable   -$													113	                                                                        7
                                                                                                  3RD	TRIMESTER	AOY1         PROPOSAL/QUOTE      COMPETITION
                                                                                                  AWARD	FEE	DE-OBLIGATION	     NEGOTIATED	      FULL	AND	OPEN	
                              DON      N4019210C3000      Not	applicable   -$																	4                                                                       7
                                                                                                  3RD	TRIMESTER	AOY	1        PROPOSAL/QUOTE      COMPETITION
                                                                                                  PROVIDE	FACILITY	
                                                                                                  MANAGEMENT	SERVICES	
                                                                                                                                                                              Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                  (COST	ESTIMATE	FEE	
                                                                                                  FOR	DIG	PERMIT)	AND	
                                                                                                  INSTALL	CONCRETE	
                                                                                                                               NEGOTIATED	      FULL	AND	OPEN	
                              DON      N4019210C3000      Not	applicable    $										2,985      COMMUNICATION	DUCT	                                                 7
                                                                                                                             PROPOSAL/QUOTE      COMPETITION
                                                                                                  BANK	&	ASSOCIATED	MAN	
                                                                                                  HOLES	TO	CABLE	HUT	
                                                                                                  SUMAY	DR.	FOR	APRA	




    44
                                                                                                  HARBOR	WHARF	IMPRV,	INC	
                                                                                                                                                                              Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                  1	OF	2
                                                                                                  DEOBLIGATE	UNEARNED	
                                                                                                                              NEGOTIATED	       FULL	AND	OPEN	
                              DON      N4019210C3000      Not	applicable   -$																	3   AWARD	FEE	1ST	TRIMESTER,	                                           7
                                                                                                                            PROPOSAL/QUOTE       COMPETITION
                                                                                                  AOY2
                                                                                                  UTILITY	EXCAVATION	
                                                                                                  PERMIT	REQUEST	AND	TEST	
                                                                                                                             NEGOTIATED	        FULL	AND	OPEN	
                              DON      N4019210C3000      Not	applicable    $										4,211      BORINGS	APPS	FOR	NAVFAC	                                            7
                                                                                                                           PROPOSAL/QUOTE        COMPETITION
                                                                                                  APRA	UTILITIES	&	SITE	
                                                                                                  IMPROVEMENT	PROJECTS
                                                                                                                                                FULL	AND	OPEN	
                                                                                                  GEOPHYSICAL	SURVEY	
                                                                                                                                SUBJECT	TO	      COMPETITION	
                                                                                                  FOR	MILITARY	WORKING	
                              DON      N4019210D0004      $50,000,000       $								54,284                                   MULTIPLE	AWARD	       AFTER	            4
                                                                                                  DOG	RELOCATION,	APRA	
                                                                                                                             FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                                  HARBOR,	GUAM
                                                                                                                                                  SOURCES
                                                                                                                                                FULL	AND	OPEN	
                                                                                                  ADD	ANOMOLY	AVOIDANCE	
                                                                                                                                SUBJECT	TO	      COMPETITION	
                                                                                                  IN	SUPPORT	OF	THE	
                              DON      N4019210D0004      $50,000,000       $								12,042                                   MULTIPLE	AWARD	       AFTER	            4
                                                                                                  GENERAL	CONSTRUCTION	
                                                                                                                             FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                                  CONTRACTOR	
                                                                                                                                                  SOURCES
                                                                             Amount
                                        Contract, Grant,                    Obligated
                                         Agreement, or                     January 1 -
                                         Other Funding        Ceiling     December 31,                                   Method Used to                        Offers
                               Agency   Mechanism Title      Amount           2011              Scope / Description       Solicit Offers   Offers Solicited   Received
                                                                                            INCORPORATE	ADDITIONAL	
                                                                                            ANOMALIES,	DEMO	
                                                                                            CONCRETE	SLAB,	&	
                                                                                                                                           FULL	AND	OPEN	
                                                                                            DELETE	SOW	TASK	6	FOR	
                                                                                                                          SUBJECT	TO	       COMPETITION	
                                                                                            EMERGENCY	UXO	DISPOSAL	
                               DON      N4019210D0004      $50,000,000    $						350,704                                MULTIPLE	AWARD	        AFTER	            4
                                                                                            FOR	MUNITIONS	AND	
                                                                                                                       FAIR	OPPORTUNITY    EXCLUSION	OF	
                                                                                            EXPLOSIVES	OF	CONCERN	
                                                                                                                                             SOURCES
                                                                                            (MEC)	MILITARYWORKING	
                                                                                            DOG	RELOCATION	(PHASE	I),	
                                                                                            U.S.	NAVAL	BASE,	GUAM
                                                                                            MUNITIONS	AND	
                                                                                            EXPLOSIVES	OF	CONCERN	
                                                                                                                                           FULL	AND	OPEN	
                                                                                            (MEC)	CLEARANCE	AND	
                                                                                                                           SUBJECT	TO	      COMPETITION	
                                                                                            CULTURAL	RESOURCE	
                               DON      N4019210D0007      $50,000,000    $			1,682,828                                  MULTIPLE	AWARD	       AFTER	            4
                                                                                            SUPPORT	FOR	THE	NORTH	
                                                                                                                        FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                            RAMP	PARKING,	UTILITIES,	




     45
                                                                                                                                             SOURCES
                                                                                            AND	COMM	DUCT	BANK,	
                                                                                            AAFB,	GUAM
                                                                                            MUNITIONS	AND	
                                                                                                                                           FULL	AND	OPEN	
                                                                                            EXPLOSIVES	OF	CONCERN	
                                                                                                                           SUBJECT	TO	      COMPETITION	
                                                                                            (MEC)	CLEARANCE	FOR	
                               DON      N4019210D0007      $50,000,000    $								99,456                                MULTIPLE	AWARD	       AFTER	            4
                                                                                            P-204	PART	C	(APRA	CABLE	
                                                                                                                        FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                            HUT	AND	TELECOM	DUCT),	
                                                                                                                                             SOURCES
                                                                                            APRA	HARBOR,	GUAM
                                                                                            DESIGN,	LABOR,	MATERIAL,	
                                                                                                                                           FULL	AND	OPEN	
                                                                                            EQUIPMENT	AND	
                                                                                                                           SUBJECT	TO	      COMPETITION	
                                                                                            INCIDENTALS	FOR	FY	10	
                               DON      N4019210D2800      $500,000,000   $			9,121,560                                  MULTIPLE	AWARD	       AFTER	            6
                                                                                            MILCON	PROJECT	P-100,	
                                                                                                                        FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                            NORTH	RAMP	UTILITIES,	
                                                                                                                                             SOURCES
                                                                                            INCREMENT	1,	AAFB,	GUAM
                                                                                            DESIGN,	LABOR,	MATERIAL,	
                                                                                            EQUIPMENT	AND	                                 FULL	AND	OPEN	
                                                                                            INCIDENTALS	FOR	MCON	          SUBJECT	TO	      COMPETITION	
                               DON      N4019210D2801      $500,000,000   $			4,729,000     PROJECT	P-204	WHARF	         MULTIPLE	AWARD	       AFTER	            6
                                                                                            IMPROVEMENTS,	APRA	         FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                            PHASE	1	(PART	C),	CABLE	                         SOURCES
                                                                                            HUT,	NAVAL	BASE	GUAM
                                                                                                                                                                         Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)
                                                                            Amount
                                       Contract, Grant,                    Obligated
                                        Agreement, or                     January 1 -
                                        Other Funding        Ceiling     December 31,                                 Method Used to                        Offers
                              Agency   Mechanism Title      Amount           2011             Scope / Description      Solicit Offers   Offers Solicited   Received
                                                                                          TUMON	MAUI	WELL	




FebRuaRy 1, 2012
                                                                                          REHABILITATION	PROJECT	
                                                                                          TO	INCLUDE	INSTALLATION	
                                                                                          OF	WATER	DISINFECTION,	
                                                                                          CHLORINATION,	TESTING	                        FULL	AND	OPEN	
                                                                                          AND	TRANSMISSION	             SUBJECT	TO	      COMPETITION	




Guam RealiGnment RepoRt
                              DON      N4019210D2801      $500,000,000   $			4,521,000    SYSTEMS,	AND	               MULTIPLE	AWARD	       AFTER	            5
                                                                                          PROVISION	FOR	METERED	     FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                          CONNECTIVITY	TO	GUAM	                           SOURCES
                                                                                          WATERWORKS	AUTHORITY	
                                                                                          WATER	LINES	TO	SUPPORT	
                                                                                          DEFENSE	POLICY	REVIEW	
                                                                                          INITIATIVE	(DPRI).
                                                                                                                                                                      Mechanisms Data (Section 2835(e)(1)(E))




                                                                                          DESIGN,	LABOR,	
                                                                                          MATERIAL,	EQUIPMENT	                          FULL	AND	OPEN	
                                                                                          AND	INCIDENTALS	FOR	          SUBJECT	TO	      COMPETITION	
                              DON      N4019210D2803      $500,000,000   $			5,317,700    FY	10	MILCON	PROJECT	       MULTIPLE	AWARD	       AFTER	            6
                                                                                          NORTH	RAMP	PARKING	        FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                          COMMUNICATION	DUCT	                             SOURCES




    46
                                                                                          BANK,	AAFB	GUAM
                                                                                          DELETE	CLIN	0006	OPTION	
                                                                                                                                                                      Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                          ITEM	5	AND	DELETE	
                                                                                          HANDLING	AND	ADMIN	                           FULL	AND	OPEN	
                                                                                          RATE	FOR	CLIN	0007	           SUBJECT	TO	      COMPETITION	
                              DON      N4019210D2810      $500,000,000   -$					171,009   FOR	FY	10	MCON	P-1003,	     MULTIPLE	AWARD	       AFTER	            6
                                                                                          MILITARY	WORKING	          FAIR	OPPORTUNITY   EXCLUSION	OF	
                                                                                          DOG	RELOCATION,	APRA	                           SOURCES
                                                                                          HARBOR,		NAVAL	BASE	
                                                                                          GUAM
                                                                               Amount
                                        Contract, Grant,                      Obligated
                                         Agreement, or                       January 1 -
                                         Other Funding        Ceiling       December 31,                                 Method Used to                        Offers
                               Agency   Mechanism Title      Amount             2011              Scope / Description     Solicit Offers   Offers Solicited   Received
                                                                                              DOCUMENTATION	OF	
                                                                                              THE	COOPERATIVE	
                                                                                              AGREEMENT	BETWEEN	
                                                                                              THE	DEPT	OF	NAVY	AND	
                                                                                              THE	CNMI	MUSEUM	OF	
                                                                                              HISTORY	AND	CULTURE	
                                                                                              FOR	THE	PREPARATION	
                                                                                              AND	ACCESSIONING	
                               DON      N4019211C8002      Not	applicable   $								10,180                                   RFP                 1              1
                                                                                              OF	ARCHAEOLOGICAL	
                                                                                              MATERIALS	COLLECTED	
                                                                                              DURING	CONSTRUCTION	
                                                                                              AND	OPERATIONS	
                                                                                              ASSOCIATED	WITH	THE	
                                                                                              GUAM/CNMI	MILITARY	
                                                                                              RELOCATION	ON	THE	
                                                                                              ISLAND	OF	TINIAN




     47
                                                                                              DOCUMENTATION	OF	THE	
                                                                                              COOPERATIVE	AGREEMENT	
                                                                                              BETWEEN	THE	DEPT	OF	
                                                                                              NAVY	AND	THE	UNIVERSITY	
                                                                                              OF	MONTANA,	MISSOULA,	
                                                                                              FOR	THE	DEVELOPMENT	
                                                                                              AND	IMPLEMENTATION	
                               DON      N4019211C8005      Not	applicable   $						198,172    OF	CONSERVATION	AND	            RSOI         13	DOD	CESUS          6
                                                                                              MANAGEMENT	ACTIONS	IN	
                                                                                              SUPPORT	OF	RECOVERY	
                                                                                              ACTIONS	FOR	THE	MARIANA	
                                                                                              FRUIT	BAT	ON	THE	ISLAND	
                                                                                              OF	ROTA,	COMMONWEALTH	
                                                                                              OF	NORTHERN	MARIANA	
                                                                                              ISLANDS	
                                                                                              BIOSECURITY	OUTREACH	
                                                                                              PROGRAM	FOR	THE	
                                                                                              DEVELOPMENT	OF	PUBLIC	
                                                                                              SERVICE	ANNOUNCEMENTS	
                                                                                              (PSAS),	BROCHURES,	          SIMPLIFIED	     NOT	COMPETED	
                               DON      N4019211M5005      Not	applicable   $						124,860                                                                       1
                                                                                              POSTERS,	ACTIVITY	          ACQUISITION        UNDER	SAP
                                                                                              BOOKS,	AND	A	MEDIA	
                                                                                              DISSEMINATION	PLAN	FOR	
                                                                                              PUBLIC	EDUCATION	ON	
                                                                                                                                                                         Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




                                                                                              INVASIVE	SPECIES




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)

                                                                           Amount
                                       Contract, Grant,                   Obligated
                                        Agreement, or                    January 1 -
                                        Other Funding       Ceiling     December 31,                                    Method Used to                        Offers
                              Agency   Mechanism Title     Amount           2011                Scope / Description      Solicit Offers   Offers Solicited   Received
                                                                                            ADDITIONAL	DOCUMENT	




FebRuaRy 1, 2012
                                                                                            COLLECTION	FOR		THE	
                                                                                            ADMINISTRATIVE	RECORD	       ARCHITECT-
                                                                                                                                          FULL	AND	OPEN	
                              DON      N6247009D2003      $20,000,000   $								85,888     FOR	THE	GUAM	MILITARY	      ENGINEER	FAR	                           4
                                                                                                                                           COMPETITION
                                                                                            BUILDUP	ENVIRONMENTAL	          6.102
                                                                                            IMPACT	STATEMENT	(EIS)/




Guam RealiGnment RepoRt
                                                                                            OVERSEAS	EIS
                                                                                            INCORPORATE	ADDITIONAL	
                                                                                            REQUIREMENTS	
                                                                                                                         ARCHITECT-
                                                                                            ASSOCIATED	WITH	THE	                          FULL	AND	OPEN	
                              DON      N6247009D2003      $20,000,000   $								59,133                                 ENGINEER	FAR	                           4
                                                                                            ADMINISTRATIVE	RECORD	                         COMPETITION
                                                                                                                            6.102
                                                                                            FOR	FIRING	RANGES	
                                                                                                                                                                        Mechanisms Data (Section 2835(e)(1)(E))




                                                                                            RECORD	OF	DECISION
                                                                                            SURVEY	OF	TWO	
                                                                                            WATERSHEDS	AT	
                                                                                                                         NEGOTIATED	      FULL	AND	OPEN	
                              DON      N6247010D3011      $50,000,000   $						156,334      RECONNAISSANCE	LEVEL	                                               5
                                                                                                                       PROPOSAL/QUOTE      COMPETITION
                                                                                            FOR	PLACEMENT	OF	LFTRC	
                                                                                            IN	GUAM	FOR	JGPO	SEIS




    48
                                                                                            DEOBLIGATE	FUNDING	DUE	
                                                                                                                         NEGOTIATED	      FULL	AND	OPEN	
                              DON      N6247010D3011      $50,000,000   -$						156,334     TO	USMC	REQUEST	TO	                                                 5
                                                                                                                                                                        Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                                       PROPOSAL/QUOTE      COMPETITION
                                                                                            RECAPTURE	FUNDING
                                                                                            SURVEY	OF	TWO	
                                                                                            WATERSHEDS	AT	
                                                                                                                         NEGOTIATED	      FULL	AND	OPEN	
                              DON      N6247010D3011      $50,000,000   $						156,334      RECONNAISSANCE	LEVEL	                                               5
                                                                                                                       PROPOSAL/QUOTE      COMPETITION
                                                                                            FOR	PLACEMENT	OF	LFTRC	
                                                                                            IN	GUAM	FOR	JGPO	SEIS
                                                                                            CHANGES	IN	SOW	FOR	
                                                                                                                         ARCHITECT-
                                                                                            WATER	WELL	TESTING	                           FULL	AND	OPEN	
                              DON      N6274206D1870      $65,000,000   -$										5,969                               ENGINEER	FAR	                           4
                                                                                            STUDY	IN	SUPPORT	OF	THE	                       COMPETITION
                                                                                                                            6.102
                                                                                            EIS	MC	RELOCATION	
                                                                                            CHANGES	IN	SOW	FOR	PH	
                                                                                                                         ARCHITECT-
                                                                                            1	ENVIRONMENTAL	SITE	                         FULL	AND	OPEN	
                              DON      N6274206D1870      $65,000,000   $							111,615                                 ENGINEER	FAR	                           4
                                                                                            ASSESSMENT	FOR	GUAM	                           COMPETITION
                                                                                                                            6.102
                                                                                            UTILITY	IMPROVEMENTS
                                                                             Amount
                                        Contract, Grant,                    Obligated
                                         Agreement, or                     January 1 -
                                         Other Funding        Ceiling     December 31,                                    Method Used to                        Offers
                               Agency   Mechanism Title      Amount           2011                Scope / Description      Solicit Offers   Offers Solicited   Received
                                                                                              CORRECTED	THE	TAX	RATE	
                                                                                              TO	THE	GUAM	GRT	VICE	
                                                                                                                           ARCHITECT-
                                                                                              HAWAII	GET	FOR	P-1003	                        FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   -$										7,346                               ENGINEER	FAR	                           6
                                                                                              MILITARY	WORKING	DOG	                          COMPETITION
                                                                                                                              6.102
                                                                                              RELOCATION,	NAVAL	BASE	
                                                                                              GUAM
                                                                                              ADD	POST	CONSTRUCTION	
                                                                                              AWARD	SERVICES	FOR	          ARCHITECT-
                                                                                                                                            FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $								81,832     P-1003	MILITARY	WORKING	    ENGINEER	FAR	                           6
                                                                                                                                             COMPETITION
                                                                                              DOG	RELOCATION,	NAVAL	          6.102
                                                                                              BASE	GUAM
                                                                                              INCLUDE	EXTENDED	
                                                                                              OVERHEAD	COST	FOR	           ARCHITECT-
                                                                                                                                            FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $										7,315    MILITARY	WORKING	DOG	       ENGINEER	FAR	                           6
                                                                                                                                             COMPETITION
                                                                                              RELOC,	APRA	HARBOR,	            6.102
                                                                                              GUAM




     49
                                                                                              CORRECTED	THE	TAX	RATE	
                                                                                              TO	THE	GUAM	GRT	VICE	        ARCHITECT-
                                                                                                                                            FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   -$								58,398    HAWAII	GET	FOR	FY10	MCF-    ENGINEER	FAR	                           6
                                                                                                                                             COMPETITION
                                                                                              001	GUAM	UTILITIES	AND	         6.102
                                                                                              SITE	IMPROVEMENTS	PH	I
                                                                                              REVISE	WORK	PLAN/
                                                                                              HEALTH	AND	SAFETY	PLAN,	
                                                                                              PREPARE	HAZARD	ANALYSIS	
                                                                                              AND	CRITICAL	CONTROL	        ARCHITECT-
                                                                                                                                            FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $							180,468     POINTS	PLAN,	AND	PROVIDE	   ENGINEER	FAR	                           6
                                                                                                                                             COMPETITION
                                                                                              FIELD	INVESTIGATION	            6.102
                                                                                              PLANNING	AT	FINEGAYAN	
                                                                                              LANDFILL	NO.	2,	NORTH	
                                                                                              FINEGAYAN,	NAVBASE	GUAM
                                                                                              PROVIDE	JV	MANAGEMENT	
                                                                                              SUPPORT	SERVICES	FOR	        ARCHITECT-
                                                                                                                                            FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $								14,520     THE	MANAGEMENT	AND	         ENGINEER	FAR	                           6
                                                                                                                                             COMPETITION
                                                                                              ADMINISTRATION	OF	THE	          6.102
                                                                                              TASK	ORDER	
                                                                                                                                                                          Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                            Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)

                                                                            Amount
                                       Contract, Grant,                    Obligated
                                        Agreement, or                     January 1 -
                                        Other Funding        Ceiling     December 31,                                     Method Used to                        Offers
                              Agency   Mechanism Title      Amount           2011               Scope / Description        Solicit Offers   Offers Solicited   Received
                                                                                            CREDIT	FOR	JOINT	VENTURE	




FebRuaRy 1, 2012
                                                                                            MANAGEMENT	SUPPORT	
                                                                                                                           ARCHITECT-
                                                                                            FOR	THE	MANAGEMENT	                             FULL	AND	OPEN	
                              DON      N6274208D0009      $100,000,000   -$						276,764                                  ENGINEER	FAR	                           6
                                                                                            AND	ADMINISTRATION	OF	                           COMPETITION
                                                                                                                              6.102
                                                                                            THE	PROGRAM	SUPPORT	
                                                                                            CONTRACT




Guam RealiGnment RepoRt
                                                                                            DESIGN	DOCUMENTS	FOR	
                                                                                            THE	SITE	IMPROVEMENTS	
                                                                                            FOR	A	CENTRAL	
                                                                                            CONSTRUCTION	AND	
                                                                                                                           ARCHITECT-
                                                                                            DEMOLITION/COMPOSTING	                          FULL	AND	OPEN	
                              DON      N6274208D0009      $100,000,000   $								50,110                                  ENGINEER	FAR	                           6
                                                                                            FACILITY	FOR	JFY	2010	                           COMPETITION
                                                                                                                              6.102
                                                                                                                                                                          Mechanisms Data (Section 2835(e)(1)(E))




                                                                                            J-0001	FINEGAYAN	UTILITIES	
                                                                                            &	SITE	IMPROVEMENTS	PH	
                                                                                            I,	MARINE	CORPS	BASE,	
                                                                                            FINEGAYAN,	GUAM
                                                                                            PROVIDE	FINAL	DD1391	
                                                                                            PROJECT	DOCUMENTS	




    50
                                                                                            FOR	FY13	P-113	FINEGAYAN	      ARCHITECT-
                                                                                                                                            FULL	AND	OPEN	
                              DON      N6274208D0009      $100,000,000   $						208,441     UTILITIES	&	SITE	             ENGINEER	FAR	                           6
                                                                                                                                             COMPETITION
                                                                                                                                                                          Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                            IMPROVEMENTS,	PHASE	              6.102
                                                                                            2,	MARINE	CORPS	BASE,	
                                                                                            FINEGAYAN,	GUAM
                                                                                            PROVIDE	
                                                                                            RECOMMENDATIONS	ON	
                                                                                                                           ARCHITECT-
                                                                                            AUTHORIZED	PROJECT	                             FULL	AND	OPEN	
                              DON      N6274208D0009      $100,000,000   $								50,919                                  ENGINEER	FAR	                           6
                                                                                            AMOUNT	AND	VERIFY/                               COMPETITION
                                                                                                                              6.102
                                                                                            VALIDATE	PROJECT	
                                                                                            REQUIREMENTS
                                                                                            PREPARATION	OF	DESIGN-
                                                                                            BUILD	RFP	CONTRACT	
                                                                                                                           ARCHITECT-
                                                                                            DOCUMENTS	FOR	FY12	                             FULL	AND	OPEN	
                              DON      N6274208D0009      $100,000,000   $						611,770                                   ENGINEER	FAR	                           6
                                                                                            MCON	P-2048	FINEGAYAN	                           COMPETITION
                                                                                                                              6.102
                                                                                            WATER	UTILITIES,	NAVAL	
                                                                                            BASE,	GUAM
                                                                                            INCLUDE	EXTENDED	
                                                                                                                           ARCHITECT-
                                                                                            OVERHEAD	COST	FOR	FY12	                         FULL	AND	OPEN	
                              DON      N6274208D0009      $100,000,000   $										7,315                                 ENGINEER	FAR	                           6
                                                                                            P-2048	FINEGAYAN	WATER	                          COMPETITION
                                                                                                                              6.102
                                                                                            UTILITIES	RFP	PREPARATION	
                                                                             Amount
                                        Contract, Grant,                    Obligated
                                         Agreement, or                     January 1 -
                                         Other Funding        Ceiling     December 31,                                      Method Used to                        Offers
                               Agency   Mechanism Title      Amount           2011                 Scope / Description       Solicit Offers   Offers Solicited   Received
                                                                                               PREPARATION	OF	
                                                                                                                             ARCHITECT-
                                                                                               A	PESTICIDE	SOIL	                              FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $								56,252                                   ENGINEER	FAR	                           6
                                                                                               MANAGEMENT	PLAN	FOR	                            COMPETITION
                                                                                                                                6.102
                                                                                               THE	DPRI	PROGRAM
                                                                                               DELETE	REVIEW	OF	
                                                                                               FINEGAYAN	SAMPLING	
                                                                                               ANALYSIS	PLAN	AND	            ARCHITECT-
                                                                                                                                              FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   -$										1,625    PESTICIDE	TESTING	           ENGINEER	FAR	                           6
                                                                                                                                               COMPETITION
                                                                                               REPORTS	AND	ADD	                 6.102
                                                                                               EXTENDED	OVERHEAD		
                                                                                               COSTS
                                                                                                                             ARCHITECT-
                                                                                               GIS	SUPPORT	SERVICES	IN	                       FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $						360,848                                    ENGINEER	FAR	                           6
                                                                                               SUPPORT	OF	THE	DPRI                             COMPETITION
                                                                                                                                6.102
                                                                                               PCAS	FOR	JFY09	J-001	
                                                                                                                             ARCHITECT-




     51
                                                                                               GUAM	UTILITIES	AND	SITE	                       FULL	AND	OPEN	
                               DON      N6274208D0009      $100,000,000   $						326,851                                    ENGINEER	FAR	                           6
                                                                                               IMPROVEMENTS	-	PH	1,	                           COMPETITION
                                                                                                                                6.102
                                                                                               APRA	HARBOR,	GUAM
                                                                                               DEDUCT	OTHER	
                                                                                               CONSULTATION	SERVICES	        ARCHITECT-
                                                                                                                                              FULL	AND	OPEN	
                               DON      N6274208D0014      $		5,000,000   -$													344   NOT	USED	FOR	THE	            ENGINEER	FAR	                           11
                                                                                                                                               COMPETITION
                                                                                               EXECUTION	OF	THE	GUAM	           6.102
                                                                                               TECHNICAL	GUIDE	ADDENDA	
                                                                                                                             ARCHITECT-
                                                                                               UPDATE	THE	COMMON	                             FULL	AND	OPEN	
                               DON      N6274208D0014       $5,000,000    $						162,041                                    ENGINEER	FAR	                           11
                                                                                               COMPONENTS	STUDY	                               COMPETITION
                                                                                                                                6.102
                                                                                               DE-OBLIGATE	UNUSED	
                                                                                               CONSULTATION	SERVICES	
                                                                                                                                              FULL	AND	OPEN	
                                                                                               FUNDS	FOR		GEOLOGIC	
                                                                                                                             ARCHITECT-        COMPETITION	
                                                                                               INVESTIGATION	FOR	JFY10	
                               DON      N6274208D0018      $		5,000,000   -$								26,781                                  ENGINEER	FAR	         AFTER	            3
                                                                                               J-017	FINEGAYAN	UTILITIES	
                                                                                                                                6.102         EXCLUSION	OF	
                                                                                               &	SITE	IMPROVEMENTS,	PH	
                                                                                                                                                SOURCES
                                                                                               2,	MARINE	CORPS	BASE,	
                                                                                               FINGAYAN,	GUAM	
                                                                                                                                                                            Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                              Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)

                                                                            Amount
                                       Contract, Grant,                    Obligated
                                        Agreement, or                     January 1 -
                                        Other Funding        Ceiling     December 31,                                    Method Used to                        Offers
                              Agency   Mechanism Title      Amount           2011              Scope / Description        Solicit Offers   Offers Solicited   Received
                                                                                           PREPARATION	OF	THREE	




FebRuaRy 1, 2012
                                                                                           (3)	RFP	PACKAGES	
                                                                                           FOR	THE	DESIGN	AND		
                                                                                           CONSTRUCTION	OF	
                                                                                           PART	D	(BY	PASS	ROAD),	
                                                                                                                          ARCHITECT-
                                                                                           PART	E	(TANGO	WHARF	                            FULL	AND	OPEN	




Guam RealiGnment RepoRt
                              DON      N6274209D0002      $100,000,000   $						840,872                                  ENGINEER	FAR	                           4
                                                                                           IMPROVEMENTS),	AND	PART	                         COMPETITION
                                                                                                                             6.102
                                                                                           F	(MECHANICAL,	CIVIL	&	
                                                                                           ELECTRICAL	UTILITIES)	FOR	
                                                                                           FY10	MCON	P-204	WHARF	
                                                                                           IMPROVEMENTS	(U&T),	APRA	
                                                                                           PHASE	1,	GUAM
                                                                                                                                                                         Mechanisms Data (Section 2835(e)(1)(E))




                                                                                           POST	CONSTRUCTION	
                                                                                           AWARD	SERVICES	FOR	
                                                                                                                          ARCHITECT-
                                                                                           FY10	MCON	PROJECT	P-204,	                       FULL	AND	OPEN	
                              DON      N6274209D0002      $100,000,000   $								70,441                                 ENGINEER	FAR	                           4
                                                                                           WHARF	IMPROVEMENTS	                              COMPETITION
                                                                                                                             6.102
                                                                                           (UNIFORM&TANGO)	PARTS	
                                                                                           A&B,	APRA	HARBOR,	GUAM




    52
                                                                                           POST	CONSTRUCTION	
                                                                                           AWARD	SERVICES	FOR	
                                                                                                                          ARCHITECT-
                                                                                                                                                                         Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                           FY10	MCON	PROJECT	P-204,	                       FULL	AND	OPEN	
                              DON      N6274209D0002      $100,000,000   $						205,301                                  ENGINEER	FAR	                           4
                                                                                           WHARF	IMPROVEMENTS	                              COMPETITION
                                                                                                                             6.102
                                                                                           (UNIFORM&TANGO)	PART	C,	
                                                                                           APRA	HARBOR,	GUAM
                                                                                           HISTORICAL	PRESERVATION	                        NOT	AVAILABLE	
                              DON      N6274209D1960      $		3,500,000   $						180,971    SERVICES	FOR	P100	NORTH	     ONLY	ONE	SOURCE         FOR	             1
                                                                                           RAMP	UTILITIES	PHASE	I	                         COMPETITION
                                                                                           PERFORM	AND	SUBMIT	
                                                                                           DESIGN	REVISIONS	FOR	
                                                                                           TELECOM	DUCT-LINE	             ARCHITECT-
                                                                                                                                           FULL	AND	OPEN	
                              DON      N6274210D0003      $	50,000,000    $							17,678   P-204D	COORDINATION	FOR	      ENGINEER	FAR	                          17
                                                                                                                                            COMPETITION
                                                                                           GOJ	JFY10	WATERFRONT	             6.102
                                                                                           HEADQUARTERS	BUILDING,	
                                                                                           APRA	HARBOR,	GUAM
                                                                               Amount
                                        Contract, Grant,                      Obligated
                                         Agreement, or                       January 1 -
                                         Other Funding         Ceiling      December 31,                                     Method Used to                        Offers
                               Agency   Mechanism Title       Amount            2011               Scope / Description        Solicit Offers   Offers Solicited   Received
                                                                                               INCLUDE	A	SITE	VISIT		
                                                                                               TO	VIEW	EXISTING	BEQ	
                                                                                               PROJECTS	IN	THE	SAN	
                                                                                               DIEGO	AREA	AND	TO	
                                                                                               COORDINATE	FURNITURE,	         ARCHITECT-
                                                                                                                                               FULL	AND	OPEN	
                               DON      N6274210D0003       $	50,000,000	   $								28,332    FURNISHINGS	&	EQUIPMENT	      ENGINEER	FAR	                          17
                                                                                                                                                COMPETITION
                                                                                               (FF&E)	TURNKEY	PROCESS	           6.102
                                                                                               FOR	JFY09	PROJECT	J-010,	
                                                                                               BEQ	PROTOTYPE	DESIGN	
                                                                                               FOR	THE	MARINE	CORPS	
                                                                                               BASE	ON	FINEGAYAN,	GUAM	
                                                                                               JRM	SUPPLEMENTAL	              ARCHITECT-
                                                                                                                                               FULL	AND	OPEN	
                               DON      N6274210D0009       $		7,500,000    $						249,998     INTEGRATED	SOLID	WASTE	       ENGINEER	FAR	                           6
                                                                                                                                                COMPETITION
                                                                                               MANAGEMENT	PLAN                   6.102
                                                                                               REVISE	SPECIFICATIONS	
                                                                                               FOR	DESIGN	SUBMITTAL	




     53
                                                                                               PROCEDURES	AND	SAFETY	
                                                                                               AND	OCCUPATIONAL	HEALTH	
                                                                                                                             SUBJECT	TO	
                                                                                               REQUIREMENTS	FOR	FY10	                          FULL	AND	OPEN	
                               DON      N6274210D1309      $4,000,000,000   $										7,928                               MULTIPLE	AWARD	                           7
                                                                                               MILCON	PROJECT	P-204,	                           COMPETITION
                                                                                                                          FAIR	OPPORTUNITY
                                                                                               APRA	HARBOR	WHARF	
                                                                                               IMPROVEMENTS	(UNIFORM	
                                                                                               &	TANGO)	PHASE	I	(PARTS	A	
                                                                                               &	B),	NAVAL	BASE,	GUAM
                                                                                               REDESIGN	DRAINAGE	
                                                                                               SYSTEM	FOR	FY10	
                                                                                               MILCON	PROJECT	P-204,	          SUBJECT	TO	
                                                                                                                                               FULL	AND	OPEN	
                               DON      N6274210D1309      $4,000,000,000   $								85,694    APRA	HARBOR	WHARF	            MULTIPLE	AWARD	                         7
                                                                                                                                                COMPETITION
                                                                                               IMPROVEMENTS	(UNIFORM	       FAIR	OPPORTUNITY
                                                                                               &	TANGO)	PHASE	I	(PARTS	A	
                                                                                               &	B),	NAVAL	BASE,	GUAM
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)

                                                                              Amount
                                       Contract, Grant,                      Obligated
                                        Agreement, or                       January 1 -
                                        Other Funding         Ceiling      December 31,                                    Method Used to                        Offers
                              Agency   Mechanism Title       Amount            2011               Scope / Description       Solicit Offers   Offers Solicited   Received
                                                                                              INCORPORATED	




FebRuaRy 1, 2012
                                                                                              SPECIFICATION	
                                                                                              REQUIREMENTS:		(1)	
                                                                                              REPLACE	SPEC	SECTION	
                                                                                              01	57	19.00	20	WITH	SPEC	
                                                                                              SECTIONS	01	57	19.00	20	       SUBJECT	TO	




Guam RealiGnment RepoRt
                                                                                                                                             FULL	AND	OPEN	
                              DON      N6274210D1309      $4,000,000,000   $							692,762    DTD	11APR11;	(2)	REPLACE	    MULTIPLE	AWARD	                         7
                                                                                                                                              COMPETITION
                                                                                              SPEC	SECTION	01	74	19.05	   FAIR	OPPORTUNITY
                                                                                              20	WITH	SPEC	SECTION	01	
                                                                                              74	19.05	20	DTD	11APR11;	
                                                                                              (3)	INSERT	MUNITIONS	
                                                                                              OF	EXPLOSIVE	CONCERN	
                                                                                              PROBABILITY	MAP	FIG	1-2B
                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




                                                                                              DESIGN,	LABOR,	MATERIAL,	
                                                                                              EQUIPMENT	AND	
                                                                                                                             SUBJECT	TO	
                                                                                              INCIDENTALS	FOR	FY	10	                         FULL	AND	OPEN	
                              DON      N6274210D1312      $4,000,000,000   $		73,177,000                                   MULTIPLE	AWARD	                         7
                                                                                              MILCON	PROJECT	P101	                            COMPETITION
                                                                                                                          FAIR	OPPORTUNITY
                                                                                              &	P101A,	NORTH	RAMP	
                                                                                              PARKING,	AAFB	GUAM	




    54
                                                                                              CHANGE	THE	STANDARD	
                                                                                                                                                                           Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                              INSULATED	WIRE	FOR	
                                                                                              MEDIUM	VOLTAGE	FROM	
                                                                                                                            SUBJECT	TO	
                                                                                              EPR	TO	AAFB	STANDARD	                          FULL	AND	OPEN	
                              DON      N6274210D1312      $4,000,000,000   $						363,764                                 MULTIPLE	AWARD	                          7
                                                                                              OF	XLP	PER	ARTICLE	9.2	OF	                      COMPETITION
                                                                                                                         FAIR	OPPORTUNITY
                                                                                              THE	BASE	ARCHITECTURAL	
                                                                                              AND	COMPATIBILITY	DESIGN	
                                                                                              STANDARDS
                                                                                              CANCELLATION	OF	PHASES	
                                                                                              II	AND	III	OF	THE	DPRI	        SIMPLIFIED	     NOT	COMPETED	
                              DON      N6274210P0501      Not	applicable   -$								30,270                                                                        1
                                                                                              PROCESS	IMPROVEMENT	          ACQUISITION        UNDER	SAP
                                                                                              AND	FACILITATION	SUPPORT
                                                                                              NORTH	RAMP	AND	
                                                                                              APRA	HARBOR	SITE	
                                                                                              IMPROVEMENTS,	CLEARING,	
                                                                                              UTILITIES,	ROADWAYS	          NEGOTIATED	      FULL	AND	OPEN	
                              DON      N6274211C0400      Not	applicable   $	89,719,000                                                                            5
                                                                                              FOR	JFY09	MAMIZU	J-001	     PROPOSAL/QUOTE      COMPETITION
                                                                                              UTILITIES	AND	SITE	
                                                                                              IMPROVEMENTS,	PHASE	1,	
                                                                                              GUAM
                                                                            Amount
                                        Contract, Grant,                   Obligated
                                         Agreement, or                    January 1 -
                                         Other Funding       Ceiling     December 31,                                  Method Used to                        Offers
                               Agency   Mechanism Title     Amount           2011             Scope / Description       Solicit Offers   Offers Solicited   Received
                                                                                          PREPARATION	OF	AN	
                                                                                          ALTERNATIVE	ANALYSIS	         ARCHITECT-
                                                                                                                                         FULL	AND	OPEN	
                               DON      N6274211D1801      $50,000,000    $		1,589,814    OF	POSSIBLE	LIVE	FIRING	     ENGINEER	FAR	                           5
                                                                                                                                          COMPETITION
                                                                                          RANGE	ALTERNATIVES	ON	           6.102
                                                                                          GUAM
                                                                                          SCOPING	IN	ACCORDANCE	
                                                                                          WITH	NEPA,	CULMINATING	IN	
                                                                                          A	REPORT	DOCUMENTING	
                                                                                          THE	SCOPING	PROCESS	
                                                                                          WHICH	THE	NAVY	WILL	          ARCHITECT-
                                                                                                                                         FULL	AND	OPEN	
                               DON      N6274211D1801      $50,000,000    $					382,452   CONSIDER	IN	DETERMINING	     ENGINEER	FAR	                           5
                                                                                                                                          COMPETITION
                                                                                          THE	SCOPE	OF	A	DRAFT	            6.102
                                                                                          LIVE	FIRE	TRAINING	RANGE	
                                                                                          COMPLEX	SUPPLEMENTAL	
                                                                                          ENVIRONMENTAL	IMPACT	
                                                                                          STATEMENT	ON	GUAM




     55
                                                                                          ARCHAEOLOGICAL	SURVEYS	
                                                                                          AND	CULTURAL	RESOURCE	
                                                                                          STUDIES	ANALYZING	
                                                                                          SELECTED	AREAS	ON	GUAM	
                                                                                          IN	SUPPORT	OF	THE	LIVE	       ARCHITECT-
                                                                                                                                         FULL	AND	OPEN	
                               DON      N6274211D1801      $50,000,000    $		1,420,624	   FIRE	TRAINING	RANGE	         ENGINEER	FAR	                           5
                                                                                                                                          COMPETITION
                                                                                          COMPLEX	SUPPLEMENTAL	            6.102
                                                                                          ENVIRONMENTAL	IMPACT	
                                                                                          STATEMENT,	NAVAL	BASE	
                                                                                          GUAM	NAVAL	MUNITIONS	
                                                                                          SITE	ALTERNATIVE
                                                                                          PREPARE	REMOTE	
                                                                                          SENSING	WETLAND	
                                                                                          MAPPING	AND	BIOLOGICAL	
                                                                                          SURVEYS	FOR	US	
                                                                                          MARINE	CORPS	TRAINING	        ARCHITECT-
                                                                                                                                         FULL	AND	OPEN	
                               DON      N6274211D1801      $50,000,000    $					509,641   RANGE	ALTERNATIVES	IN	       ENGINEER	FAR	                           5
                                                                                                                                          COMPETITION
                                                                                          SUPPORT	OF	THE	LIVE	             6.102
                                                                                          FIRE	TRAINING	RANGE	
                                                                                          COMPLEX	SUPPLEMENTAL	
                                                                                          ENVIRONMENTAL	IMPACT	
                                                                                          STATEMENT	ON	GUAM
                                                                                                                                                                       Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                         Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)

                                                                              Amount
                                       Contract, Grant,                      Obligated
                                        Agreement, or                       January 1 -
                                        Other Funding        Ceiling       December 31,                                     Method Used to                        Offers
                              Agency   Mechanism Title      Amount             2011              Scope / Description         Solicit Offers   Offers Solicited   Received
                                                                                             POST	CONSTRUCTION	




FebRuaRy 1, 2012
                                                                                                                                              FULL	AND	OPEN	
                                                                                             AWARD	SERVICES	FOR	
                                                                                                                             ARCHITECT-        COMPETITION	
                                                                                             GOJ	FY2010	MCF-001	
                              DON      N6274211D0011       $	7,500,000     $						208,515                                   ENGINEER	FAR	         AFTER	            9
                                                                                             GUAM	UTILITIES	AND	SITE	
                                                                                                                                6.102         EXCLUSION	OF	
                                                                                             IMPROVEMENTS	-	PH	1,	ACE	
                                                                                                                                                SOURCES
                                                                                             GATE,	AAFB,	GUAM




Guam RealiGnment RepoRt
                                                                                             DEVELOPMENT	OF	
                                                                                             BASELINE	MONITORING	
                                                                                                                                              NOT	AVAILABLE	
                                                                                             PROGRAM	FOR	
                              DON      N6274211D1828       $	4,000,000     $						188,291                                  ONLY	ONE	SOURCE         FOR	             1
                                                                                             TERRESTIAL	VEGETATION,	
                                                                                                                                              COMPETITION
                                                                                             INVERTEBRATES,	AND	
                                                                                             VERTEBRATES	ON	GUAM
                                                                                                                                                                            Mechanisms Data (Section 2835(e)(1)(E))




                                                                                             BIOLOGICAL	MONITORING	
                                                                                                                              SIMPLIFIED	      COMPETED	
                              DON      N6274211P1827      Not	applicable   $								18,853   FOR	GOJ	UTILITIES	AND	SITE	                                            1
                                                                                                                             ACQUISITION       UNDER	SAP
                                                                                             IMPROVEMENTS,	PHASE	2
                                                                                             PROFESSIONAL	SERVICES	
                                                                                             -	PUBLIC	PRIVATE	
                                                                                             VENTURE:	GUAM	UTILITIES	




    56
                                                                                             DEVELOPMENT.		NOTE:		
                                                                                             CONTRACT	N6247208D2006	
                                                                                                                                                                            Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                             IS	PRIMARILY	FOR	WORK	
                                                                                             NOT	ASSOCIATED	WITH	
                              DON      N6247208D2006      $40,000,000      $						749,962    THE	REALIGNMENT	OF	                NECO                 0              6
                                                                                             MILITARY	INSTALLATIONS	
                                                                                             AND	RELOCATION	OF	
                                                                                             MILITARY	PERSONNEL	TO	
                                                                                             GUAM.		THEREFORE,	THE	
                                                                                             CEILING	AMOUNT	FOR	
                                                                                             THIS	CONTRACT	IS	NOT	
                                                                                             RELEVANT	
                                                                            Amount
                                        Contract, Grant,                   Obligated
                                         Agreement, or                    January 1 -
                                         Other Funding       Ceiling     December 31,                                  Method Used to                        Offers
                               Agency   Mechanism Title     Amount           2011             Scope / Description       Solicit Offers   Offers Solicited   Received
                                                                                          PROFESSIONAL	SERVICES	
                                                                                          -	PUBLIC	PRIVATE	
                                                                                          VENTURE:	GUAM	UTILITIES	
                                                                                          DEVELOPMENT.		NOTE:		
                                                                                          CONTRACT	N6247208D2006	
                                                                                          IS	PRIMARILY	FOR	WORK	
                                                                                          NOT	ASSOCIATED	WITH	
                               DON      N6247208D2006      $40,000,000   $						249,210   THE	REALIGNMENT	OF	              NECO                 0              6
                                                                                          MILITARY	INSTALLATIONS	
                                                                                          AND	RELOCATION	OF	
                                                                                          MILITARY	PERSONNEL	TO	
                                                                                          GUAM.		THEREFORE,	THE	
                                                                                          CEILING	AMOUNT	FOR	
                                                                                          THIS	CONTRACT	IS	NOT	
                                                                                          RELEVANT	
                                                                                          PROFESSIONAL	SERVICES	-	




     57
                                                                                          PUBLIC	PRIVATE	VENTURE:		
                                                                                          GUAM	HOUSING	SPE.		NOTE:		
                                                                                          CONTRACT	N6247208D2006	
                                                                                          IS	PRIMARILY	FOR	WORK	
                                                                                          NOT	ASSOCIATED	WITH	
                                                                                          THE	REALIGNMENT	OF	
                               DON      N6247208D2006      $40,000,000   $						400,000                                    NECO                 0              6
                                                                                          MILITARY	INSTALLATIONS	
                                                                                          AND	RELOCATION	OF	
                                                                                          MILITARY	PERSONNEL	TO	
                                                                                          GUAM.		THEREFORE,	THE	
                                                                                          CEILING	AMOUNT	FOR	
                                                                                          THIS	CONTRACT	IS	NOT	
                                                                                          RELEVANT	
                                                                                                                                                                       Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                         Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	         Section	2835(e)(1)(e)
                          	         Section	2835(e)(1)(e)

                                                                            Amount
                                       Contract, Grant,                    Obligated
                                        Agreement, or                     January 1 -
                                        Other Funding       Ceiling      December 31,                                              Method Used to                        Offers
                              Agency   Mechanism Title     Amount            2011                 Scope / Description               Solicit Offers   Offers Solicited   Received
                                                                                            PROFESSIONAL	SERVICES	




FebRuaRy 1, 2012
                                                                                            -	PUBLIC	PRIVATE	
                                                                                            VENTURE:	GUAM	UTILITIES	
                                                                                            DEVELOPMENT.		NOTE:		
                                                                                            CONTRACT	N6247208D2006	
                                                                                            IS	PRIMARILY	FOR	WORK	




Guam RealiGnment RepoRt
                                                                                            NOT	ASSOCIATED	WITH	
                              DON      N6247208D2006      $40,000,000    $			1,449,892      THE	REALIGNMENT	OF	                        NECO                 0              6
                                                                                            MILITARY	INSTALLATIONS	
                                                                                            AND	RELOCATION	OF	
                                                                                            MILITARY	PERSONNEL	TO	
                                                                                            GUAM.		THEREFORE,	THE	
                                                                                            CEILING	AMOUNT	FOR	
                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))




                                                                                            THIS	CONTRACT	IS	NOT	
                                                                                            RELEVANT	
                                                                                                       KEY	OBJECTIVES:	
                                                                                                       INITIAL	ASSESSMENT	
                              DoD	     GR0706-07-01-                                                   OF	CHALLENGES;	
                                                          $				589,591   $																		-									                                  N/A                N/A            N/A
                              OEA      07-01                                                           ORGANIZATION	LOGISTICAL	




    58
                                                                                                       SUPPORT;	COMMUNITY	
                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                       OUTREACH
                                                                                                       KEY	OBJECTIVES:	CAPACITY	
                                                                                                       BUILDING	WITHIN	THE	
                                                                                                       OFFICE	OF	THE	GOVERNOR;	
                                                                                                       ORGANIZATIONAL	/	
                                                                                                       LOGISTICAL	SUPPORT;	
                              DoD	     GR0706-08-02-
                                                          $		1,546,299   $																		-									 PORT	AUTHORITY	OF	GUAM	          N/A                N/A            N/A
                              OEA      08-01
                                                                                                       FINANCIAL	FEASIBILITY	
                                                                                                       STUDY;	PORT	AUTHORITY	
                                                                                                       OF	GUAM	IMPLEMENTATION	
                                                                                                       PLAN;	PORT	AUTHORITY	OF	
                                                                                                       GUAM	PROTOCOL	MANUAL	
                                                                               Amount
                                        Contract, Grant,                      Obligated
                                         Agreement, or                       January 1 -
                                         Other Funding        Ceiling       December 31,                                              Method Used to                        Offers
                               Agency   Mechanism Title      Amount             2011                  Scope / Description              Solicit Offers   Offers Solicited   Received
                                                                                                          KEY	OBJECTIVES:	
                                                                                                          CAPACITY	BUILDING	
                                                                                                          WITHIN	THE	OFFICE	OF	THE	
                                                                                                          GOVERNOR	(ADVISORY	
                                                                                                          SERVICES	CONTRACT	
                                                                                                          FOR	ENVIRONMENTAL,	
                                                                                                          PLANNING,	AND	FISCAL/
                               DoD	
                                        GR0706-08-03       $		2,531,610     $																		-									 FINANCIAL	ANALYSIS);	            N/A                N/A            N/A
                               OEA
                                                                                                          ENVIRONMENTAL	ADVISORY	
                                                                                                          SERVICES,	PLANNING	
                                                                                                          ADVISORY	SERVICES;	
                                                                                                          FINANCIAL-FISCAL	
                                                                                                          ADVISORY	SERVICES;	ZERO	
                                                                                                          SOLID	WASTE	MANAGEMENT	
                                                                                                          STUDY
                                                                                                          KEY	OBJECTIVES:	FISCAL	
                                                                                                          ANALYSIS	OF	DIRECT	
                               DoD	                                                                       AND	INDIRECT	IMPACTS	
                                        GR0706-09-05       $				996,873     $																		-									                                  N/A                N/A            N/A
                               OEA                                                                        ASSOCIATED	WITH	




     59
                                                                                                          PROPOSED	DOD	BUILDUP	
                                                                                                          ON	GUAM
                                                                                                          KEY	OBJECTIVES:	PORT	
                               DoD	
                                        GR0706-09-04       $				2,000,000   $																		-									 MODERNIZATION	FACT	              N/A                N/A            N/A
                               OEA
                                                                                                          FINDING	AND	PLANNING
                                                                                                          KEY	OBJECTIVES:	CAPACITY	
                                                                                                          BUILDING	WITHIN	THE	
                                                                                                          OFFICE	OF	THE	GOVERNOR;	
                               DoD	
                                        GR0706-09-06       $				536,955     $																		-									 ORGANIZATIONAL/	                 N/A                N/A            N/A
                               OEA
                                                                                                          LOGISTICAL	SUPPORT	
                                                                                                          TO	THE	OFFICE	OF	THE	
                                                                                                          GOVERNOR
                                                                                                          KEY	OBJECTIVES:	
                                                                                                          CAPACITY	ENHANCING	
                                                                                                          BUILDING	INITIATIVE	-	
                               DoD	                                                                       BEST	MANAGEMENT,	BEST	
                                        GR0706-09-07       $				2,000,000   $																		-									                                  N/A                N/A            N/A
                               OEA                                                                        PRACTICES	PROTOCOL;	
                                                                                                          FIVE	YEAR	HEALTH	AND	
                                                                                                          HUMAN	SERVICES	CARE	
                                                                                                          STRATEGIC	PLAN
                                                                                                                                                                                      Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                        Mechanisms Data (Section 2835(e)(1)(E))




        FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                           	      Section	2835(e)(1)(e)
                          	                                                                                                                             Section	2835(e)(1)(e)

                                                                                                                                                                                                       Amount
                                                                                                                                                                  Contract, Grant,                    Obligated
                                                                                                                                                                   Agreement, or                     January 1 -
                                                                                                                                                                   Other Funding       Ceiling      December 31,                                             Method Used to                        Offers
                                                                                                                                                         Agency   Mechanism Title     Amount            2011                  Scope / Description             Solicit Offers   Offers Solicited   Received
                                                                                                                                                                                                                                  KEY	OBJECTIVES:	PORT	




FebRuaRy 1, 2012
                                                                                                                                                                                                                                  TERMINAL	PRELIMINARY	
                                                                                                                                                         DoD	
                                                                                                                                                                  GR0706-09-08       $				975,000   $																		-									 DESIGN;	PORT	MASTER	            N/A                N/A            N/A
                                                                                                                                                         OEA
                                                                                                                                                                                                                                  PLANNING	TECHNICAL	
                                                                                                                                                                                                                                  SUPPORT
                                                                                                                                                                                                                                  KEY	OBJECTIVES:	




Guam RealiGnment RepoRt
                                                                                                                                                                                                                                  SUPPORT	TO	THE	OFFICE	
                                                                                                                                                                                                                                  OF	THE	GOVERNOR	IN	
                                                                                                                                                                                                                                  THE	DEVELOPMENT	OF	
                                                                                                                                                         DoD	     GR0706-10-09-
                                                                                                                                                                                     $				380,000   $																		-									 SOCIOECONOMIC	AREAS	            N/A                N/A            N/A
                                                                                                                                                         OEA      10-01
                                                                                                                                                                                                                                  OF	INTEREST	(SAI)	NEEDS	
                                                                                                                                                                                                                                  ASSOCIATED	WITH	THE	
                                                                                                                                                                                                                                                                                                             Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                                                                                                                                                  DEFENSE	POSTURE	
                                                                                                                                                                                                                                  REALIGNMENT	INITIATIVE
                                                                                                                                                                                                                                  KEY	OBJECTIVES:	PORT	
                                                                                                                                                         DoD	                                                                     MODERNIZATION	PROGRAM	
                                                                                                                                                                  GR0706-10-10       $				750,000   $																		-									                                 N/A                N/A            N/A
                                                                                                                                                         OEA                                                                      PROJECT	CONTROLS	AND	
                                                                                                                                                                                                                                  ACCOUNTING	SERVICES




    60
                                                                                                                                                                                                                       KEY	OBJECTIVES:		MEDICAL	
                                                                                                                                                         DoD	
                                                                                                                                                                  GR0706-11-11       $				175,000   $						175,000     SERVICES	DELIVERY	                         N/A                N/A            N/A
                                                                                                                                                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                                                                                         OEA
                                                                                                                                                                                                                       PLANNING
                                                                                                                                                                                                                       KEY	OBJECTIVES:		
                                                                                                                                                                                                                       PORT	MODERNIZATION	
                                                                                                                                                         DoD	                                                          PROGRAM	TECHNICAL	AND	
                                                                                                                                                                  GR0706-11-12       $			850,000    $							850,000                                               N/A                N/A            N/A
                                                                                                                                                         OEA                                                           ENGINEERING	CONSULTING;	
                                                                                                                                                                                                                       FUTURE	PORT	OPERATIONS	
                                                                                                                                                                                                                       FINANCIAL	MODELING
                                                                                                                                                                                                                       KEY	OBJECTIVES:		
                                                                                                                                                                                                                       ORGANIZATIONAL	&	
                                                                                                                                                         DoD	
                                                                                                                                                                  GR0706-11-13       $			249,890    $							249,890    LOGISTICAL	SUPPORT	TO	                     N/A                N/A            N/A
                                                                                                                                                         OEA
                                                                                                                                                                                                                       THE	GUAM	GOVERNOR'S	




                              Sources: NAVFAC Headquarters response to DoD OIG data call, 1/6/2012; DoD OEA response to DoD OIG data call, 1/17/2012.
                                                                                                                                                                                                                       OFFICE
                                                                                                                                                         Total                                      $202,597,614
                                                          Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                            Mechanisms Data (Section 2835(e)(1)(E))

      O




                                                    Amount
                                                   Obligated
            Contract, Grant,                       January 1-                                   Method
          Agreement, or Other                     December 31,                                  Used to
          Funding Mechanism       Ceiling             2010                                      Solicit                         Offers
Agency           Title            Amount          (U.S. Funds)            Scope / Description    Offers     Offers Solicited   Received
         CONTRACT	                                                        PROGRAM	              Full	and	
DOT                             $400,000,000	     $					894,939	                                              UNLIMITED           5
         DTMA1D10002                                                      MANAGEMENT             Open	
         GRANT	TO	
         GOVERNMENT	
                                                                          PREPARE	NEPA	
         OF	GUAM	GU-NH-
                                                                          DOCUMENT	AND	
         IPMS	(002)	ISLAND-                                                                                  BASE	CON-
                                                                          COORDINATION	
         WIDE	PROGRAM	                                                                     ID/IQ	           TRACT	-	OPEN	
DOT                             $			3,696,610	    $																	-	    BETWEEN	                                                5
         MANAGEMENT	                                                                       RFP               ADVERTISE-
                                                                          GOVERNMENT	OF	
         SERVICES(FUNDS	                                                                                       MENT
                                                                          GUAM	DPW,	FHWA,	
         FROM	USMC)	
                                                                          AND	DOD
         DTFH6109X50001	
         (ADVICE/MOD	#1)
         GRANT	TO	
         GOVERNMENT	
                                                                          PREPARE	NEPA	
         OF	GUAM	GU-NH-
                                                                          DOCUMENT	AND	
         IPMS(	002)	ISLAND-                                                                                  BASE	CON-
                                                                          COORDINATION	
         WIDE	PROGRAM	                                                                     ID/IQ	           TRACT	-	OPEN	
DOT                             $			1,595,940	    $																	-	    BETWEEN	                                                5
         MANAGEMENT	                                                                       RFP               ADVERTISE-
                                                                          GOVERNMENT	OF	
         SERVICES	(FUNDS	                                                                                      MENT
                                                                          GUAM	DPW,	FHWA,	
         FROM	USMC)
                                                                          AND	DOD
         DTFH6109X50001	
         (ADVICE/MOD	#3)	
         GRANT	TO	
         GOVERNMENT	
                                                                          PREPARE	NEPA	
         OF	GUAM	GU-NH-
                                                                          DOCUMENT	AND	
         IPMS	(002)	ISLAND-                                                                                  BASE	CON-
                                                                          COORDINATION	


                                                                                                                                          Section	2835(e)(1)(e)
         WIDE	PROGRAM	                                                                     ID/IQ	           TRACT	-	OPEN	
DOT                               $					80,000	   $																	-		   BETWEEN	                                                5
         MANAGEMENT	                                                                       RFP               ADVERTISE-
                                                                          GOVERNMENT	OF	
         SERVICES	(FUNDS	                                                                                      MENT
                                                                          GUAM	DPW,	FHWA,	
         FROM	BUMED)
                                                                          AND	DOD
         DTFH6109X50001	
         (ADVICE/MOD	#2)
                                                                                                                                          	




                                                                                                       Guam RealiGnment RepoRt
                                                                 61
                                                                                                               FebRuaRy 1, 2012
                         Section 5: Contracts, Grants, Agreements, or Other Funding
                         Mechanisms Data (Section 2835(e)(1)(E))

                                                                             Amount
                                                                            Obligated
                                     Contract, Grant,                       January 1-                             Method
                                   Agreement, or Other                     December 31,                            Used to
                                   Funding Mechanism       Ceiling             2010                                Solicit                       Offers
                         Agency           Title            Amount          (U.S. Funds)      Scope / Description    Offers   Offers Solicited   Received
                                                                                             PREPARE	
                                  GRANT	TO	
                                                                                             DESIGN/BUILD	
                                  GOVERNMENT	
                                                                                             REQUEST	FOR	
                                  OF	GUAM	GU-NH-
                                                                                             QUALIFICATIONS	
                                  IPMS	(002)	ISLAND-
                                                                                             FOR	PROPOSALS	                   BASE	CON-
                                  WIDE	PROGRAM	
                                                                                             FOR	FY2010	           ID/IQ	    TRACT	-	OPEN	
                         DOT      MANAGEMENT	            $		2,949,137	     $		2,949,137	                                                           5
                                                                                             DAR	PROJECTS,	        RFP        ADVERTISE-
                                  SERVICES	
                                                                                             ROUTE	1	EAST	OF	                   MENT
                                  27XX66IPMS00273P0	
                                                                                             ROUTE	4,	ROUTE	
                                  ($2,646,633.08)	
                                                                                             11/1,	ROUTE	11,	
                                  27XX66IPMS00273V0	
                                                                                             ROUTE	1/8,	AND	
                                  ($302,504.00)
                                                                                             AGANA	BRIDGE
                                  GRANT	TO	
                                  GOVERNMENT	                                                CONSULTANT	
                                                                                                                             OPEN	ADVER-
                         DOT      OF	GUAM	GU-            $					570,740     $					570,740	    FOR	ROUTE	1/3	        RFP                             3
                                                                                                                              TISEMENT
                                  NH-0001	(125	)	                                            INTERSECTION	
                                  27XX66000112573P0
                                  GRANT	TO	
                                                                                             CONSULTANT	FOR	
                                  GOVERNMENT	
                                                                                             ROUTE	3	FROM	                   OPEN	ADVER-
                         DOT      OF	GUAM	GU-            $		2,182,765	     $		2,182,765	                     RFP                                   3
                                                                                             ROUTE	28	TO	                     TISEMENT
                                  NH-0003	(105)	
                                                                                             CHALAN	KARETA
                                  27XX66000310573V0
                                                                                             CONSTRUCTION	
                                  GRANT	TO	
                                                                                             FOR	ROUTE	1	
                                  GOVERNMENT	OF	                                                                             OPEN	ADVER-
                         DOT                             $	11,239,814	     $	11,239,814	     AGANA	BRIDGES	        RFP                             3
                                  GUAM	GU-DAR-TI01	                                                                           TISEMENT
                                                                                             AND	ROUTE	1/8	
                                  (001)	27XX66TI0173V0
                                                                                             INTERSECTION
                                  GRANT	TO	
                                                                                             CONSTRUCTION	
                                  GOVERNMENT	
                                                                                             FOR	ROUTE	11	                   OPEN	ADVER-
                         DOT      OF	GUAM	GU-            $	13,769,791	     $	13,769,791	                           RFP                             3
                                                                                             AND	ROUTE	1/11	                  TISEMENT
                                  DAR-0011	(008)	
                                                                                             INTERSECTION
                                  27XX66001100873V0
                                                                                             CONSTRUCTION	
                                                                                             MANAGEMENT	
                                  GRANT	TO	                                                  FOR	ROUTE	1	
                                                                                                                              BASE	CON-
                                  GOVERNMENT	                                                AGANA	BRIDGES,	
                                                                                                                   ID/IQ	    TRACT	-	OPEN	
                         DOT      OF	GUAMGU-            $		2,117,165	     $		2,117,165	     ROUTE	1/8	                                            5
                                                                                                                   RFP        ADVERTISE-
                                  NH-PCMS	(001)	                                             INTERSECTION,	
                                                                                                                                MENT
                                  27XX66PCMS00173V0		                                        ROUTE	11	AND	
                                                                                             ROUTE	1/11	
Section	2835(e)(1)(e)




                                                                                             INTERSECTION
                                  GRANT	TO	                                                  PROFESSIONAL	                    BASE	CON-
                                  GOVERNMENT	OF	                                             SERVICES	FOR	                   TRACT	-	OPEN	
                         DOT                             $							61,418	   $							61,418	                   RFP                                   3
                                  GUAM	GU-NH-PSAS	                                           ARCHAEOLOGICAL	                  ADVERTISE-
                                  (001)                                                      SUPPORT                            MENT
	




                        Guam RealiGnment RepoRt
                                                                                      62
                        FebRuaRy 1, 2012
                                                                 Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                   Mechanisms Data (Section 2835(e)(1)(E))


                                                             Amount
                                                            Obligated
                 Contract, Grant,                           January 1-                                   Method
               Agreement, or Other                         December 31,                                  Used to
               Funding Mechanism           Ceiling             2010                                      Solicit                       Offers
 Agency               Title                Amount          (U.S. Funds)      Scope / Description          Offers   Offers Solicited   Received
                                                                             TECHNICAL	
           GRANT	TO	                                                         SUPPORT	                               BASE	CON-
           GOVERNMENT	OF	                                                    SERVICES	ISLAND-                      TRACT	-	OPEN	
 DOT                                     $							19,000	   $							19,000	                    RFP                                        1
           GUAM	GU-NH-TSIS	                                                  WIDE	QUALITY	                          ADVERTISE-
           (002)                                                             ASSURANCE	                               MENT
                                                                             TESTING
                                                                             Guam	Waterworks	
                                                                             Authority	in-kind	
 EPA       EP099BOA002                   $		2,473,412      $		2,473,412                              RFQ                  8              3
                                                                             services	technical	
                                                                             support.
                                                                             Support	for	
                                                                                                     Federal	
                                                                             Adaptive	Program	
                                                                                                     Business	
 EPA       EP-R9-08-01                   $							32,000    $							32,000    Management	(EPA	                            N/A             1
                                                                                                     Opportu-
                                                                             Program)	for	Guam	
                                                                                                     nities
                                                                             Military	Buildout	
  Total    	                                               $ 36,310,180      	                       	                    	              	

Source: DOT response to DoD OIG data call, 1/6/2012; EPA response to DoD OIG data call, 1/4/2012.	




                                                                                                                                                 Section	2835(e)(1)(e)
                                                                                                                                                 	




                                                                                                               Guam RealiGnment RepoRt
                                                                       63
                                                                                                                       FebRuaRy 1, 2012
                          Appendices




Guam RealiGnment RepoRt
                              64
FebRuaRy 1, 2012
                                             Appendix A. Legislative Mandates for Guam Realignment in
                                                    the National Defense Authorization Act for FY 2010


     Appendix A. Legislative Mandates
     for Guam Realignment in the
     National Defense Authorization Act
     for FY 2010
SEC. 2831. ROLE OF DEPARTMENT OF DEFENSE IN MANAGEMENT AND
           COORDINATION OF DEFENSE ACTIVITIES RELATING TO
           GUAM REALIGNMENT.
       (a) DEPUTY SECRETARY OF DEFENSE.—Section 132 of title 10, U.S. Code, is amended by
adding at the end the following new subsection:
       ‘‘(d) Until September 30, 2015, the Deputy Secretary of Defense shall lead the Guam Executive
       Council and shall be the Department of Defense’s principal representative for coordinating the
       interagency efforts in matters relating to Guam, including the following executive orders:
               ‘‘(1) Executive Order No. 13299 of May 12, 2003 (68 Fed. Reg. 25477; 48 U.S.C. note
       prec. 1451; relating to the Interagency Group on Insular Affairs).
               ‘‘(2) Executive Order No. 12788 of January 15, 1992, as amended (57 Fed. Reg. 2213;
       relating to the Defense Economic Adjustment Program).’’

        (b) REPORT.—Not later than 90 days after the date of the enactment of this Act, the Secretary
of Defense shall submit to the congressional defense committees a report including the charter that
establishes the Guam Executive Council.

SEC. 2832. CLARIFICATIONS REGARDING USE OF SPECIAL PURPOSE
           ENTITIES TO ASSIST WITH GUAM REALIGNMENT.
         (a) SPECIAL PURPOSE ENTITY DEFINED.—In this section, the term ‘‘special purpose
entity’’ means any private person, corporation, firm, partnership, company, State or local government, or
authority or instrumentality of a State or local government that the Secretary of Defense determines is
capable of producing military family housing or providing utilities to support the realignment of military
installations and the relocation of military personnel on Guam.

        (b) REPORT ON INTENDED USE SPECIAL PURPOSE ENTITIES.—
                (1) REPORT REQUIRED.—Not later than 180 days after the date of the enactment
of this Act, the Secretary of Defense shall submit to the congressional defense committees a report
describing the intended use of special purpose entities to provide military family housing or utilities to
support the realignment of military installations and the relocation of military personnel on Guam.
                (2) NOTICE AND WAIT.—The Secretary of Defense may not authorize the use of
special use entities as described in paragraph (1) until the end of the 30-day period (15-day period if the
                                                                                                              APPENDICES

report is submitted electronically) beginning on the date on which the report required by such paragraph
is submitted.

       (c) APPLICABILITY OF UNIFIED FACILITIES CRITERIA.—
              (1) APPLICABILITY TO SECTION 2350K CONTRIBUTIONS.—Section 2824(c)(4) of
       the Military Construction Authorization Act for Fiscal Year 2009 (division B of Public Law 110–
       417; 10 U.S.C. 2687 note) is amended by adding at the end the following new subparagraph:
                                                                                                              	




                                                                                Guam RealiGnment RepoRt
                                                 65
                                                                                        FebRuaRy 1, 2012
              Appendix A. Legislative Mandates for Guam Realignment in
              the National Defense Authorization Act for FY 2010

                             ‘‘(D) APPLICABILITY OF UNIFIED FACILITIES CRITERIA.—
                     The unified facilities criteria promulgated by the Under Secretary of Defense for Acquisition,
                     Technology, and Logistics and dated May 29, 2002, and any successor to such criteria shall be
                     the minimum standard applicable to projects funded using contributions referred to in subsection
                     (b)(1) for a transaction authorized by paragraph (1).’’.

                               (2) APPLICABILITY TO SPECIAL PURPOSE ENTITY CONTRIBUTIONS.—The
              unified facilities criteria promulgated by the Under Secretary of Defense for Acquisition, Technology,
              and Logistics and dated May 29, 2002, and any successor to such criteria shall be the minimum standard
              applicable to projects funded using contributions provided by a special purpose entity.
                               (3) REPORT.—Not later than 180 days after the date of the enactment of this Act, the
              Secretary of Defense shall submit to the congressional defense committees a report containing an
              evaluation of various options, including a preferred option, that the Secretary could utilize to comply
              with the unified facilities criteria referred to in paragraph (2) in the acquisition of military housing
              on Guam in connection with the realignment of military installations and the relocation of military
              personnel on Guam. In preparing the report, the Secretary shall consider the impact of—
                                        (A) increasing the overseas housing allowance for members of the Armed Forces
                               serving on Guam; and
                                        (B) providing a direct Federal subsidy to public-private ventures.

                      (d) SENSE OF CONGRESS ON SCOPE OF UTILITY INFRASTRUCTURE
              IMPROVEMENTS.—Section 2821 of the Military Construction Authorization Act for Fiscal Year 2009
              (division B of Public Law 110–417; 122 Stat. 4729) is amended—
                               (1) by redesignating subsection (c) as subsection (b); and
                               (2) in such subsection, by striking ‘‘should incorporate the civilian and military infra-
              structure into a single grid to realize and maximize the effectiveness of the overall utility system’’ and
              inserting ‘‘should support proposed utility infrastructure improvements on Guam that incorporate the
              civilian and military infrastructure into a single grid to realize and maximize the effectiveness of the
              overall utility system, rather than simply supporting one or more military installations’’.

              SEC. 2833. WORKFORCE ISSUES RELATED TO MILITARY CONSTRUCTION
                         AND CERTAIN OTHER TRANSACTIONS ON GUAM.
                     (a) PREVAILING WAGE REQUIREMENTS.—Subsection (c) of section 2824 of the Military
              Construction Authorization Act for Fiscal Year 2009 (division B of Public Law 110–417; 10 U.S.C.
              2687 note) is amended by adding at the end the following new paragraph:
                             ‘‘(5) APPLICATION OF PREVAILING WAGE REQUIREMENTS.—
                                      ‘‘(A) IN GENERAL.—The requirements of subchapter IV of chapter 31 of
                             title 40, U.S. Code, shall apply to any military construction project or other transaction
                             authorized by paragraph (1) that is carried out on Guam using contributions referred to in
                             subsection (b)(1) or appropriated funds.
                                      ‘‘(B) SECRETARY OF LABOR AUTHORITIES.—In order to carry out
APPENDICES




                             the requirements of subparagraph (A) and paragraph (6) (relating to composition of
                             workforce for construction projects), the Secretary of Labor shall have the authority and
                             functions set forth in Reorganization Plan Number 14 of 1950 and section 3145 of title
                             40, U.S. Code.
                                      ‘‘(C) WAGE RATE DETERMINATION.—In making wage rate determinations
                             pursuant to subparagraph (A), the Secretary of Labor shall not include in the wage survey
                             any persons who hold a visa described in section 101(a)(15)(H)(ii)(b) of the Immigration
                             and Nationality Act (8 U.S.C. 1101(a)(15)(H)(ii)(b)).
	




             Guam RealiGnment RepoRt
                                                                     66
             FebRuaRy 1, 2012
                                             Appendix A. Legislative Mandates for Guam Realignment in
                                                    the National Defense Authorization Act for FY 2010

                       ‘‘(D) ADDITION TO WEEKLY STATEMENT ON THE WAGES PAID.—In
               the case of projects and other transactions covered by subparagraph (A), the weekly
               statement required by section 3145 of title 40, U.S. Code, shall also identify each
               employee working on the project or transaction who holds a visa described in section
               101(a)(15)(H)(ii)(b) of the Immigration and Nationality Act (8 U.S.C. 1101(a)(15)(H)(ii)
               (b)).”
                       ‘‘(E) DURATION OF REQUIREMENTS.—The Secretary of Labor shall make
               and issue a wage rate determination for Guam annually until 90 percent of the funds in
               the Account and other funds made available for the realignment of military installations
               and the relocation of military personnel on Guam have been expended.’’

    (b) REPORTING REQUIREMENTS REGARDING SUPPORT OF CONSTRUCTION
WORKFORCE.—Subsection (e) of such section is amended—
           (1) by striking ‘‘Not later than’’ and inserting the following:
           ‘‘(1) MILITARY CONSTRUCTION INFORMATION.—Not later than’’; and
           (2) by adding at the end the following new paragraph:
           ‘‘(2) CONSTRUCTION WORKFORCE INFORMATION.—The annual report shall also
           include an assessment of the living standards of the construction workforce employed to
           carry out military construction projects covered by the report, including, at a minimum,
           the adequacy of contract standards and infrastructure that support temporary housing the
           construction workforce and their medical needs.’’

SEC. 2834. COMPOSITION OF WORKFORCE FOR CONSTRUCTION
           PROJECTS FUNDED THROUGH THE SUPPORT FOR
           U.S. RELOCATION TO GUAM ACCOUNT.
       (a) COMPOSITION OF WORKFORCE.—Section 2824(c) of the Military Construction
Authorization Act for Fiscal Year 2009 (division B of Public Law 110–417; 10 U.S.C. 2687 note) is
amended by inserting after paragraph (5), as added by section 2833, the following new paragraph:
              ‘‘(6) COMPOSITION OF WORKFORCE FOR CONSTRUCTION PROJECTS.—
                       ‘‘(A) LIMITATION.—With respect to each construction project that is carried
              out using amounts described in subparagraph (B), no work may be performed by a
              person holding a visa described in section 101(a)(15)(H)(ii)(b) of the Immigration and
              Nationality Act (8 U.S.C. 1101(a)(15)(H)(ii)(b)) unless—
                               ‘‘(i) the application for that visa has been approved pursuant to the
                       issuance of a temporary labor certification by the Governor of Guam as provided
                       under section 214.2 of title 8, Code of Federal Regulations;” and
                               ‘‘(ii) the Governor of Guam, in consultation with the Secretary of Labor,
                       makes the certification described in subparagraph (C) to the Secretary of Defense.
                       ‘‘(B) SOURCE OF FUNDS.—Subparagraph (A) applies to—
                               ‘‘(i) amounts in the Account used for projects associated with the
                       realignment of military installations and the relocation of military personnel on
                                                                                                               APPENDICES

                       Guam;
                               ‘‘(ii) funds associated with activities under section 2821 of this Act; and
                               ‘‘(iii) funds for authorized military construction projects.”
                       ‘‘(C) CERTIFICATION.—The certification referred to in subparagraph (A) is a
              certification, in addition to the certifications required by section 214.2 of title 8, Code of
              Federal Regulations, that—
                                                                                                               	




                                                                                 Guam RealiGnment RepoRt
                                                 67
                                                                                         FebRuaRy 1, 2012
              Appendix A. Legislative Mandates for Guam Realignment in
              the National Defense Authorization Act for FY 2010

                                            ‘‘(i) there are not sufficient U.S. workers who are able, willing, qualified,
                                    and available at the time of application for a visa and admission to the U.S. and at
                                    the place where the persons holding visas described in section 101(a)(15)(H)(ii)
                                    (b) of the Immigration and Nationality Act (8 U.S.C. 1101(a)(15)(H)(ii)(b)) are to
                                    perform such skilled or unskilled labor; and
                                            ‘‘(ii) the employment of such persons holding visas described in section
                                    101(a)(15)(H)(ii)(b) of the Immigration and Nationality Act (8 U.S.C. 1101(a)
                                    (15)(H)(ii)(b)) will not adversely affect the wages and working conditions of
                                    workers in Guam similarly employed.
                                    ‘‘(D) SOLICITATION OF WORKERS.—In order to ensure compliance with
                           subparagraph (A), as a condition of a contract covered by such subparagraph, the
                           contractor shall be required to advertise and solicit for construction workers in the
                           U.S., including Guam, the Commonwealth of the Northern Mariana Islands, American
                           Samoa, the Virgin Islands, and the Commonwealth of Puerto Rico, in accordance with a
                           recruitment plan approved by the Secretary of Labor. The contractor shall submit a copy
                           of the employment offer, including a description of wages and other terms and conditions
                           of employment, to the Secretary of Labor at least 60 days before the start date of the
                           workers under a contract. The contractor shall authorize the Secretary of Labor to post a
                           notice of the employment offer on a website, with State, territorial, and local job banks,
                           with State and territorial workforce agencies, and with any other referral and recruitment
                           sources the Secretary of Labor determines may be pertinent to the employment
                           opportunity.”
                                    ‘‘(E) RECRUITMENT PERIOD.—The Secretary of Labor shall ensure that a
                           contractor’s recruitment of construction workers complies with the recruitment plan
                           required by subparagraph (D) for a period beginning 60 days before the start date of
                           workers under a contract and continuing for the next 28 days. During the recruitment
                           period, the contractor shall interview all qualified and available U.S. construction
                           workers who have applied for the employment opportunity, and, at the close of the
                           recruitment period, the contractor shall provide the Secretary of Labor with a recruitment
                           report providing any reasons for which the contractor did not hire an applicant who is
                           a qualified U.S. construction worker. Not later than 21 days before the start date of the
                           workers under a contract, the Secretary of Labor shall certify to the Governor of Guam
                           whether the contractor has satisfied the recruitment plan created under subparagraph
                           (D).”
                                    ‘‘(F) LIMITATION.—An employer, its attorney or agent, the Secretary of Labor,
                           the Governor of Guam, and any designee thereof, may not seek or receive payment
                           of any kind from any worker for any activity related to obtaining an H–2B labor
                           certification with respect to any construction project that is carried out using amounts
                           described in subparagraph (B).’’
              	
                    (b) REPORTING REQUIREMENTS.—
APPENDICES




                            (1) SECRETARY OF DEFENSE.—Not later than June 30, 2010, the Secretary of
                    Defense shall submit to the congressional committees specified in paragraph (3) a report
                    containing an assessment of efforts to establish a Project Labor Agreement for construction
                    projects associated with the Guam realignment as encouraged by Executive Order 13502,
                    entitled ‘‘Use of Project Labor Agreements for Federal Construction Projects’’ (74 Fed. Reg.
                    6985), as a means of complying with the requirements of paragraph (6) of section 2824(c) of the
                    Military Construction Authorization Act for Fiscal Year 2009, as added by subsection (a).
	




             Guam RealiGnment RepoRt
                                                                    68
             FebRuaRy 1, 2012
                                             Appendix A. Legislative Mandates for Guam Realignment in
                                                    the National Defense Authorization Act for FY 2010

               (2) SECRETARY OF LABOR.—Not later than June 30, 2010, the Secretary of Labor
       shall submit to the congressional committees specified in paragraph (3) a report containing an
       assessment of—
                       (A) the opportunities to expand the recruitment of construction workers in the
               U.S., including Guam, the Commonwealth of the Northern Mariana Islands, American
               Samoa, the Virgin Islands, and the Commonwealth of Puerto Rico, to support the
               realignment of military installations and the relocation of military personnel on Guam,
               consistent with the requirements of paragraph (6) of section 2824(c) of the Military
               Construction Authorization Act for Fiscal Year 2009, as added by subsection (a);
                       (B) the ability of labor markets to support the Guam realignment;
                       (C) the sufficiency of efforts to recruit U.S. construction workers; and
                       (D) the costs to the U.S. for recruitment plans required by such paragraph (6) and
               a proposed method to cover such costs.
               (3) COVERED CONGRESSIONAL COMMITTEES.—The reports required by this
       subsection shall be submitted to the congressional defense committees, the Committee on
       Education and Labor of the House f Representatives, and the Committee on Health, Education,
       Labor, and Pensions of the Senate.

SEC. 2835. INTERAGENCY COORDINATION GROUP OF INSPECTORS
            GENERAL FOR GUAM REALIGNMENT.
        (a) INTERAGENCY COORDINATION GROUP.—There is hereby established the Interagency
Coordination Group of Inspectors General for Guam Realignment (in this section referred to as the
‘‘Interagency Coordination Group’’)—
                (1) to provide for the objective conduct and supervision of audits and investigations
        relating to the programs and operations funded with amounts appropriated or otherwise made
        available for military construction on Guam in connection with the realignment of military
        installations and the relocation of military personnel on Guam; and
                (2) to provide for coordination of, and recommendations on, policies designed—
                        (A) to promote economic efficiency and effectiveness in the administration of the
                programs and operations described in paragraph (1); and
                        (B) to prevent and detect waste, fraud, and abuse in such programs and operations.

       (b) MEMBERSHIP.—
               (1) CHAIRPERSON.—The Inspector General of the Department of Defense shall serve
       as chairperson of the Interagency Coordination Group.
               (2) ADDITIONAL MEMBERS.—Additional members of the Interagency Coordination
       Group shall include the Inspector General of the Department of Interior and the Inspector
       General of such other Federal agencies as the chairperson considers appropriate to carry out the
       duties of the Interagency Coordination Group.

       (c) DUTIES.—
                                                                                                             APPENDICES

                (1) OVERSIGHT OF GUAM CONSTRUCTION.—It shall be the duty of the
       Interagency Coordination Group to conduct, supervise, and coordinate audits and investigations
       of the treatment, handling, and expenditure of amounts appropriated or otherwise made available
       for military construction on Guam and of the programs, operations, and contracts carried out
       utilizing such funds, including—
                       (A) the oversight and accounting of the obligation and expenditure of such funds;
                       (B) the monitoring and review of construction activities funded by such funds;
                       (C) the monitoring and review of contracts funded by such funds;
                                                                                                             	




                                                                               Guam RealiGnment RepoRt
                                                69
                                                                                       FebRuaRy 1, 2012
              Appendix A. Legislative Mandates for Guam Realignment in
              the National Defense Authorization Act for FY 2010

                                    (D) the monitoring and review of the transfer of such funds and associated
                            information between and among departments, agencies, and entities of the U.S. and
                            private and nongovernmental entities;
                                    (E) the maintenance of records on the use of such funds to facilitate future audits
                            and investigations of the use of such fund; and
                                    (F) the monitoring and review of the implementation of the Defense Posture
                            Review Initiative relating to the realignment of military installations and the relocation of
                            military personnel on Guam.
                            (2) OTHER DUTIES RELATED TO OVERSIGHT.—The Interagency Coordination
                    Group shall establish, maintain, and oversee such systems, procedures, and controls as the
                    Interagency Coordination Group considers appropriate to discharge the duties under paragraph
                    (1).
                            (3) OVERSIGHT PLAN.—The chairperson of the Interagency Coordination Group
                    shall prepare an annual oversight plan detailing planned audits and reviews related to the Guam
                    realignment.

                    (d) ASSISTANCE FROM FEDERAL AGENCIES.—
                            (1) PROVISION OF ASSISTANCE.—Upon request of the Interagency Coordination
                    Group for information or assistance from any department, agency, or other entity of the Federal
                    Government, the head of such entity shall, insofar as is practicable and not in contravention of
                    any existing law, furnish such information or assistance to the Interagency Coordination Group.
                            (2) REPORTING OF REFUSED ASSISTANCE.—Whenever information or assistance
                    requested by the Interagency Coordination Group is, in the judgment of the chairperson of the
                    Interagency Coordination Group, unreasonably refused or not provided, the chairperson shall
                    report the circumstances to the Secretary of Defense and to the congressional defense committees
                    without delay.

                    (e) REPORTS.—
                             (1) ANNUAL REPORTS.—Not later than February 1 of each year, the chairperson of the
                    Interagency Coordination Group shall submit to the congressional defense committees, the
                    Secretary of Defense, and the Secretary of the Interior a report summarizing, for the preceding
                    calendar year, the activities of the Interagency Coordination Group during such year and the
                    activities under programs and operations funded with amounts appropriated or otherwise made
                    available for military construction on Guam. Each report shall include, for the year covered by
                    the report, a detailed statement of all obligations, expenditures, and revenues associated with
                    such construction, including the following:
                                     (A) Obligations and expenditures of appropriated funds.
                                     (B) A project-by-project and program-by-program accounting of the costs
                             incurred to date for military construction in connection with the realignment of military
                             installations and the relocation of military personnel on Guam, together with the estimate
APPENDICES




                             of the Department of Defense and the Department of the Interior, as applicable, of the
                             costs to complete each project and each program.
                                     (C) Revenues attributable to or consisting of funds contributed by the Government
                             of Japan in connection with the realignment of military installations and the relocation of
                             military personnel on Guam and any obligations or expenditures of such revenues.
                                     (D) Operating expenses of agencies or entities receiving amounts appropriated or
                             otherwise made available for military construction on Guam.
	




             Guam RealiGnment RepoRt
                                                                    70
             FebRuaRy 1, 2012
                                      Appendix A. Legislative Mandates for Guam Realignment in
                                             the National Defense Authorization Act for FY 2010

                (E) In the case of any contract, grant, agreement, or other funding mechanism
        described in paragraph (2)—
                        (i) the amount of the contract, grant, agreement, or other funding
                mechanism;
                        (ii) a brief discussion of the scope of the contract, grant, agreement, or
                other funding mechanism;
                        (iii) a discussion of how the department or agency of the U.S. Government
                involved in the contract, grant, agreement, or other funding mechanism identified,
                and solicited offers from, potential individuals or entities to perform the contract,
                grant, agreement, or other funding mechanism, together with a list of the potential
                individuals or entities that were issued solicitations for the offers; and
                        (iv) the justification and approval documents on which was based the
                determination to use procedures other than procedures that provide for full and
                open competition.
        (2) COVERED CONTRACTS, GRANTS, AGREEMENTS, AND FUNDING
MECHANISMS.—A contract, grant, agreement, or other funding mechanism described in this
paragraph is any major contract, grant, agreement, or other funding mechanism that—
                (A) is entered into by any department or agency of the U.S. Government with any
        public or private sector entity; and
                (B) involves the use of amounts appropriated or otherwise made available for
        military construction on Guam.
        (3) FORM.—Each report required under this subsection shall be submitted in unclassified
form, but may include a classified annex if the Interagency Coordination Group considers it
necessary.
        (4) RULE OF CONSTRUCTION.—Nothing in this subsection shall be construed to
authorize the public disclosure of information that is—
                (A) specifically prohibited from disclosure by any other provision of law;
                (B) specifically required by Executive order to be protected from disclosure in the
        interest of national defense or national security or in the conduct of foreign affairs; or
                (C) a part of an ongoing criminal investigation.
        (5) SUBMISSION OF COMMENTS.—Not later than 30 days after receipt of a report
under paragraph (1), the Secretary of Defense or the Secretary of the Interior may submit to
the congressional defense committees any comments on the matters covered by the report as
the Secretary concerned considers appropriate. Any comments on the matters covered by the
report shall be submitted in unclassified form, but may include a classified annex if the Secretary
concerned considers it necessary.

(f) PUBLIC AVAILABILITY; WAIVER.—
        (1) PUBLIC AVAILABILITY.—The Interagency Coordination Group shall publish on a
publically-available Internet website each report prepared under subsection (e). Any comments
on the report submitted under paragraph (5) of such subsection shall also be published on such
                                                                                                        APPENDICES

website.
        (2) WAIVER AUTHORITY.—The President may waive the requirement under paragraph
(1) with respect to availability to the public of any element in a report under subsection (e), or
any comment with respect to a report, if the President determines that the waiver is justified for
national security reasons.
        (3) NOTICE OF WAIVER.—The President shall publish a notice of each waiver made
under this subsection in the Federal Register no later than the date on which a report required
under subsection (e), or any comment under paragraph (5) of such subsection, is submitted to
                                                                                                        	




                                                                         Guam RealiGnment RepoRt
                                          71
                                                                                 FebRuaRy 1, 2012
              Appendix A. Legislative Mandates for Guam Realignment in
              the National Defense Authorization Act for FY 2010

                     the congressional defense committees. The report and comments shall specify whether waivers
                     under this subsection were made and with respect to which elements in the report or which
                     comments, as appropriate.

                     (g) DEFINITIONS.—In this section:
                           (1) AMOUNTS APPROPRIATED OR OTHERWISE MADE AVAILABLE.— The term
                     ‘‘amounts appropriated or otherwise made available for military construction on Guam’’ includes
                     amounts derived from the Support for U.S. Relocation to Guam Account.
                           (2) GUAM.—The term ‘‘Guam’’ includes any island in the Northern Mariana Islands.

                     (h) TERMINATION.—
                            (1) IN GENERAL.—The Interagency Coordination Group shall terminate upon the
                     expenditure of 90 percent of all funds appropriated or otherwise made available for Guam
                     realignment.
                            (2) FINAL REPORT.—Before the termination of the Interagency Coordination Group
                     pursuant to paragraph (1), the chairperson of the Interagency Coordination Group shall prepare
                     and submit to the congressional defense committees a final report containing—
                                    (A) notice that the termination condition in paragraph (1) has occurred; and
                                    (B) a final forensic audit on programs and operations funded with amounts
                            appropriated or otherwise made available for military construction on Guam.

              SEC. 2836. COMPLIANCE WITH NAVAL AVIATION SAFETY
                         REQUIREMENTS AS CONDITION ON ACCEPTANCE OF
                         REPLACEMENT FACILITY FOR MARINE CORPS AIR STATION,
                         FUTENMA, OKINAWA.
                      (a) IN GENERAL.—The Secretary of Defense may not accept, or authorize any other official
              of the Department of Defense to accept, a replacement facility in Okinawa for air operations conducted
              at Marine Corps Air Station, Futenma, Okinawa until the Secretary reports to the congressional defense
              committees that the replacement facility and its planned operating procedures are consistent with naval
              aviation safety requirements.

                     (b) EXERCISE OF WAIVER AUTHORITIES.—
                             (1) RULE OF CONSTRUCTION.—Nothing in this section shall be construed as
                     preventing the Secretary from exercising existing waiver authorities provided the Secretary first
                     determines the waiver is necessary in the interest of national defense.
                             (2) REQUIRED REPORTING OF EFFORTS.—The report specified under subsection
                     (a) shall clearly identify efforts made to mitigate deviations from criteria in the planning and
                     construction of the replacement facility described in such subsection.
APPENDICES
	




             Guam RealiGnment RepoRt
                                                                    72
             FebRuaRy 1, 2012
                                             Appendix A. Legislative Mandates for Guam Realignment in
                                                    the National Defense Authorization Act for FY 2010


SEC. 2837. REPORT AND SENSE OF CONGRESS ON MARINE CORPS
           REQUIREMENTS IN ASIA-PACIFIC REGION.
        (a) REPORT REQUIRED.—Not later than 180 days after the date of the enactment of this Act,
the Secretary of Defense shall submit to the congressional defense committees a report on the training
and readiness requirements necessary for Marine Forces Pacific, the field command of the Marine Corps
within the U.S. Pacific Command.

        (b) CONTENTS OF REPORT.—The report required under subsection (a) shall contain each of
the following:
                (1) A description of the units of the Marine Corps expected to be assigned or realigned
        on a permanent or temporary basis to Marine Forces Pacific, including the type of unit, the
        organizational element, the current location of the unit, and proposed location for the unit.
                (2) A description of the training requirements necessary to sustain the current and planned
        realignment of forces specified in paragraph (1).
                (3) A description of the strategic- and tactical-lift requirements associated with the
        training, operational readiness, and movement of Marine Forces Pacific, including programming
        information regarding the intent of the Department of Defense to eliminate deficiencies in the
        strategic-lift capabilities.

       (c) SENSE OF CONGRESS.—It is the sense of Congress that an evaluation of training and
readiness requirements for Marine Forces Pacific—
               (1) should be conducted and completed as soon as possible;
               (2) should include an analysis that, at a minimum, reviews the capabilities required to
       support the training, operational readiness, and movement of Marine Air-Ground Task Force; and
               (3) should not impact the implementation of the recently signed international agreement
       entitled ‘‘Agreement between the Government of the U.S. of America and the Government of
       Japan concerning the Implementation of the Relocation of the III Marine Expeditionary Force
       Personnel and their Dependents from Okinawa to Guam’’.




                                                                                                              APPENDICES
                                                                                                              	




                                                                                Guam RealiGnment RepoRt
                                                 73
                                                                                        FebRuaRy 1, 2012
              Appendix B. Legislative Mandates for Guam Realignment in
              the National Defense Authorization Act for FY 2012


                   Appendix B. Legislative Mandates
                   for Guam Realignment in the
                   National Defense Authorization Act
                   for FY 2012
              SEC. 346. STUDY ON UNITED STATES FORCE POSTURE IN THE UNITED
                         STATES PACIFIC COMMAND AREA OF RESPONSIBILITY.
                     (a) Independent Assessment-
                             (1) IN GENERAL- The Secretary of Defense, in consultation with the Chairmen and
                     Ranking Members of the Committees on Armed Services of the Senate and the House of
                     Representatives, shall commission an independent assessment of United States security interests
                     in the United States Pacific Command area of responsibility. The assessment shall be conducted
                     by an independent, non-governmental institute which is described in section 501(c)(3) of the
                     Internal Revenue Code of 1986 and exempt from tax under section 501(a) of such Code, and has
                     recognized credentials and expertise in national security and military affairs with ready access to
                     policy experts throughout the country and from the region.
                             (2) ELEMENTS- The assessment conducted pursuant to paragraph (1) shall include the
                     following elements:
                                     (A) A review of current and emerging United States national security interests in
                             the United States Pacific Command area of responsibility.
                                     (B) A review of current United States military force posture and deployment plans
                             of the United States Pacific Command.
                                     (C) Options for the realignment of United States forces in the region to respond to
                             new opportunities presented by allies and partners.
                                     (D) The views of noted policy leaders and regional experts, including military
                             commanders in the region.

                      (b) Report- Not later than 90 days after the date of the enactment of this Act, the designated
              private entity shall provide an unclassified report, with a classified annex, containing its findings to
              the Secretary of Defense. Not later than 90 days after the date of receipt of the report, the Secretary of
              Defense shall transmit the report to the congressional defense committees, together with such comments
              on the report as the Secretary considers appropriate.

                      (c) Authorization of Appropriations- Of the amounts authorized to be appropriated under
              section 301 for operation and maintenance for Defense-wide activities, up to $1,000,000, shall be made
              available for the completion of the study required under this section.
APPENDICES




              SEC. 2207. GUAM REALIGNMENT
                      (a) Restriction on Use of Funds- Except as provided in subsection (c), notwithstanding any
              other provision of law, none of the funds authorized to be appropriated under this Act, and none of the
              amounts provided by the Government of Japan for military construction activities on land under the
              jurisdiction of the Department of Defense, may be obligated to implement the realignment of United
              States Marine Corps forces from Okinawa to Guam as envisioned in the United States-Japan Roadmap
              for Realignment Implementation issued May 1, 2006, until-
	




             Guam RealiGnment RepoRt
                                                                     74
             FebRuaRy 1, 2012
                                             Appendix B. Legislative Mandates for Guam Realignment in
                                                    the National Defense Authorization Act for FY 2012

               (1) the Commandant of the Marine Corps, in consultation with the Commander of
       the United States Pacific Command, provides the congressional defense committees the
       Commandant’s preferred force lay-down for the United States Pacific Command Area of
       Responsibility;
               (2) the Secretary of Defense submits to the congressional defense committees a master
       plan for the construction of facilities and infrastructure to execute the Commandant’s preferred
       force lay-down on Guam, including a detailed description of costs and a schedule for such
       construction;
               (3) the Secretary of Defense certifies to the congressional defense committees that
       tangible progress has been made regarding the relocation of Marine Corps Air Station Futenma;
               (4) a plan coordinated by all pertinent Federal agencies is provided to the congressional
       defense committees detailing descriptions of work, costs, and a schedule for completion of
       construction, improvements, and repairs to the non-military utilities, facilities, and infrastructure
       on Guam affected by the realignment of forces; and
               (5) the Secretary of Defense--
                       (A) submits to the congressional defense committees the report on the assessment
               of the United States force posture in East Asia and the Pacific region required under
               section 346 of this Act; or
                       (B) certifies to the congressional defense committees that the deadline established
               under such section for the submission of such report has not been met.

       (b) Development of Public Infrastructure-
               (1) AUTHORIZATION REQUIRED- Notwithstanding any other provision of law, if
       the Secretary of Defense determines that any grant, cooperative agreement, transfer of funds
       to another Federal agency, or supplement of funds available in fiscal year 2012 under Federal
       programs administered by agencies other than the Department of Defense will result in the
       development (including repair, replacement, renovation, conversion, improvement, expansion,
       acquisition, or construction) of public infrastructure on Guam, such grant, transfer cooperative
       agreement, or supplemental funding shall be specifically authorized by law.
               (2) PUBLIC INFRASTRUCTURE DEFINED- In this section, the term `public
       infrastructure’ means any utility, method of transportation, item of equipment, or facility under
       the control of a public entity or State or local government that is used by, or constructed for the
       benefit of, the general public.

       (c) Exception to Restriction on Use of Funds- The Secretary of Defense may use funds described
in subsection (a) to carry out additional analysis under the National Environmental Policy Act of 1969 to
include the following actions:
                (1) A re-evaluation of live-fire training range complex alternatives, based upon the
       application of probabilistic modeling; and
                (2) The ongoing analysis on the impacts of the realignment and build-up on Guam as
       described in subsection (a) on coral reefs in Apra Harbor, Guam.
                                                                                                               APPENDICES
                                                                                                               	




                                                                                 Guam RealiGnment RepoRt
                                                 75
                                                                                         FebRuaRy 1, 2012
              Appendix C. Guam Realignment Related Reports
              and Testimonies


                  Appendix C. Guam Realignment
                  Related Reports and Testimonies

                 Agency or
                   Office                           Report Title                       Report Number   Report Date
                              Military Build-Up on Guam: Cost and Challenges in
                 GAO                                                                    GAO 11-459R     6/27/2011
                              Meeting Construction Timelines
                              Comprehensive Cost Information and Analysis of
                 GAO                                                                    GAO 11-316      5/25/2011
                              Alternatives Needed to Assess Military Posture in Asia
                              The Navy Needs Better Documentation to Support its
                 GAO                                                                    GAO 11-206      4/5/2011
                              Proposed Military Treatment Facilities on Guam
                              Actions Needed to Improve DoDs ability to Manage
                 GAO          Assess, and Report on Global Defense Posture              GAO 09-706R     7/2/2009
                              Initiatives
                              Defense Infrastructure: Guam Needs Timely
                              Information From DoD to Meet Challenges in Planning
                 GAO                                                                    GAO 10-90R      11/14/2009
                              and Financing Off-Base Projects and Programs to
                              Support a Larger Military Presence
                              Defense Infrastructure: DoD Needs to Provide Updated
                 GAO          Labor Requirements to Help Guam Adequately Develop        GAO 10-72       10/14/2009
                              Its Labor Force for the Military Buildup
                              Defense Infrastructure: Planning Challenges Could
                 GAO          Increase Risks for DoD in Providing Utility Services      GAO 09-653      6/30/2009
                              When Needed to Support the Military Buildup on Guam
                              High-Level Leadership Needed to Help Guam Address
                 GAO                                                                    GAO 09-500R     4/9/2009
                              Challenges Caused by DoD-Related Growth
                              High Level Leadership Needed to Help Communities
                 GAO                                                                    GAO 08-665      6/17/2008
                              Address Challenges Caused by DoD Related Growth
                              Defense Logistics: Navy Needs to Develop and
                 GAO          Implement a Plan to Ensure That Voyage Repairs Are        GAO 08-427      5/12/2008
                              Available to Ships Operating Near Guam When Needed
                              Defense Infrastructure: Planning Efforts for the
                 GAO          Proposed Military Buildup on Guam Are in Their Initial    GAO 08-722T     5/1/2008
                              Stages, with Many Challenges Yet to Be Addressed
                              Defense Infrastructure: Overseas Master Plans Are
                              Improving, but DoD Needs to Provide Congress
                 GAO                                                                    GAO 07-1015     9/12/2007
                              Additional Information About the Military Buildup on
                              Guam
APPENDICES




                              Acquisition Procedures for the Guam Design–Build
                 DoD OIG                                                                D-2012-031      12/8/2011
                              Multiple Award Construction Contract
                              Guam Medical Plans do not Ensure Active Duty Family
                 DoD OIG                                                                D-2011-092      7/25/2011
                              Members will have Adequate Access to Dental Care
                              DoD Officials Need to Improve Reporting of Obligations
                 DOD OIG                                                                D-2011-075      6/17/2011
                              and Expenditure for the Guam Realignment
                              Planning Needed on Special Purpose Entity Funds for
                 DOD OIG                                                                D-2011-070      6/15/2011
                              Guam Realignment
	




             Guam RealiGnment RepoRt
                                                                     76
             FebRuaRy 1, 2012
                                                         Appendix C. Guam Realignment Related Reports
                                                                                      and Testimonies

Agency or
  Office                            Report Title                        Report Number    Report Date
              Marine Corps Inventory of Small Arms was Generally
DoD OIG       Accurate but Improvements Are Needed for Related           D2011-060        4/22/2011
              Guidance and Training
              Interagency Coordination Group of Inspector Generals’
DoD OIG                                                                                   2/1/2011
              for Guam Annual Report
DoD OIG       Military Family Housing on Okinawa, Japan                  D-2010-084       9/16/2010
              Significant Challenges Remain in the Realignment of
DoD OIG                                                                                   5/14/2010
              US Forces From Okinawa to Guam
              Interagency Coordination Group of Inspector Generals’
DoD OIG                                                                                   2/1/2010
              for Guam Annual Report
              Insular Area Health Care “At the Crossroads of a Total     Hi-EV-
DOI                                                                                       9/2008
              Breakdown”                                                 OIA-0001-2008
              Government of Guam Revitalized Tax Collection and          P-EV-
DOI                                                                                       11/26/2008
              Enforcement Efforts Needed                                 GUA-0002-2008
              Department of Transportation. Report on Single Audit of
DOT                                                                      SA-2011-54       6/24/2011
              the Government of Guam
              Processing of Nonimmigrant Worker Petition in Support
DHS           of U.S. Marine Corps Realignment Construction              DHS OIG 11-14    11/1/2010
              Requirements
          Consideration of Requirements for U.S. Marine Corps
NAVAUDSVC Training Ranges Associated with the Relocation of              N2012-0008       12/8/2011
          Marine Corps Forces to Guam
          Strategy for Considering Energy Efficient and
NAVAUDSVC Renewable Energy Initiatives Associated with the               N2012-0004       11/15/2011
          United States Marine Corps Guam Relocation Effort
              Quality of Life Plans for the USMC Forces Relocating
NAVAUDSVC                                                                N2011-0039       5/27/2011
              from Okinawa to Guam
              Verification of Operational Capabilities and Internal
NAVAUDSVC                                                                N2011-0029       4/27/2011
              Controls at Joint Region Marianas
          Department of the Navy Fiscal Year 2012 Military
NAVAUDSVC Construction Projects Related to the Relocation of U.S         N2011-0014       1/14/2011
          Marine Corps Forces from Okinawa to Guam
          Use of Established DoD Shipping Agreements/
NAVAUDSVC Contracts for Department of the Navy Acquisition on            N2010-0043       7/22/2010
          Guam
          Department of the Navy Proposed FY 2011 Military
NAVAUDSVC Construction Projects Related to the U.S. Marine Corps         N2009-0051       9/1/2009
          Okinawa/Guam Base Relocation
              Department of the Navy Acquisition Checks and
NAVAUDSVC                                                                N2009-0050       9/30/2009
              Balances at Naval Base Guam Supported Activities
              Ocean Bills of Lading for Naval Facilities Engineering
                                                                                                        APPENDICES
NAVAUDSVC                                                                N2009-0047       9/16/2009
              Command Marianas Contracts
          Status of the Department of the Navy Processes
          and Controls Regarding the Management of the
NAVAUDSVC                                                                N2009-0038       7/9/2009
          Government of Japan Funds Related to the Marine
          Corps’ Relocation
              Verification of an Acquisition Strategy for the U.S.
NAVAUDSVC                                                                N2009-0028       5/8/2009
              Marine Corps’ Relocation Effort
                                                                                                        	




                                                                             Guam RealiGnment RepoRt
                                                77
                                                                                     FebRuaRy 1, 2012
              Appendix C. Guam Realignment Related Reports
              and Testimonies


                 Agency or
                   Office                            Report Title                       Report Number   Report Date
                           Auditor General Advisory Report: Department of the
                 NAVAUDSVC Navy's Processes Used to Establish Water Rates for            N2009-0024      4/7/2009
                           Guam Waterworks Authority
                           Department of the Navy Proposed FY 2010
                           Government of Japan Funded Military Construction
                 NAVAUDSVC                                                               N2008-0050      9/17/2008
                           Projects Related to the U.S. Marine Corps Okinawa/
                           Guam Base Relocation
                                Status of Internal Controls at the Joint Guam Program
                 NAVAUDSVC                                                               N2008-0030      4/8/2008
                                Office
                 Defense
                                Audit of Portions of Proposals Submitted in Response     4201-2010
                 Contract                                                                                9/3/2010
                                to Solicitation No 62742-09-R-00                         L270000-02
                 Audit Agency
                 Defense        Audit of Portions of the Direct and Indirect Expense
                                                                                         4901-2010
                 Contract       Rates included in Proposal under Solicitation No.                        4/2/2010
                                                                                         N270000-01
                 Audit Agency   N62742 09 R 0005
APPENDICES
	




             Guam RealiGnment RepoRt
                                                                       78
             FebRuaRy 1, 2012
                                                                       Appendix D. Acronyms


   Appendix D. Acronyms
DFAS         Defense Finance and Accounting Service
DHS          Department of Homeland Security
DOC          Department of Commerce
DoD          Department of Defense
DOI          Department of the Interior
DOL          Department of Labor
DON          Department of the Navy
DOT          Department of Transportation
DPRI         Defense Posture Review Initiative
ED           Department of Education
EPA          Environmental Protection Agency
FRF          Futenma Replacement Facility
FY           Fiscal Year
GAO          Government Accountability Office
GoG          Government of Guam
GOJ          Government of Japan
ICG          Interagency Coordination Group of Inspectors General for Guam Realignment
IPG          Interagency Planning Group
JGPO         Joint Guam Program Office
JPG          Joint Planning Group
MILCON       Military Construction
NAVAUDSVC    Naval Audit Service
NDAA         National Defense Authorization Act
NAVFAC       Naval Facilities Engineering Command
OASN(FM&C)   Office of the Assistant Secretary of the Navy (Financial Management and
             Comptroller)
OEA          Office of Economic Adjustment
OIG          Office of Inspector General
OUSD(C)      Office of the Under Secretary of Defense (Comptroller/Chief Financial Officer)
SCC          Security Consultative Committee
USMC         U.S. Marine Corps




                                                                                               APPENDICES
                                                                                               	




                                                                    Guam RealiGnment RepoRt
                                      79
                                                                            FebRuaRy 1, 2012
Guam RealiGnment RepoRt
                          80
FebRuaRy 1, 2012
                           Department of Defense Office of Inspector General
                                       4800 Mark Center Drive
                                     Alexandria, VA 22350-1500

                          Department of the Interior Office of Inspector General
                                 1849 C Street, N.W. Mail Stop 4428
                                       Washington, D.C. 20240

                            The report is available online at: www.dodig.mil


Guam RealiGnment RepoRt
FebRuaRy 1, 2012
